<html>
<title> - ``PLANNING FOR A CHANGING CLIMATE AND ITS IMPACTS ON WILDLIFE AND OCEANS: STATE AND FEDERAL EFFORTS AND NEEDS''; AND H.R. 4455, WILDLIFE WITHOUT BORDERS AUTHORIZATION ACT.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  ``PLANNING FOR A CHANGING CLIMATE AND ITS IMPACTS ON WILDLIFE AND 
OCEANS: STATE AND FEDERAL EFFORTS AND NEEDS''; AND H.R. 4455, WILDLIFE 
                  WITHOUT BORDERS AUTHORIZATION ACT.

=======================================================================

                             OVERSIGHT AND

                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 24, 2008

                               __________

                           Serial No. 110-79

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-199 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Tom Cole, Oklahoma
Solomon P. Ortiz, Texas              Bill Sali, Idaho
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 24, 2008...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........     4
    Wittman, Hon. Robert J., a Representative in Congress from 
      the State of Virginia......................................     3

Statement of Witnesses:
    Arce, Juan Pablo, Director, Latin America and the Caribbean, 
      NatureServe................................................    94
        Prepared statement of....................................    96
    Arha, Kaush, Ph.D., Deputy Assistant Secretary, Fish, 
      Wildlife and Parks, U.S. Department of the Interior........    72
        Prepared statement of....................................    74
    Ashe, Dan, Science Advisor to the Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................    37
        Prepared statement of....................................    39
    Brunello, Anthony, Deputy Secretary for Climate Change and 
      Energy, California Resources Agency, on behalf of the 
      Coastal States Organization................................    16
        Prepared statement of....................................    18
    Burchfield, Patrick M., Ed.D., MSc, Director, Gladys Porter 
      Zoo........................................................    90
        Prepared statement of....................................    92
    Chasis, Sarah, Senior Attorney and Director, Ocean 
      Initiative, Natural Resources Defense Council..............    22
        Prepared statement of....................................    24
    Clark, Jamie Rappaport, Executive Vice President, Defenders 
      of Wildlife................................................    54
        Prepared statement of....................................    56
    Davidson, Margaret A., Director, Coastal Services Center, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................     6
        Prepared statement of....................................     7
    Dillon, Thomas, Senior Vice President, Field Programs, World 
      Wildlife Fund..............................................    82
        Prepared statement of....................................    84
    Moritz, William, Ph.D., Director of Conservation, Safari Club 
      International Foundation, and Acting Director of 
      Governmental Affairs, Safari Club International............    61
        Prepared statement of....................................    63
    Robinson, John G., Ph.D., Executive Vice President, 
      Conservation and Science, Wildlife Conservation Society....    76
        Prepared statement of....................................    78
    Whitehurst, David K., Director, Wildlife Diversity Division, 
      Virginia Department of Game and Inland Fisheries...........    45
        Prepared statement of....................................    47


OVERSIGHT HEARING ON ``PLANNING FOR A CHANGING CLIMATE AND ITS IMPACTS 
  ON WILDLIFE AND OCEANS: STATE AND FEDERAL EFFORTS AND NEEDS''; AND 
      LEGISLATIVE HEARING ON H.R. 4455, WILDLIFE WITHOUT BORDERS 
                           AUTHORIZATION ACT.

                              ----------                              


                         Tuesday, June 24, 2008

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:14 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo and Wittman.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Ms. Bordallo. Good morning. The Subcommittee on Fisheries, 
Wildlife and Oceans will now come to order.
    The Subcommittee is meeting today to hear testimony on two 
topics. The first is efforts that are underway and that are 
needed in the future for states and the Federal agencies to 
plan for and mitigate the impacts that climate change is 
expected to have on our oceans, our coasts and our wildlife. 
The second is H.R. 4455, the Wildlife Without Borders 
Authorization Act, introduced by the Ranking Member of the 
Committee on Natural Resources from Alaska, Mr. Young.
    The Subcommittee meets today to hear testimony on two 
important issues, as I noted earlier. The first is regarding 
efforts by states and the Federal agencies to plan for and 
mitigate climate change impacts on our oceans, our coasts and 
our wildlife. As we heard at our hearing last year and as 
numerous scientific commissions have concluded, our land and 
water resources are extremely vulnerable to a wide range of 
effects from climate change. And some of these effects are 
already occurring. And even if we were to end all emissions 
tomorrow, they are still going to continue and grow in 
magnitude in the future.
    The effects will be broad, ranging from drought, floods, 
ocean warming and acidification, and sea level rise to the 
increase in disease and insect infestations, coral bleaching 
and changes in the distribution of numerous fish and wildlife 
species across their habitat ranges. Many of these habitat 
ranges themselves will change dramatically. Despite this 
urgency, a GAO report published in August of last year found 
that Federal resources agencies, including NOAA, Fish and 
Wildlife Service, and the Park Service, had not made climate 
change a priority and the agencies' strategic plans did not 
specifically address climate change.
    In addition, resources managers within these agencies have 
limited guidance about whether or how to address climate change 
and were uncertain about what, if any, actions should be taken. 
Nor did they have the site-specific information necessary to 
plan for and manage the effects of climate change on the 
Federal resources that they manage.
    I am hopeful that we will hear from both the Fish and 
Wildlife Service and NOAA that this situation has dramatically 
improved in our resource management agencies over the nine 
months since that report was issued. At the same time, I look 
forward to hearing from the States of California and Virginia, 
who both appear to have met the challenge of climate change 
head on and are proactively planning for the impacts on their 
oceans, coasts, wildlife and infrastructure. Yet, as both of 
these states will point out, they cannot do it alone, and a 
comprehensive and strategic effort by Federal agencies, as well 
as additional resources will be needed to complement state 
efforts.
    Finally, the Committee will also hear testimony on H.R. 
4455, introduced by our colleague from Alaska, Mr. Young, to 
authorize the Wildlife Without Borders program within the Fish 
and Wildlife Service. Now, the intent of this program is to 
move beyond the existing species-specific international 
wildlife funds previously authorized by Congress and to instead 
formally authorize a program to direct the Federal Government 
to address international wildlife conservation needs on a 
broader landscape basis.
    So I look forward this morning to hearing from our 
witnesses regarding the pros and the cons of this approach and 
what changes they might suggest to ensure that our approach to 
international species conservation is truly comprehensive. In 
light of the impacts that wildlife will experience as a result 
of climate change, the consideration of conservation on a broad 
landscape scale will be that much more critical.
    And now at this time I would like to recognize Mr. Wittman, 
my colleague from the State of Virginia, who is standing in for 
the Ranking Member Mr. Brown, for any statement that he may 
have.
    [The prepared statement of Mrs. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
             Subcommittee on Fisheries, Wildlife and Oceans

    The Subcommittee meets today to hear testimony on two important 
issues, as I noted. The first is regarding efforts by states and the 
Federal agencies to plan for and mitigate climate change impacts on our 
oceans, coasts, and wildlife.
    As we heard at our hearing last year, and as numerous scientific 
commissions, have concluded, our land and water resources are extremely 
vulnerable to a wide range of effects from climate change. Some of 
these effects are already occurring, and even if we were to end all 
emissions tomorrow, they are still going to continue and grow in 
magnitude in the future.
    The effects will be broad, ranging from droughts, floods, ocean 
warming and acidification, and sea level rise to increases in disease 
and insect infestations, coral bleaching, and changes in the 
distribution of numerous fish and wildlife species across their habitat 
ranges. Many of these habitat ranges themselves will change 
dramatically.
    Despite this urgency, a GAO report published in August of last year 
found that federal resource agencies, including NO-AA, Fish and 
Wildlife Service, and the Park Service had not made climate changes a 
priority and the agencies' strategic plans did not specifically address 
climate change. In addition, resource managers within those agencies 
had limited guidance about whether or how to address climate change and 
were uncertain about what, if any actions to take. Nor did they have 
the site-specific information necessary to plan for and manage the 
effects of climate change on the federal resources they manage.
    I am hopeful that we will hear from both the Fish and Wildlife 
Service and NO-AA that this situation has dramatically improved in our 
resource management agencies over the nine months since that report was 
issued. At the same time, I look forward to hearing from the States of 
California and Virginia who both appear to have met the challenge of 
climate change head on and are proactively planning for the impacts on 
their oceans, coasts, wildlife and infrastructure. Yet, as both of 
these states will point out, they cannot do it alone, and a 
comprehensive and strategic effort by federal agencies as well as 
additional resources will be needed to complement states' efforts.
    Finally, the Committee will also hear testimony on H.R. 4455, 
introduced by our colleague from Alaska, Mr. Young, to authorize the 
Wildlife Without Borders program within the Fish and Wildlife Service. 
The intent of this program is to move beyond the existing species-
specific international wildlife funds previously authorized by Congress 
and to instead formally authorize a program to direct the Federal 
Government to address international wildlife conservation needs on a 
broader, landscape basis.
    I look forward to hearing from our witnesses today regarding the 
pros and cons of this approach and what changes they might suggest to 
ensure that our approach to international species conservation is truly 
comprehensive. In light of the impacts that wildlife will experience as 
a result of climate change, the consideration of conservation on a 
broad, landscape scale will be that much more critical.
                                 ______
                                 

STATEMENT OF THE HONORABLE ROBERT J. WITTMAN, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Wittman. Thank you, Madam Chairwoman. I really 
appreciate your holding this hearing and I appreciate your 
attention to these two very important topics. First, I am glad 
that we are taking the time to examine Ranking Member Young's 
important bill to promote international conservation efforts, 
capitalizing on a relatively small Federal investment. The 
Wildlife Without Borders program has a very large positive 
impact on international species management and conservation 
efforts. I look forward to the committee acting quickly to mark 
up this legislation.
    I am also looking forward to hearing from today's panel 
about the impact of changing climate on wildlife. So far 
scientists are able to come to general conclusions about 
climate change and using models to infer how increase in 
temperatures will impact the planet. And it is important to 
note how those impacts will affect wildlife and fish 
populations. Our knowledge of these complex systems is far from 
perfect and there are still many questions to be answered. And 
we are anxious to make sure that the science dictates our 
direction.
    For example, some of the questions that come up based on 
the science is what is the role of man versus Earth's natural 
temperature cycles? How much is being caused by each? And are 
there any benefits to a warmer climate? Regardless, the link 
between increased concentrations of greenhouse gases and 
warming temperatures are certainly cause for a concentrated 
attention to this issue. Changing temperatures, weather 
patterns and sea level rise have the potential to significantly 
alter wildlife habitat and impact coastal communities. And 
those of us from the coastal areas are now more sensitive to 
that these days, especially with the things we have had to 
encounter here recently.
    Virginia's wide variety of wildlife and coastal ecosystems 
are susceptible to rising temperatures and changing weather 
patterns. Virginians living on the coast are wondering if 
climate change will trigger stronger hurricanes and increase 
property damage. Virginia watermen are contemplating how 
climate change will impact the economic viability of crab and 
shellfish populations. Additionally, growing concern among 
sportsmen has led many to question how will changing 
temperatures impact hunting and fishing opportunities.
    As an avid waterfowl hunter and salt water angler, I am 
concerned about a recent report from leading conservation 
organizations entitled ``Season's End: Global Warming's Threat 
to Hunting and Fishing.'' The report does a great job in 
assessing the potential impacts of climate change. The report 
highlights threats to Virginia's native brook trout 
populations, waterfowl migration patterns, and salt water game 
species.
    On that note, I am very pleased to welcome David Whitehurst 
from the Virginia Department of Game and Inland Fisheries. And 
David is well known for his groundbreaking work in the area of 
game management and also on knowledge of the fisheries side. So 
I have worked and known David for many years and I am confident 
that he will shed some very unique insights on how states and 
the Federal Government can work together to ensure a bright 
future for hunting and fishing in our great country.
    Again thank you, Madam Chairwoman, for holding this 
hearing. And at this time I would like to ask unanimous consent 
that Congressman Henry Brown's statement and the article 
``Seasons' End: Global Warming's Threat to Hunting and 
Fishing'' be submitted for the record.
    Ms. Bordallo. No objection, so order.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Madam Chairwoman, I want to compliment you for holding this hearing 
on H.R. 4455 and I hope we markup this legislation in the near future. 
I would also like to compliment the gentleman from Alaska, Don Young, 
for his leadership in introducing this important bill.
    In addition, I would like to welcome Dr. Margaret Davidson to our 
hearing today. Dr. Davidson has dedicated her entire life to ensuring 
the health and vitality of our ocean ecosystems. For the past twelve 
years, she has served with distinction as Director of NOAA's Coastal 
Service Center in Charleston and prior to that as the Executive 
Director of the South Carolina Sea Grant Consortium.
    The Wildlife Without Borders was administratively created by the 
U.S. Fish and Wildlife Service twenty five years ago. In fact, this 
program was the forerunner to the first of the Multinational Species 
Conservation Funds that was not created until 1988.
    Since its inception, the Service has approved nearly 900 Wildlife 
Without Borders conservation projects which have assisted a wide range 
of important species including Amur tigers, California condors, 
jaguars, snow leopards and Swainsons' hawks. While these species may 
not be considered keystone, without this small investment they would be 
facing extinction.
    The purpose of H.R. 4455 is to establish a Congressional 
authorization for this program. This will help to ensure that it is 
funded in the future, that Congress can periodically review its 
effectiveness and we can evaluate whether our taxpayers are getting a 
fair return on their investment.
    The second portion of this hearing will evaluate how fish and 
wildlife can adapt to changing climate conditions. This is not a new or 
radical process.
    Wildlife have been adapting to the warming or cooling of this 
planet for millions of years. Depending on the species, this may mean 
that they hibernate during the winter, migrate to warmer climates, 
increase their body weight or genetically alter their physical 
characteristics. For those species that could not adapt, like the 
dinosaur, they simply ceased to exist.
    While the polar bear has become the poster child of global warming, 
what is largely ignored in the media, is that 10,000 years ago, the 
earth was much warmer, the polar caps had melted and the polar bear 
survived by adapting to these warmer temperatures.
    In my own Congressional District, we have a number of fish and 
wildlife that have adapted extremely well including regrettably a fair 
number of foreign invasive species. We also have millions of people who 
travel to South Carolina each winter to enjoy our 170 miles of some of 
the finest beaches in the world. I am confident that these visitors 
have very little trouble adapting to our warm temperatures, crystal 
clear waters, pristine beaches and delicious seafood.
    Madam Chairwoman, I look forward to hearing testimony on these two 
topics. I would also like to ask unanimous consent to submit for the 
record the publication entitled: ``Seasons' End: Global Warming's 
Threat to Hunting and Fishing.'' While I may not endorse all of the 
conclusions in this report, it is certainly worth reading and it makes 
a valuable contribution to this ongoing and contentious debate.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    [NOTE: The article ``Seasons' End: Global Warming's Threat 
to Hunting and Fishing'' submitted for the record has been 
retained in the Committee's official files.]
    Ms. Bordallo. I wish to thank my colleague, the gentleman 
from Virginia, Mr. Wittman, for his opening statement. And now 
I would like to recognize our first panel of witnesses.
    Before I do that I would like to apologize. This hearing 
will be quite lengthy as we had to have three panels. There 
were just so many witnesses. And normally we do not have seven 
witnesses sitting at the table at one time. So we will try to 
get through it. And I will mention a little bit later on about 
our time limits.
    But first I would like to introduce Ms. Margaret Davidson, 
the Director of the Coastal Services Center for the National 
Oceanic and Atmospheric Administration; Mr. Tony Brunello, 
Deputy Secretary for Climate Change and Energy for the 
California Resources Agency; and Ms. Sarah Chasis, Senior 
Attorney and Director of the Oceans Initiative at the Natural 
Resources Defense Council.
    I would like to recognize Ms. Davidson to be the first 
witness. But I would like to also remind all of you that there 
is a timing light on the table that will indicate when your 
time has concluded. And we would appreciate your cooperation to 
comply with the minutes that have been set. There are five 
minutes. And your entire statement, however, I will remind you 
will be entered into the official record.
    And so now I would like to recognize Ms. Davidson.

  STATEMENT OF MARGARET DAVIDSON, DIRECTOR, COASTAL SERVICES 
 CENTER, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Davidson. Thank you, Chairwoman Bordallo and 
Congressman Wittman, other members of the Subcommittee. I 
appreciate the opportunity to appear before you today. My name 
is Margaret Davidson. I have had the opportunity of 
contributing to several of the IPCC reports.
    Ms. Bordallo. Would you move the microphone a little bit 
closer.
    Ms. Davidson. Yes.
    Ms. Bordallo. Thank you, Ms. Davidson.
    Ms. Davidson. My background is that I have been involved in 
these issues for some time, have contributed to some of the 
IPCC chapters on adaptation. But I think more importantly, I am 
by both birth and affinity a marsh rat and I currently live at 
8.5 feet, so these issues are personal for me, Chairwoman, as 
they are for you.
    You have had a number of hearings on the science. I am not 
actually here to speak on the science but to focus on some of 
the efforts that are underway in my agency and the ways in 
which we are working with state and local governments as well 
as the trust resources which we manage to address the 
implications of climate change.
    Just want to remind you of facts that you are already aware 
of, that while the coasts are but 17 percent of the land area 
and 50 percent of the nation's population, they are nearly 60 
percent of the nation's gross domestic product. So it is very 
important that we address these issues because we can ill 
afford not to since the coast is an area of extreme impact. All 
of the physical changes that we are beginning to observe are 
being made manifest in the ocean and along the coast.
    With regard to living marine resource management, I think 
one of the better examples is, as Congressman Wittman 
mentioned, many of the major climate changes that are affecting 
our oceans are temperature, changes in the temperature regime, 
changes in the ocean acidification and other extremes, the loss 
of sea ice in the Arctic and Antarctic. These have dramatic 
impact on living marine resources. One example is that recently 
the North Pacific Fishery Management Council used climate 
information to adjust the Bering Sea pollock quota for 2008 
with a 30 percent reduction from the 2007 levels. This was 
because some of that climate information about warming 
temperatures and its relationship to the reproductive cycles of 
this important species led us to believe that they were going 
to have a reduced capability and that we needed to throttle 
back that harvest in order to ensure that the stock was 
sustainable.
    Besides the trust resources which we manage directly, 
marine fisheries, we also have trust-related responsibility 
with our state and local partners in important coastal habitat 
areas. As both of you know, coastal habitats provide excellent 
buffers for storm surge and flooding, as well as important 
habitat for critical fish and wildlife. And, indeed, across our 
country erosion alone costs us over $500 million a year. And it 
is important that we recognize and understand and protect this 
green infrastructure, not only for the value that it provides 
for fish and wildlife habitat, but for those flood retention 
values that we have come to appreciate. With the cost of 
natural disasters climbing in this country I would like to 
point out to you that many of the things that we need to do on 
the coast to mitigate the cost of natural disasters, frequent, 
more frequent storms, more intense precipitation periods, are 
often exactly the same set of strategies and actions that we 
would take to adapt to rising levels of sea level.
    For instance, in Chesapeake Bay we have been working with 
many local communities as well as the state agencies to 
identify and protect and restore the near-shore oyster reefs 
and sea grass beds that not only provide critical habitat but 
do provide us with that storm protection value and the flood 
value that I just mentioned. We have done similar efforts in 
other states such as south Louisiana, which I am sure that you 
are quite aware of, a state that knows a great deal about storm 
damage and erosion. And in the State of Maine over the last 
three years we worked with the State of Maine, the Land Trust 
Alliance, U.S. Fish and Wildlife, and about 50 local 
organizations to develop the first coastwide conservation 
mapping and strategic planning initiative which we hope to 
extend working with other state partners across the country.
    As we look to these issues in the coastal areas in 
particular it is essential that we have very good elevation 
data. We need high resolution coastal elevation data, as well 
as the shallow bathymetric data. And that is why we have joined 
with USGS and others to put together a comprehensive ocean and 
coastal mapping effort. You all are aware of some of the 
efforts that we are doing far offshore, but the near-shore 
efforts are particularly important to us as we begin to think 
about how to identify critical habitats.
    I already lost my five minutes or did it get reset?
    Ms. Bordallo. You have a few seconds left.
    Ms. Davidson. Great.
    One of our best efforts is the Pacific climate information 
services that we have actually undertaken throughout the 
Pacific islands where I think you know that the actions that we 
need to do to address tsunami risk are exactly the same things 
that we need to do with sea level. So we are bringing together 
information a bout changes, dramatic changes in precipitation, 
information about the elevation of the islands, and providing 
web-based tools that both the local and the regional managers 
can use to understand where to locate communities and how to 
address and restore critical habitat.
    And I will provide some other examples for the committee. 
Thank you.
    [The prepared statement of Ms. Davidson follows:]

 Statement of Margaret A. Davidson, Director, Coastal Services Center, 
  National Oceanic and Atmospheric Administration, U.S. Department of 
                                Commerce

Introduction
    Good morning Madam Chairwoman and members of the Subcommittee. I am 
Margaret A. Davidson, Director of the National Oceanic and Atmospheric 
Administration (NOAA) Coastal Services Center. I had the honor of 
participating in the Intergovernmental Panel on Climate Change (IPCC) 
report chapter on adaptation, am an active advisory committee member 
for the National Center for Atmospheric Research, and have just been 
elected to the rank of American Meteorological Society Fellow. I thank 
you for the opportunity to testify on the effects of climate change on 
coastal communities, and to highlight how NOAA is working across all 
levels of government and with other partners on planning and adapting 
to climate change. Changing climate is potentially one of the most 
significant long-term influences on the infrastructure and function of 
coastal communities, and coastal and marine ecosystems. Therefore, 
impacts must be identified and addressed in order to meet NOAA's 
management and stewardship goals of ensuring healthy, resilient, and 
productive coastal and ocean environments.
    After all, NOAA's vision is an informed society that uses a 
comprehensive understanding of the role of the oceans, coasts, and 
atmosphere in the global ecosystem to make the best social and economic 
decisions.
    Today, I will discuss the range of risks facing coastal communities 
in light of climate change. I will highlight how NOAA is working to 
help communities plan and adapt by collaborating with our partners to 
support the best possible science and develop appropriately scaled 
products, services, tools, and training that will enable officials and 
key organizations to make the right decisions to prepare and sustain 
their communities. NOAA recognizes the pressing national interest in 
coordination of the nation's climate adaptation efforts, through 
partnerships that bridge the gap between climate science and decision-
making.

Changing Climate and its Effects on the Nation
    Since the beginning of human settlements, we have chosen to dwell 
where land and water meet and where our needs for food, transportation, 
and waste disposal needs are easily met. More recently in the United 
States and elsewhere, the rate of relative population growth along the 
coast has soared as a result of an expanding coastal recreation and 
tourism economic sector. In the past 50 years, the density and the 
economic value of the built environment has escalated, and so have the 
repetitive disaster losses. The U.S. coast comprises merely 17 percent 
of national land area but supports nearly 50 percent of our population. 
Coastal areas generate nearly 60 percent of U.S. gross domestic 
product, and account for the most repetitive flood loss claims with 
both the National Flood Insurance Program and the private casualty loss 
insurance industry.
    An analysis of data shows that the Earth's oceans may have warmed 
almost .04 degree Celsius over the second half of the 20th century 
<SUP>1</SUP>. These data, along with findings from the recent IPCC 
assessments of 2001 and 2007 show that not only have the atmosphere and 
oceans warmed, they will continue to do so during the 21st century, at 
least in part due to increased greenhouse gases in the atmosphere. The 
2007 IPCC Working Group II report stated: ``Observational evidence from 
all continents and most oceans shows that many natural systems are 
being affected by regional climate changes, particularly temperature 
increases.'' Along with increases in global ocean temperatures, the 
IPCC projects that global sea level will rise between 7 and 23 inches 
by the end of the century (2090-2099) relative to the base period 
(1980-1999) (model based range excluding future rapid dynamical changes 
in ice flow). It is projected that the average rate of sea level rise 
during the 21st century is very likely to exceed the 1961-2003 average 
rate <SUP>2</SUP>.
---------------------------------------------------------------------------
    \1\ S. Levitus, J. Antonov, and T. Boyer. 2005. Warming of the 
world ocean, 1955-2003. Geophysical Research Letters, 32: L02604
    \2\ IPCC, 2007: Summary for Policymakers. In: Climate Change 2007: 
The Physical Science Basis. Contribution of Working Group I to the 
Fourth Assessment Report of the Intergovernmental Panel on Climate 
Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. Marquis, K.B. 
Averyt, M. Tignor and H.L. Miller (eds.)]. Cambridge University Press, 
Cambridge, United Kingdom and New York, NY, USA.
---------------------------------------------------------------------------
    As climate changes, the effects on coastal communities and 
economies is likely to grow. These include the potential for increased 
flooding due to sea level rise, more severe coastal storms, drought, 
increased coastal erosion due to storminess and loss of sea ice, and 
accelerated decline of natural resources. These changes affect many 
aspects of coastal community investments in critical infrastructure 
(such as port facilities), how and where communities are built, 
economic drivers (e.g., fisheries, shipping), and the social and 
cultural fabric of these coastal communities.
    In addition to effects on coastal communities and economies, 
climate change also affects coastal ecosystems, human health, and 
living marine resources. A recent study <SUP>3</SUP> by the Harvard 
Medical School's Center for Health and Global Environment found climate 
change will affect the health of humans as well as the ecosystems and 
species on which we depend, and that these health effects will have 
significant economic consequences. Some of the major climate-forced 
changes are changes to the physical ocean environment (e.g. 
temperatures, stratification, currents), the loss of sea ice in the 
Arctic and Antarctic, ocean acidification forced by increased carbon 
dioxide levels, sea level rise, changes in the incidence and geographic 
distribution of disease causing organisms, and changes in freshwater 
supply and quality. These climate-forced changes affect the 
availability of habitat, the movements and distributions of organisms, 
the timing of biological phenomena, the physiology of species, and the 
productivity of individual species and whole ecosystems. All of these 
factors need to be considered in management programs administered by 
NOAA, other agencies and the states.
---------------------------------------------------------------------------
    \3\ Epstein, Paul R. and Mills, Evan, editors, 2005. Climate Change 
Futures: Health, Ecological and Economic Dimensions, Harvard Medical 
School, Swiss Re, United National Development Programme.
---------------------------------------------------------------------------
    Climate change information is being incorporated into living marine 
resource management decisions through an increasing emphasis on an 
ecosystem approach to management. Climate change is only one of a 
complex set of factors (both human induced and naturally occurring), 
that influence the productivity of marine ecosystems. Effective 
management of resources in this complex environment necessitates 
balancing many competing and simultaneous objectives. NOAA is committed 
to advancing an ecosystem approach to its many stewardship 
responsibilities as a way forward in striking this balance. Ecosystem 
level advice (including climate conditions and potential consequences 
for the living marine resources) is being integrated and made available 
through publications and advisories such as the Status of the 
California Current System Report, the Ecosystems Considerations chapter 
of the North Pacific Groundfish Stock Assessment and Fisheries 
Evaluation reports, and Ecosystem Advisories for the Northeast Shelf 
large marine ecosystem.
    The coastal margins are the first line of defense in tackling 
escalating challenges linked to climate change and resulting threats to 
coastal communities, economies, and ecosystems. Neither the federal 
government, nor individual localities have thorough plans, sufficient 
capabilities, or communication frameworks that address these threats. 
Fragmented decision-making made by a single sector or locality will not 
adequately handle these complex regional or national challenges. When 
developing comprehensive action plans, partnerships among federal, 
state, and local governments, regional organizations, nongovernmental 
organizations, academia, and the private sector must be considered. In 
addition, a Government Accountability Office report issued in August 
2007 (Climate Change: Agencies Should Develop Guidance for Addressing 
the Effects on Federal Land and Water Resources, GAO-07-863) 
recommended that Federal agencies develop guidance incorporating their 
best practices advising managers on how to address climate change 
effects on the resources they manage. In response, the relevant 
agencies agreed with this recommendation and are working to develop 
such guidance.
    During the past decade, the nature and urgency of these challenges 
have been well documented by the IPCC, as well as in distinguished 
national studies conducted by the U.S. Commission on Ocean Policy, Pew 
Commission, Coastal States Organization, National Research Council, 
Government Accountability Office, the Department of Commerce Office of 
Inspector General, and others. Dozens of other specific assessments 
support these studies in verifying the need for federal, state, local, 
and nongovernmental organizations to address these urgent issues. NOAA 
is committed to continuing our service and leadership for the nation in 
developing these needed partnerships to address the challenges of 
community planning and adaptation to climate change.

Understanding Climate Adaptation
    A changing climate coupled with an increasing coastal population, 
waterfront development pressure on natural resources, and the growing 
intermodal needs of the transportation industry increases the risks to 
communities, ecosystems, businesses, and critical infrastructure. This 
leaves lives and livelihoods vulnerable to the effects of climate 
change. If dry becomes drought, wet becomes flood, and storms become 
more intense and devastating, it will be crucial for communities, 
economies, and ecosystems to become resilient and learn to adapt to the 
changing climate.
    The IPCC defines adaptation as, ``Initiatives and measures to 
reduce the vulnerability of natural and human systems against actual or 
expected climate change effects. Various types of adaptation exist, 
e.g. anticipatory and reactive, private and public, and autonomous and 
planned.'' Planned adaptation is the result of a deliberate policy 
decision based on an awareness that conditions have changed or are 
about to change and that action is required to return to, maintain, or 
achieve a desired state. To remain resilient in the face of climate 
change, coastal communities and natural resource managers should 
consider the range of future climate variability and begin planning now 
for their actions to have the most benefit. Actions taken now will not 
only have a lasting value as effects of climate change manifest 
themselves, they will also support resilient communities and ecosystems 
in the short term, as the coastal regions face seasonal storms, 
flooding, erosion, and other natural hazards as well as the loss and 
migration of critical natural resources and living marine resources.
    Adaptation is also critical to ensure continued economic vitality. 
According to the Climate Change Futures report, implementing adaptation 
strategies that reduce vulnerability will be particularly important to 
the insurance industry to help reduce future losses. Local governments 
may experience escalating costs and losses if they do not consider 
potential future conditions when siting and building critical 
infrastructure. For example, a recent report from the National Science 
and Technology Council's Committee on Environment and Natural Resources 
(Scientific Assessment of the Effects of Global Change on the United 
States) states that municipalities will see escalating costs associated 
with water treatment infrastructure due to climate change related 
effects on water quality. These effects include higher temperatures and 
nutrient loads.
    In order to ensure social, economic, and environmental vitality 
both now and in the future, coastal communities must have the capacity 
to develop and implement adaptation plans that address their current 
needs as well the pressures they are likely to face as climate changes. 
NOAA is working every day to help these communities not only understand 
the changing climate around them, but to meet our goal of providing the 
tools and resources necessary to help them adapt.

NOAA Mandates Related to Adaptation to Climate Change
    NOAA's overarching mission is to understand and predict changes in 
the Earth's environment. NOAA operates under a breadth of mandates that 
direct our efforts regarding climate prediction and adaptation, 
ecosystems, safe navigation, mapping, coastal planning, resource 
management, and balancing of uses. Addressing the effects of climate 
change necessarily involves partnerships among federal, regional, state 
and local governments, and civil society organizations. The Coastal 
Zone Management Act provides a basis for NOAA to work through its 
partnerships with the state coastal zone management programs and the 
National Estuarine Research Reserves to improve climate adaptation 
planning, including the outreach and education required to ensure that 
state and local decision-makers are able to apply NOAA's information 
and products most effectively.
    Other congressional and presidential directives that guide our 
climate-oriented activities include the Harmful Algal Bloom and Hypoxia 
Research and Control Act, the Oceans and Human Health Act, the National 
Climate Program Office Act, the Hydrographic Services Improvement Act, 
and the Climate Change Science Program. In executing our 
responsibilities under these mandates, NOAA focuses on the needs of 
local, regional, national, and international users, in strong 
partnership with appropriate agencies and organizations.
    In addition, numerous legislative mandates require NOAA to manage 
living marine resources in a way that must take climate change effects 
on these resources, and adaptation and mitigation strategies, into 
consideration. These include the Magnuson Stevens Fishery Conservation 
and Management Reauthorization Act, the Marine Mammal Protection Act, 
the National Marine Sanctuaries Act, the Coral Reef Conservation Act, 
and the Endangered Species Act. As an example, the Endangered Species 
Act requires use of the ``best scientific and commercial data 
available'' in making listing determinations and formulating biological 
opinions. In many cases this will require the incorporation of climate 
data and projections. For example, in recovery planning for Pacific 
salmon and determinations of whether to list ice-dependent seals as 
threatened or endangered, predictions and projections of the future 
climate conditions and how these might impact the species must be taken 
into account. When elkhorn and staghorn corals were listed as 
threatened in 2006, the NOAA listing decision identified 13 stressors, 
or specific conditions, causing adverse impacts. Among these were 
several climate-related impacts including: elevated sea surface 
temperatures, which contribute to temperature induced bleaching and may 
exacerbate occurrence of diseases; elevated carbon dioxide levels and 
associated ocean acidification, which may lead to decalcification of 
coral structures; and sea level rise, which may cause present corals to 
be located at less favorable depths in the future.

Developing Capacity to Anticipate and Adapt to Climate Change
    Coastal resource managers at the state and local levels are 
demanding information and services to prepare their coastal communities 
for the effects of climate change, including the potential for 
increased frequency and severity of coastal hazards such as erosion and 
flooding. Nine states (California, Louisiana, Maryland, Massachusetts, 
New Jersey, North Carolina, Oregon, South Carolina, and Washington) 
reported to the Coastal States Organization that they have begun taking 
steps to plan for climate change at the state level, and Florida has 
recently formed a Climate Task Force. Many of the steps include policy 
changes that states and communities, through their coastal programs, 
are undertaking to improve their resilience to flooding, storm surge, 
and other forms of coastal inundation will also provide capacity for 
adapting to accelerated rates of Sea Level Rise. Additionally, two-
thirds of the coastal states reported to NOAA (through the Coastal Zone 
Management Act Section 309 assessments) that coastal hazards are a high 
priority.
    NOAA's products and services, such as high resolution digital 
elevation models, coupled coastal inundation models as well as coastal 
risk and vulnerability assessments, can help these states and their 
coastal communities understand the effects of coastal hazards in the 
near term, as well as the potential changing conditions with increased 
sea level rise. Similarly, the protection and restoration of natural 
resources that serve as buffers for storm surge and flooding, such as 
wetlands, barrier islands, and mangroves, provide water quality 
protection benefits can help protect communities from coastal 
inundation and the future effects of sea level rise. NOAA's research on 
the effects of climate change on living marine resources can help 
federal and state managers make decisions about how best to protect 
these sensitive species, at sea and on shore.

NOAA's Research, Models, and Observations
    NOAA engages in oceanic and atmospheric research, model 
development, and data collection and management focused on climate 
change and adaptation. NOAA's efforts spur and enhance the development 
of NOAA's products and services that provide the necessary tools and 
training for effective climate adaptation planning. Some of the key 
research, model, and observation projects and programs, as well as 
their contributions to climate change issues, are summarized below.

Regional Research Partnership
    The NOAA's Regional Integrated Sciences and Assessments (RISA) 
program supports research that investigates complex regional climate 
sensitive issues of concern to decision-makers and policy planners. The 
RISA research team includes universities, government research 
facilities, non-profit organizations, and private sector entities. 
Traditionally, the research has focused on the fisheries, water, 
wildfire, and agriculture sectors. Recently, the RISA program has 
expanded to include coastal impacts and transportation research. Of the 
eight teams supported by the RISA program, the Climate Impacts Group at 
the University of Washington has the strongest focus on climate and 
fisheries issues, and is unique in its focus on the intersection of 
climate science and public policy. The Climate Impacts Group performs 
fundamental research on climate impacts on the Pacific Northwest and 
works planners and policy makers to apply this information to regional 
decision-making processes.

Ocean and Coastal Mapping
    The mapping and charting of our coastal and marine waters, 
including the Great Lakes, continues to be an activity of great 
national importance especially in the face of climate change. 
Partnerships, such as the Integrated Ocean and Coastal Mapping 
initiative that was called for by the National Research Council and 
identified as a priority in the President's Ocean Action Plan, can 
provide the baseline geographic information needed to accurately 
predict relative sea level rise. The Integrated Ocean and Coastal 
Mapping effort will provide a consistent national spatial framework, 
increased access to geospatial data and mapping products, and increased 
inter- and intra-agency communication, cooperation, and coordination. 
Ultimately, those entities dependent on maps for navigation, national 
security, scientific research, energy development, location of cultural 
resources, and coastal and living marine resource management will all 
greatly benefit. The integrated mapping information is essential to 
understanding the effects of coastal inundation, and will allow 
communities to develop effective adaptation plans.

Accurate Heights and Water Levels
    Accurate height and water levels are acquired through NOAA's Height 
Modernization Program and Continuously Operating Reference Stations. 
There are also two federally coordinated data collection efforts, the 
Joint Airborne Bathymetry Lidar Technical Center of eXpertise (JABLTCX) 
and the National Digital Elevation Program. In addition, relative sea 
level trends, developed from years of continuous tidal monitoring 
observations through NOAA's National Water Level Observation Network, 
are essential for activities such as improved transportation systems, 
integrated observing systems, subsidence monitoring, sea level rise 
estimation, flood plain mapping, urban planning, storm surge modeling, 
habitat restoration, emergency preparedness, coastal and resource 
management, and construction.
    A state-based example of observation work can be found in 
California, where the Pacific Institute for Studies in Development, 
Environment and Security is working on a ``Costs of Adapting to Sea 
Level Rise'' project for the California Energy Commission. In order to 
derive meaningful results, this type of climate change study requires 
accurate water elevation data, which NOAA has provided to the 
Institute.

Visualization Models
    Visualization models are tools that help us better understand 
potential effects of climate change. Working with local partners in 
Charleston, South Carolina, NOAA is developing visualizations of sea 
level rise to enable coastal managers to identify areas at potential 
risk from rising water based on various sea level rise scenarios. A 
methodology for creation of Geographic Information System (GIS) based 
maps of sea level rise inundation is being developed, as well as a 
comparison of high and lower resolution maps. Social and economic 
metrics will be investigated, as well as ecological effects of sea 
level rise as they relate to ecosystem services. Similar locally scaled 
tools are envisioned as an essential component of a coastal climate 
adaptation partnership.

U.S. Integrated Ocean Observing System (IOOS)
    NOAA recognizes the importance of a national integrated ocean 
observing infrastructure as a valuable tool to characterize, 
understand, predict and monitor changes in coastal-ocean environments 
and ecosystems. NOAA's IOOS program enhances NOAA's ability to monitor 
effects of climate change, including coral bleaching and sea level 
rise. A number of NOAA's IOOS multi-year, regional investments are 
directed toward climate change issues. IOOS data products and services 
are targeted to high-impact decision support tools, such as coastal 
inundation and hurricane intensification modeling, and integrated 
ecosystem assessments, which will inform the management plans and 
policy decisions related to climate change. For example, the Chesapeake 
Inundation Prediction System is a partnership among federal and state 
agencies, industry, and academia. The System predicts inundation in the 
Washington, DC, metropolitan area and the tidal Potomac River, and 
provides a flood forecast prototype that simulates street-level 
flooding from storm events using a high-resolution circulation model 
both for immediate storm response and advanced mitigation planning and 
decision-making. Based on preliminary results, the tool has potential 
to enhance the capability of NOAA Weather Forecast Offices around the 
country to deliver more specific, and timely inundation forecasts to 
local communities.

A Regional Approach Towards Leveraging Federal Climate Capabilities
    NOAA actively engages in a regional approach towards leveraging 
federal climate capabilities. For example, NOAA is working closely with 
the West Coast Governors Agreement, the Gulf of Mexico Alliance, the 
Northeast Regional Ocean Council, the Great Lakes Regional 
Collaboration, our international partners, and others, to help coastal 
states better define their needs in regards to understanding coastal 
and marine ecosystems and the effects of climate change at regional 
scales.
    In May 2008, twelve federal agencies, representatives from seven 
states, and several associations in the southeast met for a workshop 
called Adapting to a Changing Climate. Sponsored by the Southeastern 
Natural Resources Leadership Group and assisted by NOAA, this workshop 
brought together regional federal and state executives who lead 
agencies with natural resource conservation as part of their mission. 
This regional leadership gathering addressed the current status of 
science, knowledge acquisition, mitigation, and adaptation for a 
changing climate in the southeastern United States. The workshop 
proceedings will help inform the focus and needs for the development of 
a broader climate adaptation strategy for the region.

A National Approach Towards Leveraging Federal Climate Capabilities
    In addition to our local and regional efforts, NOAA is also 
developing national tools and services that leverage federal climate 
capabilities. The National Integrated Drought Information System 
(NIDIS) Act of 2006 prescribes an approach for drought monitoring, 
forecasting, and early warning at watershed, state, and county levels 
across the United States. Led by NOAA, NIDIS is being developed through 
the consolidation of physical, hydrological, and socio-economic effects 
data, engaging those affected by drought; integrating observing 
networks; developing of a suite of drought decision support and 
simulation tools; and delivering standardized information products 
through an interactive internet portal (www.drought.gov). NIDIS is a 
dynamic and accessible drought risk information system that provides 
users with the capacity to determine the potential effects of drought, 
and provides the decision support tools needed to better prepare for 
and mitigate the effects of drought.
    NOAA's Sectoral Applications Research Program (SARP) is a research 
service that develops the knowledge base, decision support tools, 
capacities and partnerships in sectors affected by climate in a 
substantial and increasingly visible way. SARP is designed to catalyze 
and support interdisciplinary research, innovative outreach, and 
education activities that enhance the capacity of key socioeconomic 
sectors to respond to and plan for climate variability and change 
through the use of climate information and related decision support 
resources. The program is designed to systematically build an 
interdisciplinary knowledge base and a mechanism for the creation, 
dissemination, and exchange of climate-related research findings and 
decision support resources, which are critical for understanding and 
addressing resource management challenges in vital social and economic 
sectors such as coastal resources, water, agriculture, and health.

NOAA's Tools and Information to Support Adaptation Planning
    Despite a growing awareness of climate change and sea level rise, 
local decision-makers often still lack the tools to examine different 
management objectives (i.e., coastal hazards and conservation) in 
relation to one another and to visualize alternative scenarios for 
resource management that meets multiple objectives. NOAA is working in 
partnership with local communities to develop a suite of tools and 
information services to meet their climate change adaptation needs.

Guidebooks
    Guidebooks are an instructive tool designed to assist local 
communities in meeting their climate change adaptation needs. NOAA, in 
concert with local partners, produced the King County (Washington) 
Climate Adaptation Guidebook. The Guidebook was designed to facilitate 
planning for climate effects by specifying practical steps and 
strategies that can be used locally to build community resilience into 
the future. The Guidebook will enable communities to integrate climate 
preparedness strategies into existing hazard mitigation plans, reduce 
the costs associated with disaster relief, and prioritize 
vulnerabilities such as infrastructure, water supply, and human health.
    In response to the devastating Indian Ocean tsunami of 2004, NOAA 
and the U.S. Agency for International Development created a new coastal 
community resilience guidebook. The guidebook, titled How Resilient Is 
Your Coastal Community? A Guide for Evaluating Coastal Community 
Resilience to Tsunamis and Other Hazards, presents a framework for 
assessing resilience of communities to coastal hazards. The framework, 
developed in concert with over 140 international partners, encourages 
integration of coastal resource management, community development, and 
disaster management for enhancing resilience to hazards, including 
those that may occur as a result of climate change.

Risk Management
    NOAA's Pacific Risk Management 'Ohana (PRiMO) is involved in a 
partnership to develop tsunami risk information for U.S. Flag Islands 
outside Hawaii. The initial effort is focused on Guam and has been a 
successful collaboration with participation by many PRiMO partners from 
NOAA, the Federal Emergency Management Agency (FEMA), the Guam Homeland 
Security Office of Civil Defense, the Guam Coastal Zone Management 
Program, and Guam GIS. Modeling results are expected to be completed in 
the next few months. Once complete, there will be opportunities to 
integrate this risk information into projects, plans, and programs.

Regional Decision-Making
    To support regional decision-making, NOAA, in partnership with 
state coastal management programs, provides technical assistance and 
funding to support projects to help state and local governments prepare 
for and adapt to climate change and sea level rise. Climate change 
related projects include creating sea level rise inundation models, 
developing plans for adapting to climate change, and establishing new 
regulations for dealing with sea level rise. For example,
    <bullet>  NOAA is providing technical assistance for The Nature 
Conservancy for a project on Long Island that will help coastal 
decision-makers visualize, and make informed decisions about, 
conservation, land protection, and coastal development. NOAA will also 
work with partners to effectively incorporate project outputs into the 
Digital Coast partnership pilot effort;
    <bullet>  NOAA, along with its research partners at Cornell 
University, is creating decision support tools related to east coast 
winter storm frequency and effects. Researchers are developing a rating 
system that quantifies the potential for coastal effects as a result of 
an east coast winter storm, and investigating modifying the existing 
seasonal forecast procedures to reflect the severity of impact of 
coastal storms as opposed to overall storm frequency. The network of 
coastal decision-makers that are accessible through NOAA and New York 
Sea Grant will be instrumental in assuring the climatological tools 
developed will be valued and used in decision support; and
    <bullet>  NOAA is supporting the San Francisco Bay Conservation and 
Development Commission's regional planning efforts to adapt to climate 
change in the bay area. This effort includes mapping shoreline areas 
vulnerable to sea-level rise; organizing a regional program to address 
climate change in the bay area, and updating the San Francisco Bay Plan 
findings and policies to address global climate change effects on San 
Francisco Bay.

NOAA's Capacity Building, Outreach, and Education
    In addition to the resources and tools we develop, NOAA is also 
supporting local communities through capacity building, and outreach 
and education efforts. A few of these efforts include:
    <bullet>  The RiskWise partnership network is providing an 
educational approach to improve the safety and resilience of 
communities threatened by coastal hazards. Through the partnership's 
existing resources and programs, local decision-makers will have access 
to training, tools, and networks that better enable them to increase 
their resilience through community planning, economic development, and 
disaster management;
    <bullet>  The Association of State Floodplain Managers (ASFPM), in 
partnership with NOAA, has published the Coastal No Adverse Impact 
handbook, to educate local officials and residents on the benefits of a 
``do no harm'' coastal management and development philosophy;
    <bullet>  The NOAA Sea Grant extension network of 350 agents and 
specialists in 30 coastal states and Puerto Rico serve as outreach 
intermediaries between NOAA's climate researchers, coastal decision-
makers, and diverse constituents helping to define and deliver NOAA's 
climate tools and products needed at the local level; and
    <bullet>  NOAA's National Marine Sanctuary Program is piloting a 
climate change ``story template'' that will help each of the thirteen 
sanctuary sites and the marine national monument identify what the 
local and regional effects of climate change will be. This will aid in 
the development of a climate change action plan for each site to help 
plan and adapt to future impacts. NOAA is also developing a climate 
change component to its Marine Protected Areas (MPA) management 
capacity training program that will provide basic tools and procedures 
for MPA managers.

Incorporating Climate Change Information into Coastal and Ocean 
        Resource Management
    As noted previously, NOAA's work to incorporate climate change and 
adaptation into our mission and activities has resulted in numerous 
efforts that will assist the nation, states, regions, and local 
communities. Climate change information is being incorporated into 
coastal and ocean living marine resource and coastal ecosystem 
management decisions within NOAA itself through an increasing emphasis 
on an ecosystem approach to management.
    Climate-related ecosystem level advice is being integrated and made 
available through programs, publications and advisories such as the 
Coral Reef Conservation Program, the Status of the California Current 
System Report, the Ecosystems Considerations chapter of the North 
Pacific Groundfish Stock Assessment and Fisheries Evaluation reports, 
and Ecosystem Advisories for the Northeast U.S. Shelf Large Marine 
Ecosystem. A short summary of other efforts include:
    <bullet>  In 2006, NOAA and partners produced A Reef Manager's 
Guide to Coral Bleaching. The guide articulates the state of knowledge 
on the causes and consequences of coral bleaching and provides 
information on responding to mass bleaching events, highlighting how to 
develop bleaching response plans and other management strategies to 
help reef managers increase the resilience of coral reefs and related 
ecosystems to expected changes in the global climate system.
    <bullet>  Climate information was used for fisheries management by 
the North Pacific Fishery Management Council who decided to reduce the 
Bering Sea pollock quota for 2008 by about 30 percent from 2007 levels. 
Climate information supplied by NOAA indicating relatively warm ocean 
conditions contributed to this decision.
    <bullet>  The state-managed National Estuarine Research Reserve 
System serves as sentinel sites to monitor the effects of change, as 
well as reference sites for guiding mitigation and adaptation 
strategies in larger coastal areas and watersheds. In addition, the 
Reserves' education and training programs provide science-based 
information to help individuals, agencies and organizations mitigate 
and adapt to the effects of climate change. At the Waquoit Bay National 
Estuarine Research Reserve in Massachusetts, staff participates on the 
Falmouth Energy Committee and helped to develop the Climate Action Plan 
for the town of Falmouth and have been active in getting towns on the 
Cape to commit to the Cities for Climate Protection program.
    <bullet>  NOAA is working with coastal managers and planners to 
better prepare for changes in coastal ecosystems due to land subsidence 
and sea level rise. Starting with southern Pamlico Sound, North 
Carolina, the approach is to simulate projected sea level rise using a 
coastal flooding model that combines a hydrodynamic model of water 
levels with a high resolution digital elevation model. The final 
products will be mapping and modeling tools that allow managers and 
planners to see projected shoreline changes and to display predictions 
of ecosystem impacts.

How NOAA Incorporates Climate Change Information - Ecosystem Services 
        Restoration and Protection
    Coastal habitats provide a variety of important ecosystem services 
that help protect coastal citizens and infrastructure from impacts of 
storms, flooding, sea level rise and other coastal hazards. 
Irreplaceable for floodwater retention, water filtration, fish and 
wildlife habitats and coastal buffers, coastal wetlands, barrier 
islands, mangroves and coral reefs provide a ``green infrastructure,'' 
helping to reduce erosion, storm surge and flooding, and provide 
buffers against the onslaught of storms and wave energy. The extensive 
damage caused to the Gulf of Mexico from hurricanes Katrina and Rita 
was due in part to the degraded state of the wetlands and barrier 
islands. Nationally, coastal erosion results in loss of coastal 
structures and property valued at an estimated $500 million per year. 
Protection and restoration of coastal wetlands, estuaries, and rivers 
can help protect coastal communities against the onslaught of coastal 
hazards, sea level rise, and other effects of climate change.
    We need to fully understand ecosystem processes and interactions, 
in order to predict and forecast how climate change will alter these 
ecosystem processes and interactions and the vital services they 
provide, and to adapt to those changes. For example, wetlands and 
barrier islands provide significant flood protection benefits. Recent 
research shows that each wetland alteration permit in Florida costs an 
additional $1,000 in property damage per flood claim, and all permits 
combined cost the state $30.4 million a year <SUP>4</SUP>. We need to 
understand how this value might change with increasing sea level rise 
and develop strategies to ensure that the ecosystem services are 
protected and maintained as the climate changes.
---------------------------------------------------------------------------
    \4\ Brody, SD., Zahran S., Maghelal, P., Grover, H., Highfield, WE. 
The Rising Costs of Floods: Examining the Impact of Planning and 
Development Decisions on Property Damage in Florida, Journal of the 
American Planning Association, Vol. 73, No. 3, Summer 2007
---------------------------------------------------------------------------
    NOAA works with federal agencies, state and local governments, 
nonprofit, and private sector organizations to help coastal communities 
acquire, protect, conserve and restore coastal habitats, not only for 
the aesthetic and natural habitat benefits, but also because they 
provide important services to reduce the impacts of storms, flooding 
and other coastal hazards. NOAA's efforts include large-scale, regional 
efforts involving multiple projects, to individual, local projects to 
protect or restore coastal wetlands, rivers, and other habitats. Some 
key examples of projects or programs include:
    <bullet>  In the Chesapeake Bay, NOAA and partners restored near-
shore oyster reefs and seagrass beds that reduced wave damage and 
protected coastal property from erosion;
    <bullet>  In Maine, the Land Trust Alliance, the Maine Coast 
Heritage Trust, and the Maine State Planning Office entered into a 
cooperative agreement with NOAA to leverage the skills and resources of 
approximately 50 organizations engaged in protecting Maine's coast for 
future generations. The project resulted in a coastal conservation plan 
that identifies protection priorities and strategies and implements a 
series of pilot projects at the local level;
    <bullet>  In coastal Louisiana, through the Coastal Wetlands 
Planning, Protection, and Restoration Act Program, NOAA has helped 
restore barrier islands resulting in increased protection of oil and 
gas infrastructure and coastal communities from risk of storm and wave 
damage; and
    <bullet>  NOAA's Coastal and Estuarine Land Conservation Program 
provides a tool for states to address climate change and coastal 
hazards through cost-sharing land acquisition.
    NOAA recognizes that it is imperative to work with states and 
community partners to develop ecosystem approaches to respond to the 
effects of climate change. NOAA has several successful programs that 
partner with states, local communities, and non-profit organizations to 
protect and restore coastal habitats. A strong planning element, 
matched by determined local involvement will lead to proactive 
adaptation.

Next Steps
    Federal, state, and local governments, nonprofit organizations, and 
the private sector continuously demand more climate information and 
services to effectively address the challenge of climate change and 
adaptation. NOAA is working hard to address these needs within its 
current budget and programs. Climate researchers at NOAA are making 
progress in matching the time and space scales of climate projections 
with time and space scales relevant to coastal management, land-use 
decision making, and hazard mitigation planning. We are also working to 
incorporate climate observations and predictions into coastal and 
living marine resource management.
    NOAA looks forward to working with stakeholders to prioritize 
future research efforts. Among the stated needs of stakeholders are 
integrating climate information into infrastructure decisions for ports 
and waterways, clarifying the mechanisms of climate impacts on coastal 
and living marine resources and habitats, and assessing the 
socioeconomic impacts of a changing climate on coastal communities.

Conclusion
    Providing a comprehensive suite of climate products and services 
that support effective adaptation planning requires a partnership 
approach, particularly in the economically important and politically 
challenging coastal domain. No single agency can meet all of the 
nation's needs for climate services. But as the world's preeminent 
source for climate data and information, NOAA is uniquely positioned to 
help coordinate and provide climate information, products, and services 
across the federal government to ensure U.S. citizens, particularly 
those in coastal areas, have the tools required to adapt to the effects 
of a changing climate. NOAA is also working to ensure climate change 
information is being incorporated into living marine resource 
management decisions through an increasing emphasis on an ecosystem 
approach to management.
    NOAA will continue to expand and improve its partnerships to meet 
growing constituent demands for tools, products, and services that will 
help them improve their resilience to the impacts of climate change on 
coastal ecosystems, communities, and economies.
    Thank you for the opportunity to appear before you today.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Davidson. And now I 
recognize Mr. Brunello to testify for five minutes.

 STATEMENT OF TONY BRUNELLO, DEPUTY SECRETARY, CLIMATE CHANGE 
            AND ENERGY, CALIFORNIA RESOURCES AGENCY

    Mr. Brunello. Thank you. And I appreciate Margaret giving 
me her time.
    Chairman Bordallo, Congressman Wittman, and distinguished 
members of the Subcommittee, thank you for the opportunity to 
appear before you today to offer testimony regarding the needs 
of the states and territories to successfully respond and adapt 
to the existing and future impacts of climate change along the 
nation's coasts. I should also note that I think I live at 20 
feet sea level.
    My name is Anthony Brunello and I serve as the Deputy 
Secretary for Climate Change and Energy for the California 
Resources Agency. I am here today on behalf of the Coastal 
States Organization which represents the interests of the 
Governors from 35 coastal states and territories and 
commonwealths. Over the past year, CSO's Climate Change Work 
Group developed a report targeting the key research, 
information, and policy needs designed to foster improved 
adaptation policies. This was a collaborative process with 26 
states represented and led to a climate change policy later 
adopted by all 35 coastal states. During my testimony today I 
will provide comments reflective of this CSO policy as well as 
specific observations from climate adaptation efforts in 
California.
    As committee members may know, the Coastal State 
Organization just released a ``Call for Action'' to identify 
three critical steps necessary at the Federal level for ocean 
and coastal management. One of the three issues identified was 
the need for the Federal Government to assist coastal states in 
efforts to adapt to climate change. The nation's coastal 
states, territories and commonwealths will be the hardest hit 
by climate change impacts from sea level rise, temperature 
change and precipitation shifts over the next century. In 
California, absent successful intervention, one meter of sea 
level rise, for example, is being projected over the next 
century. This would result in flooding of more than 100 square 
miles of the San Francisco Bay Area, including critical 
infrastructure such as the Oakland and San Francisco Airports, 
and would inundate portions of the Sacramento and San Joaquin 
River Delta area. The delta is California's main artery for the 
state water project that provides water to more than 25 million 
residents.
    This is actually quite an important point that I hope we 
will bring up later in the questions of how adaptation policies 
and strategies must be cross cutting. In particular, sea level 
rise cuts across our water sector, coastal sectors, wildlife 
sectors, and so shows many of the challenges that we are 
facing.
    In particular, most coastal states are not prepared to 
address predicted climate change impacts such as sea level 
rise. States and Federal entities should assist in the 
development of sector-specific climate adaptation strategies 
for coastal areas and develop comprehensive cross-sector 
strategies that would aim to reduce vulnerability to climate 
change.
    To reduce California's vulnerability to these risks, the 
state is developing a statewide climate adaptation strategy in 
coordination with its aggressive greenhouse gas mitigation 
policies. California's commitment to reduce our greenhouse gas 
emissions are clear in our 2006 Global Warming Solutions Act, 
the low carbon fuel standard, our renewable portfolio standard, 
and many other efforts to help reduce the long-term climate 
impacts to California. However, I always mention these efforts 
and the world's mitigation efforts will slow but not stop 
climate impacts to California and other coastal states over the 
next century. Therefore, adaptation of expected future impacts 
must occur as a parallel track to mitigation.
    This is why California, through the leadership of 
California Governor Schwarzenegger and California Resources 
Agency Secretary Mike Chrisman, is planning its first 
coordinated climate change adaptation strategy effort that will 
be completed in 2009. To develop California's climate 
adaptation strategy, early efforts will focus on understanding 
where California is most vulnerable to climate change. The 
strategy efforts are already underway with different agencies 
and departments responsible for identifying policy options 
available to reduce California's vulnerability to future 
climate change. Groups focused on oceans and coastal resources, 
water, biodiversity, working lands, public health, 
infrastructure and energy will identify the most vulnerable 
areas in each sector and recommend policies for the state's 
adaptation strategy to future climate impacts.
    Finally, California is working to implement certain 
adaptation strategies now that have been identified as 
necessary in the short term. Some examples include the 
following:
    For the ocean and coastal resources sector, California is 
developing coastal management planning guidance to deal with 
sea level rise through its coastal management agencies and the 
California Ocean Protection Council. Departments such as the 
California Coastal Conservancy are changing funding guidelines 
to ensure preservation of terrestrial and aquatic species in 
coastal areas. And California chairs the Coastal States 
Organization which is working to ensure climate change 
adaptation is a priority for state and Federal partners.
    For the water sector, the state Department of Water 
Resources is currently updating its state water plan that will 
guide water expenditures and planning for the next century and 
has climate change as a major planning priority.
    Concerning biodiversity conservation, the California 
Department of Fish and Game has identified climate change as a 
key threat in its core planning document, the State Wildlife 
Action Plan, and is now working to address how the land it 
manages and the species residing on those lands will be 
impacted.
    All of California's land management agencies are 
considering how to adjust planning and expenditures based on 
updated climate science. This is significant, since California 
has nearly $500 million to spend per year over the next five 
years on habitat conservation and restoration in the state.
    A couple more points. In California, the focus on 
understanding climate impacts and developing and implementing 
comprehensive cross-sector climate adaptation strategies is a 
useful framework for addressing climate adaptation efforts. The 
same approach could be replicated in other states across the 
country, as is currently happening in Florida, Washington, 
Oregon, and Maine, to reduce the nation's collective future 
vulnerability.
    The CSO would support Federal efforts, along with 
California to: [1] develop a national coastal adaptation 
strategy to ensure intergovernmental coordination.
    I can stop and bring those up later since that is a nice 
sound.
    Basically just the last points are we need more assistance 
with developing a national adaptation strategy, funding new 
climate change research, assisting with on-the-ground mapping 
and modeling efforts that will be critical in addressing these 
impacts, and also recognizing the critical role of coastal 
states in adapting to climate change.
    Thank you.
    [The prepared statement of Mr. Brunello follows:]

Statement of Anthony Brunello, Deputy Secretary for Climate Change and 
 Energy, California Resources Agency, on behalf of the Coastal States 
                              Organization

    Chairwoman Bordallo, Ranking Member Brown, and distinguished 
members of the Subcommittee; thank you for the opportunity to appear 
before you today to offer testimony regarding needs of the states and 
territories to successfully respond and adapt to the existing and 
future impacts of climate change along the nation's coasts.
    My name is Anthony Brunello and I serve as the Deputy Secretary for 
Climate Change and Energy for the California Resources Agency. I am 
here today on behalf of the Coastal States Organization (CSO), which 
represents the interests of the Governors from thirty-five coastal 
states and territories and commonwealths. Over the past year, CSO's 
Climate Change Work Group developed a report targeting the key 
research, information, and policy needs designed to foster improved 
adaptation policies. This was a collaborative process with twenty-six 
states represented and led to a climate change policy later adopted by 
all thirty-five coastal states. During my testimony today, I will 
provide comments reflective of this CSO policy as well as specific 
observations from climate adaptation efforts in California.

CLIMATE IMPACTS TO COASTAL REGIONS
    As committee members may know, the Coastal States Organization just 
released a ``Call for Action'' to identify three critical steps 
necessary at the federal level for ocean and coastal management. One of 
the three issues identified was the need for the federal government to 
assist coastal states in efforts to adapt to climate change. The 
nation's coastal states, territories, and commonwealths will be the 
hardest hit by climate change impacts from sea level rise, temperature 
change and precipitation shifts over the next century. These findings 
were detailed in both the Bush Administration's National Science and 
Technology Council (NSTC) report released last month and the U.N. 
International Panel on Climate Change (IPCC) Fourth Assessment Report. 
Coastal and Great Lakes areas are especially vulnerable to accelerated 
sea level rise, shoreline erosion, increased storm frequency and 
intensity, changes in rainfall, and related flooding. Expected impacts 
will vary regionally, but leading scientists tell us that many of these 
events are likely to be experienced in the coming decades--regardless 
of existing and proposed reductions in Green House Gas (GHG) emissions. 
In California, absent successful intervention, one meter of sea level 
rise is being projected over the next century. This would result in 
flooding of more than 100 square miles of the San Francisco Bay Area 
including critical infrastructure such as the Oakland and San Francisco 
Airports and would inundate portions of the Sacramento-San Joaquin 
River Delta area. ``The Delta'' is California's main artery for the 
State Water Project that provides water to more than 25 million 
residents (Figure 1 shows areas that could be flooded in the Bay Area 
with a one meter rise in sea level).
    Islands and territories are especially vulnerable to sea level rise 
and extreme storm events. In fact, the IPCC found that sea-level rise 
is expected to impact island states in particular by exacerbating 
inundation, storm surge, erosion and other coastal hazards, in addition 
to threatening vital infrastructure, settlements and facilities that 
support the livelihood of island communities. Islands infrastructure is 
predominantly located on the coast, including nearly all international 
airports, roads and capital cities. In the Caribbean and Pacific 
islands, more than 50 percent of the population lives within a mile of 
the shoreline. And as Chairwoman Bordallo knows in her home of Guam, 
sea level rise is a growing concern with all development there being 
within 11 miles of the shoreline.
    Climate change will also significantly impact coral reefs, 
fisheries and other marine-based resources, while adversely affecting 
human health, agriculture, and tourism, especially as it pertains to 
small island communities. Other impacts include changes in the chemical 
and physical characteristics of marine systems, saltwater intrusion 
into groundwater aquifers and coastal rivers, increase in harmful algal 
blooms, spread of invasive species, habitat loss, species migrations, 
and changes in population dynamics among marine and coastal species.

DEVELOPING A COMPREHENSIVE CLIMATE Adaptation Strategy
    Most coastal states are not prepared to address predicted climate 
change impacts. States and federal entities could assist in the 
development of sector-specific climate adaptation strategies (i.e., 
water, oceans, infrastructure, habitat, agriculture, health, etc.) and 
comprehensive cross-sector strategies that would aim to reduce 
vulnerability to climate change. In developing climate adaptation 
strategies in California, there are three components needed to reduce 
vulnerability to future climate impacts including: (1) expanding the 
understanding of climate impacts to California; (2) developing a 
comprehensive cross-sector state climate adaptation strategy; and (3) 
implementing the climate adaptation strategy.
    The foundation for any adaptation strategy is to understand what 
areas and sectors are most vulnerable to future climate impacts and 
what can be done to reduce the risk, if possible, of these impacts. 
Understanding climate change impacts requires downscaling large global 
climate models and their results to a more state-friendly format. The 
IPCC and NSTC reports mentioned provide a good starting point for 
understanding the national and regional impacts, but a similar state-
oriented effort is needed. Although California is committed to this 
work through the California Energy Commission (CEC), coastal management 
agencies, the California Ocean Protection Council, and other sister 
agencies need more technical and financial assistance from the federal 
government. A clear federal strategy is needed for intergovernmental 
coordination with coastal states and local governments to assist us on 
coastal adaptation to climate change. A key component to this federal 
strategy for coastal adaptation should be a new, stronger focus on 
interagency cooperation between NOAA, state coastal management 
programs, regional efforts (i.e., West Coast Governors Agreement), and 
state floodplain managers. This will include assistance with mapping, 
modeling, and determination of the socio-economic impacts of climate 
change.
    The first key component of adaptation is building the understanding 
of climate impacts. Thus, coastal states need clear idea, with maps and 
other tools, to identify what is at risk. It will be critical to become 
more familiar with the concepts of ``vulnerability'' and ``risk 
management.'' Vulnerability is the potential for a system to be harmed 
by climate change, considering the impacts of climate change on the 
systems as well as its capacity to adapt. Risk management is a tool to 
manage uncertainty related to climate change impacts through risk 
assessment, strategies development to manage it, and mitigation of 
risk. Both concepts are more common in industry than government and 
require new resource intensive tools based on probabilities and expert 
opinion rather than historical records. Both will be necessary since, 
to quote Yogi Berra, ``The future ain't what it used to be.''
    The second key component for successful adaptation is developing 
the strategy. This is the most challenging component since it requires:
    <bullet>  Linking climate change vulnerability analysis to policy 
and financial investment actions that can reduce these risks; and
    <bullet>  Building political support to implement adaptation 
strategies.
    Because climate change impacts are multi-dimensional, strategies 
must be comprehensive and cut across sectors. For example, coastal 
communities such as Los Angeles will benefit from a cross-sector 
analysis as they may face increased sea level, reduced water supply, 
and increased health risk from rising temperatures.
    The final and most important component of a climate adaptation 
strategy is to implement the strategy. This is obvious, but important 
to emphasize since the majority of adaptation discussions focus on 
improving the science of climate change, which is necessary, but 
doesn't fund nor promote actions to reduce known climate risks already 
identified. Many climate change adaptation strategies will simply be 
enhancing existing efforts, such as building higher and stronger flood 
control levies. However others sectors may require a complete 
restructuring of funding and planning efforts, such as funding habitat 
for endangered species that research shows no hope of surviving future 
climate change impacts.

CALIFORNIA'S ADAPTATION EFFORTS
    California is already seeing significant climate change impacts now 
through shifting precipitation patterns and sea level rise. Sea level 
in the Bay Area has increased 7 inches over the last century, fires are 
increasing in severity and duration, and snow pack is melting earlier 
each year. In the future, California is expecting to see even higher 
sea level, more rain, less snow, and a shift and possible reduction in 
habitat and species diversity unlike any seen in the past.
    California is now developing a statewide climate adaptation 
strategy in coordination with its aggressive GHG mitigation policies. 
State commitments in the 2006 Global Warming Solutions Act (to reduce 
the state's GHG emissions 20 percent below its 1990 levels by 2020 and 
an 80 percent reduction by 2050) along with the Low Carbon Fuel and 
Renewable Portfolio Standards will help reduce the long-term climate 
impacts to California. However, these efforts and the world's 
mitigation efforts will slow, but not stop, climate impacts to 
California over the next century; therefore, adaptation to expected 
future impacts must occur as a parallel track to mitigation. This is 
why California, through the leadership of California Resources Agency 
Secretary Mike Chrisman, is planning its first coordinated climate 
change adaptation strategy effort that will be completed in 2009.
    To develop California's climate adaptation strategy, early efforts 
are focused on understanding where California is most vulnerable to 
climate change. The California Energy Commission (CEC), in partnership 
with numerous government, academic, industry, and NGO partners, has 
spent millions of dollars over the last five years on building new 
climate change scenarios for California and funding in-depth studies of 
impacts to energy, forestry, water, biodiversity, and other sectors. 
The California Ocean Protection Council and state coastal management 
agencies (California Coastal Commission and the San Francisco Bay 
Conservation and Development Commission) are working on targeted 
analyses of coastal impacts. These studies will be complete this year, 
and will be used to develop the state's climate adaptation strategy and 
to better inform policy-makers and the general public.
    The strategy efforts are already under way with different agencies 
and departments responsible for identifying policy options available to 
reduce California's vulnerability to future climate change. Groups 
focused on oceans and coastal resources, water, biodiversity, working 
lands, public health, infrastructure, and energy will identify the most 
vulnerable areas in each sector and recommend policy for the state's 
adaptation to future climate impacts. To ensure California is 
coordinating with other state, national, and international efforts, the 
state will develop an ``adaptation leaders'' group to link with other 
climate change adaptation efforts, and provide varied public and 
private sector perspectives.
    Finally, California is working to implement certain adaptation 
strategies now that have been identified as necessary in the short 
term. Some examples include the following:
    <bullet>  For the ocean and coastal resources sector, California is 
developing coastal management planning guidance to deal with sea level 
rise through its coastal management agencies and the California Ocean 
Protection Council, departments such as the California Coastal 
Conservancy are changing funding guidelines to ensure preservation of 
terrestrial and aquatic species in coastal areas, and California chairs 
the Coastal States Organization which is working to ensure climate 
change adaptation is a priority for state and federal partners.
    <bullet>  For the water sector, the state Department of Water 
Resources is currently updating its State Water Plan that will guide 
water expenditures and planning for the next century and has climate 
change as a major planning priority.
    <bullet>  Concerning biodiversity conservation, the California 
Department of Fish and Game has identified climate change as a key 
threat in its core planning document, the State Wildlife Action Plan, 
and is now working to address how the land it manages and the species 
residing on those lands will be impacted. All of California's land 
management agencies are considering how to adjust planning and 
expenditures based on updated climate science. This is significant 
since California has nearly five hundred million dollars to spend per 
year over the next five years on habitat conservation and restoration 
in the state.
    California's response to climate change is not a simple choice 
between mitigating GHG emissions and adapting to the impacts of climate 
change. Adaptation and mitigation are necessary and complementary 
strategies for combating climate change. California's adaptation 
strategy effort will provide the state's best current thinking in 
determining the portfolio of solutions that will best minimize 
potential risks and maximize potential benefits to the state and its 
coastal areas.

MOVING TO ACTION
    Reducing the United States' vulnerability to climate change impacts 
should be a national priority that receives the same attention as 
efforts to mitigate GHG emissions. The science is clear: coastal states 
can expect significant climate change impacts in many sectors and 
locations. Now is the time for state and federal policy-makers to begin 
to take action.
    Because the nation's coastal zone faces a number of challenges in 
adapting to the effects of climate change, coastal states must be full 
and equal partners in any national response. Close coordination between 
the federal government and coastal states in research, development of 
adaptive strategies, sharing of information, and education will be 
necessary to successfully meet these complex challenges. Given the 
physical and socioeconomic diversity of the nation's coastlines, 
individual states are best suited to determine which adaptive 
mechanisms will work best in their area. Therefore, state authority and 
sovereignty should be strongly maintained in a national strategy to 
adapt to climate change.
    In California, the focus on understanding climate impacts and 
developing and implementing comprehensive cross-sector climate 
adaptation strategies is a useful framework for addressing climate 
adaptation efforts. The same approach could be replicated in other 
states across the country, as is currently happening in Florida, 
Washington, Oregon, and Maine, to reduce the nation's collective future 
vulnerability.
    The Coastal States Organization would support federal efforts to:
    <bullet>  Develop a national coastal adaptation strategy to ensure 
intergovernmental coordination on coastal adaptation to climate change; 
to clearly define the roles of various agencies; and to identify the 
mechanisms by which federal programs will coordinate with state 
partners on coastal adaptation issues. This should be an important 
component in future strategies regarding the re-authorization of the 
federal Coastal Zone Management Act;
    <bullet>  Fund new climate change research, coordinate existing 
climate change research, and promote the outreach of this research to 
the states and territories;
    <bullet>  Assist with on-the-ground mapping and modeling efforts 
that will be critical in addressing these impacts before they occur; 
and,
    <bullet>  Recognize the critical role of coastal states in adapting 
to climate change.

CONCLUSION
    Thank you Chairwoman Bordallo and distinguished members of the 
Subcommittee for the opportunity to appear before you today to offer 
testimony on how the nation can collectively reduce the vulnerability 
of coastal areas to future climate impacts. California is pleased to 
serve as a resource to the Subcommittee for future adaptation planning 
efforts.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Brunello.
    I would like to remind the folks in the back there are 
still four seats up here. And I hate to see you stand. You 
know, it is almost just painful from the Chair's seat as it is 
back there. So please do not be shy, come and have a seat. 
There are four seats up here around the horseshoe.
    All right. At this time I would like to recognize Ms. 
Chasis. Is that the way to pronounce your name?
    Ms. Chasis. Yes, it is, Madam Chair.
    Ms. Bordallo. All right.

STATEMENT OF SARAH CHASIS, DIRECTOR, OCEANS INITIATIVE, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Chasis. Thank you so much for this opportunity to 
testify on what the Natural Resources Defense Council, NRDC, 
sees as the expected need for Federal and state agencies to 
ramp up efforts to plan for global warming and its impacts.
    Global warming is contributing to higher ocean 
temperatures, more extreme weather events, and rising sea 
levels. In addition, the higher concentration of CO<INF>2</INF> 
in the atmosphere is directly altering the chemistry of our 
oceans causing the water to become more acidic. Left unchecked, 
all of these changes will have profound impacts on coastal and 
marine ecosystems. Rising sea levels will increase erosion of 
beaches, cause salt water intrusion, inundate coastal marshes, 
and make coastal property more vulnerable to storm surges.
    More extreme weather events, including intense rainfall, 
floods, droughts, tropical storms will alter fresh water flows 
into estuaries and lagoons, exacerbate polluted run-off and 
water supply problems, and damage coastal habitats and 
property. Higher ocean temperatures will cause extensive coral 
bleaching, enhance marine disease, alter species' ranges and 
population abundances, and stress many fisheries.
    Increased acidity will profoundly affect many forms of 
marine life, particularly those with carbonate shells or other 
exterior structures, such as tropical and cold water corals.
    While daunting, these impacts must be confronted by Federal 
and state governments. To prepare for sea level rise, coastal 
states and the Federal Government should take steps to 
implement ecologically and economically sound adaptive 
strategies that discourage new development in vulnerable areas 
and support efforts to site structures farther landward of 
eroding shorelines. This is essential, not only to help reduce 
serious risks to human safety, but also to ensure the 
preservation of beaches, dunes and other natural coastal 
habitats that are so important to coastal economies and quality 
of life.
    To deal with extreme weather events such as heavy 
downpours, coastal states and Federal agencies must emphasize 
the protection and restoration of shoreline and streamside 
riparian vegetation and wetlands. They must upgrade and update 
storm water management to take account of more frequent and 
heavier rainfall events and increase water use efficiency and 
opportunities for beneficial use.
    To deal with warming of coastal waters it will require 
strategies that increase the overall resilience of ecosystems. 
It will be necessary to reduce the negative impacts of a broad 
range of human-induced stressors in an effort to help coastal 
and marine systems resist or recover from disturbances such as 
coastal bleaching, disease outbreaks or anoxia events. Placing 
greater emphasis on habitat protection and ecosystem-based 
management approaches will improve the likelihood that these 
systems and resources will be able to withstand the impacts of 
global warming and ocean acidification.
    This shift in management will require a directive to 
Federal agencies and encouragement to state agencies to pursue 
their responsibilities in a manner consistent with the 
protection, maintenance and restoration of marine and coastal 
systems. Madam Chair, Congress' enactment of Oceans 21 
legislation would promote this goal. And we applaud this 
Subcommittee's action in passing that legislation forward. And 
we urge the full committee to take that legislation up.
    Finally, to address acidification, coastal states and the 
Federal Government must be leaders in efforts to minimize and 
reduce CO<INF>2</INF> emissions and, in addition, to restore 
the health and resilience of marine ecosystems, particularly 
coral reefs. Because ocean acidification is an emerging issue, 
directed research and monitoring funds should be made available 
as soon as possible.
    Overall, and perhaps most importantly, in order to provide 
a comprehensive approach to addressing these challenges, 
Congress should enact climate adaptation legislation to direct 
Federal and state agencies to develop and implement adaptation 
strategies. And, and I underscore this, provide the scale and 
consistency of funding to make these efforts successful. 
Adaptation strategies should be coordinated at the Federal 
level through the development and implementation of a 
Presidential plan, and at the state level through the 
development and implementation of a Governor-level plan. Plans 
should be developed with input from all relevant agencies, 
scientists and the public. State-level plans should be 
consistent with the national strategy in order to receive 
Federal funds.
    These are the types of actions that are needed to help 
ensure that the economic opportunities, ecological benefits and 
outdoor traditions that coastal and ocean resources provide 
will endure for generations to come.
    Thank you.
    [The prepared statement of Ms. Chasis follows:]

Statement of Sarah Chasis <SUP>1</SUP>, Senior Attorney and Director of 
          Ocean Initiative, Natural Resources Defense Council
---------------------------------------------------------------------------

    \1\ Roberta Elias, Ocean Advocate, NRDC and Lisa Suatoni, Ocean 
Scientist, NRDC helped prepare this testimony.
---------------------------------------------------------------------------
I. Introduction <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ This testimony is largely drawn from the guide Preparing for a 
Sea Change in Florida: A Strategy to Cope with the Impacts of Global 
Warming on the State's Coastal and Ocean Systems, released in May 2008 
by the Florida Coastal and Ocean Coalition, of which NRDC is a member. 
Patty Glick ( NWF ) was the primary author of the guide. Groups that 
are part of the Florida Coastal and Ocean coalition, in addition to 
NRDC, include the National Wildlife Federation, Environmental Defense 
Fund, Ocean Conservancy, Surfrider, Gulf Restoration Network, Coastal 
Conservation Association/Sea Turtle Survival League and Reef Relief. 
The guide can be found at: http://www.flcoastalandocean.org/
Climate_Change_Guide_for_Florida_
Preparing_for_a_Sea_Change.pdf.
---------------------------------------------------------------------------
    Madame Chair and distinguished members of this Subcommittee, thank 
you for this invitation to testify on what we see as the expected need 
for Federal and state agencies to ramp up efforts to plan for global 
warming and its impacts. We believe that an essential element of this 
planning must be on improving the resilience of our natural systems and 
their ability to withstand the ongoing and expected impacts of global 
warming and ocean acidification. My testimony is presented on behalf of 
NRDC, a national environmental organization with over a million members 
and online activists, dedicated to the protection of the earth--its 
people, plants and animals and the natural systems on which all life 
depends.
    Global warming is contributing to higher ocean temperatures, more 
extreme weather events, and rising sea levels. We are already starting 
to see its effects. For example, average surface water temperatures 
have increased about a degree Fahrenheit in the California Current off 
the west coast (Mendelssohn, 2005), 1.5 to 2 degrees Fahrenheit in the 
Chesapeake Bay (Austin, 2002) and 3 degrees Fahrenheit in Florida since 
the 1950s and 1960s (U.S. EPA, 1997). In addition, the higher 
concentration of CO<INF>2</INF> in the atmosphere is directly altering 
the chemistry of our oceans, causing the water to become more acidic 
(Kleypas, et al., 2005). Left unchecked, all of these changes will have 
a profound impact on coastal and marine ecosystems including:
    <bullet>  Rising sea levels will increase erosion of beaches, cause 
saltwater intrusion into water supplies, inundate coastal marshes and 
other important habitats, and make coastal property more vulnerable to 
storm surges.
    <bullet>  More-extreme weather events, including intense rainfall, 
floods, droughts, and tropical storms, will alter freshwater flows into 
estuaries and lagoons, exacerbate polluted runoff and water supply 
problems, and damage coastal habitats and property. An increase in wave 
height over the past 50 years has already been measured in the 
Northeast (Wolf et al., 2002) and the Pacific northwest (Allen et al., 
2006)
    <bullet>  Higher ocean temperatures will cause extensive coral 
bleaching, enhance marine diseases, alter species' ranges and 
population abundances, and stress many fisheries. For example, 
unusually warm winters have resulted in lobster disease outbreaks in 
Long Island Sound (Glen and Pugh, 2006) as well as the northward spread 
of an oyster parasite, referred to as ``dermo'', from southern U.S. to 
areas north of Delaware Bay (Ford and Smolowitz, 2007). This disease 
has resulted in massive mortalities of the northeastern oysters in 
recent years.
    <bullet>  Changes in local and regional circulation patterns may 
occur causing changes in productivity. For example, recent changes in 
the timing and duration of upwelling along the Pacific coast--which are 
believed to be related to changes in wind patterns from continental 
warming--have triggered sea bird colony die-offs and dead zones along 
the west coast of the United States over the past few years (Chan et 
al., 2008).
    <bullet>  Increased ocean acidity will profoundly affect many forms 
of marine life, particularly those with carbonate shells or other 
exterior structures, such as tropical and cold water corals. This 
change in pH will directly affect many organisms at the base of marine 
food chains as well as organisms that provide critical habitat for 
other forms of marine life. Increased acidity may also have direct 
physiological effects on vulnerable juvenile stages of other types of 
marine organisms, such as fish and squid. Recent research shows 
corrosive waters are now being upwelled onto the continental shelf off 
the west coast of the United States due to ocean acidification (Feely 
et al., 2008). There is significant concern of what impacts this could 
have on coastal resources and ecosystems.
    While it may seem daunting, state and federal agencies must 
confront these problems. This work will require concerted efforts on 
two important fronts: minimizing global warming by reducing greenhouse 
gas emissions and preparing for related changes, many of which are 
already underway.
    First and foremost, the nation must work to lessen the impact of 
global warming by reducing the pollution causing it. However, impacts 
are already occurring and will continue to occur even if emissions are 
capped (though at less dramatic levels than under a business as usual 
scenario). Because of this reality and because of the already degraded 
state of our ocean and coastal resources, federal and state agencies 
must adjust their management and conservation strategies to maximize 
resilience and to promote the ability of coastal and marine resources 
to adapt to ongoing and projected impacts.
    There are a number of actions that coastal state and federal 
agencies can and should take to cope with the significant challenges 
posed by rising sea levels, more-extreme storm events, higher ocean 
temperatures, and acidification of ocean waters. Some of the 
recommended actions are summarized below and discussed in more detail 
later in this testimony.

Rising Seas
    To prepare for sea-level rise, coastal states and the federal 
government must take steps to implement ecologically and economically 
sound adaptive policies and strategies that discourage development in 
vulnerable areas and support efforts to site structures farther 
landward of eroding shorelines. This is essential not only to help 
reduce serious risks to human safety, but also to ensure the 
preservation of beaches, dunes, and other natural coastal habitats that 
are so important to coastal economies and quality of life.

Extreme Weather Events
    To deal with extreme weather events, such as heavy downpours and 
droughts, coastal states and federal agencies must emphasize the 
protection and restoration of shoreline and streamside riparian 
vegetation and wetlands, upgrade stormwater management to take account 
of more frequent and heavier rainfall events, and increase water use 
efficiency and opportunities for beneficial reuse.
Higher Ocean Temperatures
    To reduce the impacts of higher ocean temperatures, coastal states 
and the federal government must work across sectors and agencies to 
protect and restore coastal and marine ecosystems in order to enhance 
their ability to withstand the additional stresses accompanying global 
warming.

Ocean Acidification
    To address acidification, coastal states and the federal government 
must be leaders in efforts to minimize global warming through 
significant reductions in greenhouse gas emissions, in addition to 
restoring the health and resilience of marine ecosystems, particularly 
coral reefs. Because ocean acidification is an emerging issue, directed 
research and monitoring funds should be made available as soon as 
possible. Knowledge gained about the effects of ocean acidification at 
varying carbon dioxide concentrations should be used to inform any 
carbon cap set by Congress.
    By implementing these and the other recommendations, coastal states 
and the federal government can help ensure that the economic 
opportunities, ecological benefits, and outdoor traditions that coastal 
and ocean resources provide will endure for generations to come. Given 
that the major threats to our oceans and coasts stem from activities 
pursued on land, along the coasts, and in the water, this shift in 
perspective will require a legislative directive to all agencies, not 
just those specifically charged with marine and coastal mandates, to 
pursue their responsibilities in a manner consistent with the 
protection, maintenance, and restoration of the health and productivity 
of coastal and marine ecosystem and resources
    Each of these impacts associated with increased atmospheric 
concentrations of greenhouse gases ``sea level rise, extreme weather 
events, higher ocean temperatures, and increased ocean acidification--
is discussed further below as well as state and federal strategies both 
to minimize these impacts and to improve the ability of natural systems 
and resources to adapt to related changes in conditions

II. Confronting the Impacts of Sea Level Rise
    Global warming is causing sea levels to rise due to a combination 
of thermal expansion of the oceans and rapidly melting glaciers and ice 
sheets. The average global (eustatic) sea level rose about 6.7 inches 
over the 20th century. This was 10-times faster than the average rate 
of sea-level rise during the preceding 3,000 years (IPCC, 2007). In the 
coming decades, the rate of sea-level rise is expected to accelerate. 
The most recent estimates from the 2007 IPCC assessment show an 
additional 7 to 23 inch rise in global average sea level by the 2090s 
(IPCC, 2007). However, scientists are becoming increasingly concerned 
that the rate of global sea-level rise in the coming decades and beyond 
will be even greater than these projections, as several new studies 
have determined that the ice sheets of Greenland and parts of 
Antarctica are melting much more rapidly than previously estimated 
(Otto-Bliesner, et al, 2006; Overpeck, et al., 2006; Rignot and 
Kanagaratnam, 2006). According to Dr. James Hansen, Director of NASA's 
Goddard Institute for Space Studies, if greenhouse gas emissions 
continue to increase on a ``business-as-usual'' trajectory, we could 
ultimately see a disintegration of the West Antarctica ice sheets. This 
has the potential to yield ``a sea-level rise on the order of 5 meters 
this century'' (Hansen, 2007).
    Sea-level rise will increase beach erosion and associated shoreline 
recession and have a profound impact on beaches, the beach using 
public, and the tourism industry. Beaches are important economic 
engines. According to the Department of Commerce, travel and tourism is 
the Nation's largest employer and the second largest contributor to the 
gross domestic product--contributing over $700 billion annually. 
Beaches are the leading tourist destination (U.S. Dpt. Commerce (NOAA), 
2006). Beyond tourism-related revenues and employment, healthy beach/
dune systems protect upland property from storm damage. Average damage 
from hurricanes is $5.1 billion and 20 deaths per year (U.S. Dpt. 
Commerce (NOAA), 2006). Finally, beaches provide critical habitat for 
endangered sea turtles, shorebirds, invertebrates, forage fish, and 
other species.
    Many of the federal and state procedures for planning and assessing 
conditions for coastal and shoreline development fail to incorporate 
effects of sea-level rise, global warming, and future development 
associated with a rapidly growing human population. Now is the time for 
coastal states and relevant federal agencies to develop a comprehensive 
strategy to confront sea-level rise in a way that reduces the risks to 
communities by discouraging building in vulnerable areas, and increase 
the resiliency and protection of coastal habitats by a) steering away 
from structural armoring of shorelines; b) avoiding beach re-
nourishment projects where especially harmful for ecosystems; and c) 
restoring and protecting natural buffers.
    Many coastal management and coastal development policies currently 
do not pro-actively take sea-level rise into consideration. Worse yet, 
the government continues to subsidize high risk coastal development. 
Defying long term planning needs in the face of global warming by 
allowing and encouraging high risk development is a serious mistake in 
terms of the economy, the health of natural systems and resources, and 
human safety.
    Similarly, many federal agencies have thus far failed to 
incorporate effects of accelerating sea-level rise and reasonably 
foreseeable effects of global warming into their procedures, such as 
incorporating likely future conditions into mapping of floodplains, 
storm surge zones, or flood elevations affected by increasing 
impervious development in watersheds in the Federal Emergency 
Management Agency's (FEMA) National Flood Insurance Program (NFIP) and 
the planning of flood damage reduction projects by the Army Corps of 
Engineers (ACE). Current procedures are based almost entirely on 
looking backwards at past records only, rather than incorporating 
current climate science.
    States and the federal government must take steps to implement 
ecologically and economically sound adaptation policies and strategies 
that discourage development in vulnerable areas and support efforts to 
site structures farther landward of eroding shorelines. This is 
essential not only to help reduce serious risks to human safety and the 
well-being of communities, but also to ensure the preservation of 
beaches, dunes, and other natural coastal habitats that are so 
important to our economy and quality of life.

Examples of State actions to deal with rising seas:
    <bullet>  The states should consider sea-level rise in their plans 
for land use, open space, wetland protection, public infrastructure 
siting and maintenance, and other relevant activities.
    <bullet>  The states should assess, restrict, and/or reduce state 
funding, tax breaks, and other incentives for private development in 
coastal areas at high risk from erosion and storm surges.
    <bullet>  States should consider the adequacy of existing coastal 
setbacks and post-storm redevelopment policies in light of projected 
sea-level rise scenarios and develop, assess, and implement a suite of 
planning tools and global warming adaptation strategies to maximize 
opportunities to protect the beach/dune system, coastal wetlands, and 
other coastal resources in an era of rising seas. These tools should 
include strategies to encourage the landward siting and relocation of 
structures and public facilities in areas adjacent to receding 
shorelines through acquisition, transfer of development rights, 
stronger setbacks, and tax incentives.
    <bullet>  States should develop wetland conservation and 
restoration plans that promote designation of wetland migration 
corridors for wetland migration as sea levels rise, thereby protecting 
the valuable benefits they provide by buffering coasts against storms 
and erosion, improving water quality, and supporting fish and wildlife.
    <bullet>  Incentives should be provided to local governments and 
private organizations to acquire and manage ecologically important 
coastal lands, including upland buffers in vulnerable areas. 
Acquisition efforts should be strategically targeted in order to 
protect coastal resources, reduce insured risk, and reduce the impacts 
of global warming on both ecosystems and communities.
Examples of Federal actions to deal with rising seas:
    <bullet>  Congress should amend the Coastal Zone Management Act 
(CZMA) to require relevant state agencies to consider sea-level rise in 
coastal management programs in order to qualify for federal funding 
assistance.
    <bullet>  Congress should establish policies to restrict federal 
flood insurance (via NFIP) for new construction and rebuilding in high 
hazard coastal areas.
    <bullet>  Congress should also provide increased funding and 
technical support for hazard mitigation by states, communities, and 
building owners through floodplain management; establishment of 
greenways, open space, and building setbacks; and use of voluntary 
buyouts and relocations of high risk properties, higher building 
elevations, flood proofing, and other techniques.
    <bullet>  Congress should replace economic incentives for private 
development in high risk coastal areas with incentives to relocate and 
build in other areas and invest in coastal land conservation, such as 
by allowing tax exempt financing for acquisition of properties in 
hazard areas.
    <bullet>  Congress should resist efforts to exempt areas or roll 
back protections for coastal barriers that are included in Coastal 
Barrier Resources Act (CBRA). Coastal barriers designated under the act 
are ineligible for direct or indirect federal financial assistance that 
might support development.

III. Confronting the Impacts of Severe Weather
    Global warming is disrupting the planet's climate system, causing 
widespread changes in regional temperatures, precipitation, and wind 
patterns (IPCC 2007). In particular, these changes are manifesting 
themselves as an increase in the frequency and intensity of ``extreme'' 
weather events like heat waves, droughts, floods, and severe storms. 
According to the IPCC, since 1950, the number of heat waves has 
increased around the world, as has the extent of regions affected by 
droughts due to warmer conditions and increased evaporation (IPCC 
2007). Global warming is also contributing to an increase in the 
frequency and number of very heavy precipitation events and flooding in 
many areas, a trend that is attributed to higher levels of moisture in 
the atmosphere (Diffenbaugh, 2005; Groisman, 2004; Trenberth 2003). 
Several studies have also found a correlation between warmer average 
ocean temperatures associated with global warming and an increase in 
the intensity of tropical storms and hurricanes (Trenberth, 2007; 
Webster, et al., 2005;Emanuel, 2005).
    Based on this evidence, a number of scientists believe that the 
trend toward more-intense storms will continue in the coming decades as 
our oceans warm further (Trenberth, 2007; Oouchi, et al., 2006; Knutson 
and Tuleya, 2004; Walsh, Nguyen, and McGregor, 2004). However, there 
are many factors that contribute to both the frequency and intensity of 
hurricanes, and some uncertainty remains about how these storms will be 
affected by global warming in the future (Pielke, et al., 2005). 
Regardless of whether or not global warming will have a direct impact 
on hurricane frequency and intensity, there is little question that 
these storms will become more destructive in the future due to a 
combination of increased coastal development as well as higher storm 
surges exacerbated by sea-level rise (Anthes, et al., 2006).
    A general trend toward heavier rainfall events (whether or not 
associated with tropical storms) will likely contribute to a decline in 
coastal water quality due to enhanced stormwater runoff. This is a 
problem that has already been exacerbated by the destruction of 
wetlands, forests, and other natural buffers (which help store water 
and trap pollutants and sediments) and expansion of impervious surfaces 
associated with urban development and roads.
    One of the potential impacts of additional precipitation, resulting 
in additional runoff, is an increase in the duration and/or extent of 
coastal hypoxia and anoxia events caused by eutrophication (excess 
nitrogen and other nutrients in coastal waters from sources such as 
agricultural fertilizers, sewage discharges, and septic tanks) (Justic, 
Rabalais, and Turner, 2003). This nutrient loading leads to excessive 
algae growth that contributes to a depletion of oxygen in affected 
waters, a condition called hypoxia. Similarly, anoxia is a condition in 
which all oxygen is depleted, which can lead to ``dead zones''--areas 
in which most marine organisms cannot survive (Joyce, 2000).
    While neither hypoxia nor anoxia are new phenomena, their 
prevalence has become much more widespread in recent decades, which 
scientists attribute in part to heavier precipitation flushes triggered 
by global warming, causing increased nutrient runoff (Boesch, 2007; 
Dybas, 2005; Kennedy, et al., 2002). In addition to eutrophication, 
heavy runoff exacerbates hypoxic and anoxic conditions by decreasing 
water mixing in estuaries, as less dense fresher water rides over the 
top of the denser saltier water, inhibiting the replenishment of oxygen 
to deep waters.

Examples of State actions to deal with the impacts of more severe 
        weather:
    <bullet>  Coastal states should upgrade stormwater regulations, 
taking the likelihood of more frequent heavy rainfall events into 
consideration. Emphasis should be placed on natural buffers and 
requiring adequate long-term capacity and infrastructure for stormwater 
and sewage. Policies should also focus on implementing Low Impact 
Development (LID) methods, both for new developments and retrofits in 
existing developed areas.
    <bullet>  States should enhance protection and restoration of 
wetlands and riparian floodplains to help remove nutrients and reduce 
eutrophication, hypoxia, and anoxia.
    <bullet>  State water managers should: move away from relying on 
historic trends to determine future water availability; place 
significantly greater emphasis on reducing demand (for instance by 
increasing efficiency in water delivery and water use); and fund 

strategies to make better use of reclaimed water (for instance through 
decentralized LID approaches).
Examples of Federal actions to address the impacts of more severe 
        weather:
    <bullet>  Congress should require all federal resource-related 
agencies to incorporate modern climate and sea-level rise projections 
into their resource planning procedures and programs.
    <bullet>  To reduce eutrophication (and other pollution) associated 
with heavier rainfall events and runoff, U.S. EPA should revise its 
stormwater management rules under the Clean Water Act to discourage 
development in or near coastal and stream riparian buffers, wetlands, 
and other sensitive areas.
    <bullet>  States should be encouraged to develop and implement 
long-term regional water management plans that incorporate global 
warming and take a more coordinated approach to water management, 
including water conservation and reuse, in order to meet the needs of 
people and the fish and wildlife they depend on for food, jobs, and 
recreation.

IV. Confronting the Impacts of Higher Ocean Water Temperatures
    Average sea surface temperatures have increased over the latter 
half of the 20th century, providing another important indication of 
global warming (IPCC 2007; AchutaRao, et al., 2007). On average, the 
temperature of the upper 300 meters of the world's oceans has risen 
about 0.56 degrees Fahrenheit since the 1950s, a trend that scientists 
have determined is a direct result of human activities (NOAA, 2000; 
Santer, et al., 2006). The increase has been even greater in the 
tropical Atlantic region, where the average sea surface temperature has 
risen 1 degree Fahrenheit over the past three decades (Barnett, Pierce, 
and Schnur, 2001).
    If global warming pollution continues unabated, average ocean 
temperatures are projected to rise by an additional 2.7 to 5.4 degrees 
Fahrenheit before the end of the century, with potentially devastating 
consequences for coastal and marine ecosystems (IPCC 2007). The primary 
impacts of rising sea-surface temperatures include coral bleaching, 
exacerbation of marine diseases, and significant shifts in the ranges 
and population abundances of fish and other marine species.
    Lessening the impacts of higher ocean temperatures due to global 
warming will require strategies that increase the overall resilience of 
ecosystems. It will be necessary to reduce the negative impacts of a 
broad range of human-induced stressors on coastal and marine ecosystems 
in an effort to help these systems resist and/or recover from 
disturbances such as coral bleaching, disease outbreaks, or anoxia 
events (Grimsditch and Salm, 2005). Placing significantly greater 
emphasis on habitat protection and ecosystem-based management (EBM) 
approaches to managing fisheries, coral reefs, and other coastal and 
ocean resources will improve the likelihood that these systems and 
resources will be able to withstand the multitude of stressors 
affecting them, including global warming and ocean acidification.
    This shift in management will require a broad directive to federal 
agencies and encouragement to state agencies to pursue their 
responsibilities, whether pursued under marine or non-marine mandates, 
in a manner consistent with the protection, maintenance, and 
restoration of the health and function of marine and coastal ecosystems 
and resources. In terms of activities pursued under marine and 
conservation related mandates, fish and wildlife managers and other 
relevant decision makers should focus on protecting the diversity of 
species across their spatial range, as well as protecting and restoring 
the habitat they depend upon (Worm, 2006; Nystrom and Folke, 2001 ). 
For example, a focus on diversity would lead fish and wildlife managers 
to protect and restore algae-grazing fish and invertebrates known to 
limit the overgrowth of harmful, opportunistic algae on coral reefs, as 
a way of improving overall coral resilience (Nystrom, Folke, and 
Moberg, 2000).

Examples of State actions to address the impacts of warmer ocean 
        waters:
    <bullet>  States should adopt and implement policies directed to 
the protection, maintenance and restoration of healthy coastal and 
ocean ecosystems and resources.
    <bullet>  States should strengthen programs that support biological 
diversity among fish and wildlife species.
    <bullet>  States should prioritize the rebuilding of depleted 
coastal and ocean fish populations since depleted populations will have 
a harder time dealing with additional stresses posed by global warming 
and warming waters.
    <bullet>  States with coral reefs should expand research and 
monitoring of coral reef ecosystems, including ongoing assessments of 
factors such as water temperatures and coral bleaching, incidence and 
range of coral diseases, damage and recovery from storms, and 
assessment of water quality, including the calcium carbonate saturation 
state and its effects on reefs over time.
Examples of Federal actions to address the impacts of warmer ocean 
        waters:
    <bullet>  Congress should enact climate adaptation legislation to 
direct Federal and state agencies to develop and implement strategies 
to maintain and improve the resilience of our natural ecosystems and 
should provide the scale and consistency of funding to make these 
efforts successful. If these provisions are included in a package that 
also establishes a cap and trade system, a portion of the revenues from 
the auction of carbon allowances should be directed specifically to 
federal and state adaptation activities. This funding should supplement 
rather than replace existing agency funding streams and should be 
isolated from revenue pots that may go to other adaptation activities, 
including protecting infrastructure. Recent Senate proposals--including 
America's Climate Security Act (S 2191) and the Lieberman-Warner 
Climate Security Act (S 3036)--contained this type of system. S 2191 
would have provided an estimated $300 to $950 million in new funding to 
the Department of Commerce for ocean and coastal management, 
protection, and restoration in the first year of the program (2012. S 
3036 would have provided an estimated $574 million per year from 2012 
to 2030 to the Department of Commerce for this same suite of 
activities. This scale of additional funding will be necessary in order 
to address the ongoing and expected, additional strains that global 
warming and ocean acidification place on our ocean and coastal 
ecosystems and natural resources.
    <bullet>  Adaptation strategies, funded by this new revenue stream, 
should be coordinated at the federal level through the development and 
implementation of a Presidential plan and at the state level through 
the development and implementation of a governor level plan. Plans 
should be developed with input from all relevant federal/state 
agencies, scientists (possibly including a science advisory board 
established by the legislation), and the public. State level plans 
should be consistent with the national strategy and should receive 
federal approval, according to set criteria, in order to receive 
federal funds.
    <bullet>  Congress should enact Oceans-21, H.R. 21, which sets out 
a national policy to protect, maintain and restore marine ecosystem 
health and calls on the federal government and federal/state 
partnerships to implement that policy. The healthier ocean and coastal 
ecosystems are, the better able they will be to withstand the 
additional stresses associated with global warming and ocean 
acidification.
    <bullet>  NOAA should move expeditiously and effectively to 
implement the Magnuson-Stevens Reauthorization Act of 2006 in order to 
meet the deadline for ending overfishing and rebuilding healthy fish 
populations. The healthier fish populations are, the better able they 
are to withstand the impacts of global warming and ocean acidification.
    <bullet>  Congress should call for and support a National Academy 
of Sciences study, looking at the implications of global warming and 
ocean acidification on fisheries management. The study should evaluate 
management methodologies to mitigate impacts of global warming and 
ocean acidification on the nation's fisheries resources. Following 
guidelines recommended in the study, the National Oceanic and 
Atmospheric Administration (NOAA) should develop specific regional 
adaptation strategies to enhance adaptive capacity.

V. Confronting the Impacts of Ocean Acidification
    Since the beginning of the industrial age, the world's oceans have 
absorbed 530 billion tons of CO<INF>2</INF>, or at least one third of 
the anthropogenic CO<INF>2</INF> (Brewer, 2007; Feely, 2004 ). This has 
already reduced the pH of ocean waters by .1 units or, in other words, 
has increased overall acidity by 30%. This pH change has occurred as a 
result of CO<INF>2</INF> pumped into the atmosphere mixing with ocean 
waters to form carbonic acid. Under a business as usual scenario, pH 
will drop by an additional .3 to .4 pH units (Caldeira and Wickett 
2005, Orr et al. 2005). This degree of change has not occurred in the 
past 20 million years (Feely, 2004).
    This lower pH is eroding the basic mineral building blocks for the 
shells and skeletons of calcareous organisms such as shellfish and 
corals, as well as a number of important microorganisms that are a 
foundation for marine food webs (Kuffner and Tihansky, 2008; Orr, et 
al., 2005). For corals, lower calcification rates ultimately mean 
weaker, slower-growing reefs (Kleypas, Buddemeier, and Gattuso, 2001). 
The combination of warmer and more acidic waters means that coral 
ecosystems are among the most threatened marine/coastal habitats now in 
the world (Hoegh-Guldberg, 2007). Increased acidity may also have 
direct physiological effects on vulnerable juvenile stages of other 
types of marine organisms, such as fish and squid (Portner, 2004).

Examples of State actions to address the impacts of ocean 
        acidification:
    <bullet>  Coastal States should do their part in adopting a 
stringent CO<INF>2</INF> reduction goal
    <bullet>  States should enhance monitoring of coral reefs, oyster 
reefs, and valuable shellfish such as scallops for calcification 
problems.

Examples of Federal actions to address the impacts of ocean 
        acidification:
    <bullet>  Congress and the administration must place mandatory 
limits on CO<INF>2</INF>.
    <bullet>  Federal agencies should invest in studies to better 
understand the ecological impacts of ocean acidification, both to 
inform the establishment of an appropriate carbon cap and adaptation 
strategies.
    <bullet>  Congress should enact climate adaptation legislation and 
Oceans-21, as articulated above.

References
Achuta Rao, K.M., et al. 2007. ``Simulated and Observed Variability in 
        Ocean Temperature and Heat Content.'' Proceedings of the 
        National Academy of Sciences 104: 10768-10773.
Allan JC, Komar P.D. 2006. ``Climate controls on U.S. West Coast 
        erosion processes.'' Journal of Coastal Research 22: 511-529.
Anthes, R.A., et al. 2006. ``Hurricanes and Global Warming: Potential 
        Linkages and Consequences.'' Bulletin of the American 
        Meteorological Society 87: 623-628.
Austin H,M. 2002. ``Decadal oscillations and regime shifts, a 
        characterization of the Chesapeake Bay marine climate.'' 
        American Fisheries Society Symposium 32: 155-170.
Barnett, T.P., Pierce, D.W., and Schnur, R. 2001. ``Detection of 
        Anthropogenic Climate Change in the World's Oceans.'' Science 
        292: 270-274.
Boesch, et al., 2007. Coastal Dead Zones and Global Climate Change: 
        Ramifications of Climate Change for Chesapeake Bay Hypoxia 
        (Arlington, VA: Pew Center on Global Climate Change).
Brewer, P. Carbon Dioxide, Carbon Sequestration, and the Oceans: A 
        white paper for the Inaugural Solutions Summit San Francisco, 
        November 15, 2007
Caldeira K, Wickett M.E. 2005. ``Ocean model predictions of chemistry 
        changes from carbon dioxide emissions to the atmosphere and 
        ocean.'' Journal of Geophysical Research-Oceans 110.
Chan F, et al. 2008. ``Emergence of anoxia in the California current 
        large marine ecosystem.'' Science 319: 920-920.
Diffenbaugh, N.S., et al. 2005. ``Fine-scale Processes to Regulate the 
        Response of Extreme Events to Global Climate Change.'' 
        Proceedings of the National Academy of Sciences 102: 15774-
        15778.
Emanuel, K. 2005. ``Increasing Destructiveness of Tropical Cyclones 
        Over the Past 30 Years.'' Nature 436: 686-688.
Feely R.A., et al. 2004. ``Impact of anthropogenic CO<INF>2</INF> on 
        the CaCO3 system in the oceans.'' Science 305: 362-366.
Feely, R.A. et al. 2008. Science Express.1155676.
Ford SE, Smolowitz R. 2007. ``Infection dynamics of an oyster parasite 
        in this newly expanded range.'' Marine Biology 151: 119-133.
Glenn R.P., Pugh T.L. 2006. ``Epizootic shell disease in American 
        lobster (Homarus americanus) in Massachusetts coastal waters: 
        Interactions of temperature, maturity, and intermolt 
        duration.'' Journal of Crustacean Biology 26: 639-645.
Groisman, P.Y. et al. 2004. ``Contemporary Changes of the Hydrological 
        Cycle Over the Contiguous United States: Trends Derived from in 
        Situ.'' Journal of Hydrometeorology 5: 64-85.
Grimsditch, G.D., and Salm, R.V. 2005. Coral Reef Resilience and 
        Resistance to Bleaching (Gland, Switzerland: The World 
        Conservation Union).
Hansen, J.E. 2007. ``Scientific Reticence and Sea Level Rise.'' 
        Environmental Research Letters 2: 1-6.
Harwell, M., Gholz, H., and Rose, J. 2001. Confronting Climate Change 
        in the Gulf Coast Region: Florida (Union of Concerned 
        Scientists and the Ecological Society of America).
Hoegh-Guldberg, O., et al. 2007. ``Coral Reefs Under Rapid Climate 
        Change and Ocean Acidification.'' Science 14: 1737-1742.
IMBER 2005. ``Integrated Marine Biogeochemistry and Ecosystem Research: 
        Science Plan and Implementation Strategy.'' IGBP, 52
IPCC, 2007. Climate Change 2007: The Physical Science Basis. 
        Contribution of Working Group I to the Fourth Assessment Report 
        of the Intergovernmental Panel on Climate Change [S.D. Solomon, 
        et al., eds.] (Cambridge, U.K: Cambridge University Press).
Joyce, S. 2006 ``The Dead Zones: Oxygen-Starved Coastal Waters.'' 
        Environmental Health Perspectives 108: A120-A125.
Kleypas, J.A., Buddemeier, R.W., and Gattuso, J.-P. 2001. ``The Future 
        of Coral Reefs in an Age of Global Change.'' International 
        Journal of Earth Sciences 90: 426-437.
Kleypas, J.A., et al. Impacts of Ocean Acidification on Coral Reefs and 
        Other Marine Calcifiers: A Guide for Future Research, report of 
        a workshop held 18-20 April 2005, St. Petersburg, FL., 
        sponsored by NSF, NOAA, and the U.S. Geological Survey.
Knutson, T.R. and Tuleya, R.E. 2004. ``Impact of CO<INF>2</INF> 
        ``Induced Warming on Simulated Hurricane Intensity and 
        Precipitation: Sensitivity to the Choice of Climate Model and 
        Convective Parameterization.'' Journal of Climate 17: 3477-
        3495.
Kuffner, I. and Tihansky, A. 2008. Coral Reef Builders Vulnerable to 
        Ocean Acidification (Reston, VA: U.S. Geological Survey).
Mendelssohn R. et al. 2005. ``Teaching old indices new tricks: A state-
        space analysis of El Nino related climate indices.'' 
        Geophysical Research Letters 32
Orr, J.C., et al. 2005. ``Anthropogenic Ocean Acidification Over the 
        Twenty-first Century and its Impact on Calcifying Organisms.'' 
        Nature 437: 681-686.
NOAA, 2000. ``World Ocean has Warmed Significantly Over Past 40 
        Years.'' NOAA News Online, March 23, 2000 http://
        www.noaanews.noaa.gov/stories/s399.htm (accessed March 24, 
        2008).
Nystrom, M., Folke, C., and Moberg, F. 2000. ``Coral Reef Disturbance 
        and Resilience in a Human-dominated Environment.'' Trends in 
        Ecology and Evolution 15: 413-417.
Nystrom, M. and Folke, C. 2001. ``Spatial Resilience of Coral Reefs.'' 
        Ecosystems 4: 406-17.
Oouchi, K., et al. 2006. ``Tropical Cyclone Climatology in a Global 
        Warming Climate As Simulated in a 20km-mesh Global Atmospheric 
        Model: Frequency and Wind Intensity Analysis.'' Journal of the 
        Meteorological Society of Japan 84: 259-276.
Otto-Bliesner, B.L., et al. 2006. ``Simulating Arctic Climate Warmth 
        and Icefield Retreat in the Last Interglaciation,'' Science 
        311: 1751-3.
Overpeck, J.T. et al. 2006. ``Paleoclimatic Evidence for Future Ice-
        sheet Instability and Rapid Sea-level Rise.'' Science 311: 147-
        50.
Portner H.O., Langenbuch M., Reipschlager A. 2004. ``Biological impact 
        of elevated ocean CO<INF>2</INF> concentrations: Lessons from 
        animal physiology and earth history.'' Journal of Oceanography 
        60: 705-718
Pielke, R.A., et al. 2005. ``Hurricanes and Global Warming.'' Bulletin 
        of the American Meteorological Society: 571-575.
Rignot, E. and Kanagaratnam, P. 2006. ``Changes in the Velocity 
        Structure of the Greenland Ice Sheet.'' Science 311: 986-990.
Santer, B.D., et al. 2006. ``Forced and Unforced Ocean Temperature 
        Changes in Atlantic and Pacific Tropical Cyclogenesis 
        Regions.'' Proceedings of the National Academy of Sciences 103: 
        13905-13910.
Trenberth, K.E. 2007. ``Warmer Oceans, Stronger Hurricanes.'' 
        Scientific American 297.
United States Department of Commerce: (NOAA). 2006. Economic Statistics 
        for NOAA; Fifth Edition.
United States EPA. 2007. Reducing Stormwater Costs through Low Impact 
        Development (LID) Strategies and Practices (Washington, D.C.: 
        EPA 841-F-07-006).
Walsh, K.J.E., Nguyen, K.C., and McGregor, J.L. 2004. ``Fine-resolution 
        Regional Climate Model Simulations of the Impact of Climate 
        Change on Tropical Cyclones Near Australia.'' Climate Dynamics 
        22: 47-56.
Webster, P.J., et al. 2005. ``Changes in Tropical Cyclone Number, 
        Duration, and Intensity in a Warming Environment.'' Science 
        309: 1844-1846.
Woolf D.K., Challenor P.G., Cotton P.D. 2002. ``Variability and 
        predictability of the North Atlantic wave climate.'' Journal of 
        Geophysical Research-Oceans 107
Worm, B., et al. 2006. ``Impacts of Biodiversity Loss on Ocean 
        Ecosystem Services.'' Science 314: 787-790.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Chasis. And you were 
right at the timing cutoff there.
    Ms. Chasis. I worked on that.
    Ms. Bordallo. Consistent with Committee Rule 3[c], the 
Chairwoman will now recognize the members. And I will begin 
with myself. And I would like to mention to the panelists that 
Mr. Wittman went off to vote. As a territorial representative 
we only vote during the committee of a whole. So I am going to 
keep the hearing going and, hopefully, Mr. Wittman will be back 
to ask a few questions of our first panel.
    Ms. Davidson, I have a question for you. I appreciate the 
efforts that NOAA has undertaken and is planning to address 
climate changes and the impacts that they have on our ocean and 
coastal environments. As you heard me mention at the outset, 
and as you yourself mentioned in your testimony, the 2007 GAO 
report recommended that Federal agencies develop guidance that 
reflects best practices to explain how agency resource managers 
are expected to address the effects of climate change. When 
does NOAA plan to issue this guidance? And how do you expect 
that it will specifically change the way resource managers at 
NOAA do business?
    Ms. Davidson. Chairwoman Bordallo, I think there are two 
aspects to that question. The first aspect, which refers to our 
management of living marine resources, I know that these 
discussions are underway within my agency. I believe that I 
will need to get the specifics on the details and the date back 
to you. But I know that efforts are underway to provide such 
guidance. And we are already beginning to incorporate them into 
our decision making processes, as I referenced with regard to 
the Bering Sea pollock.
    With regard to the coastal management side of the NOAA 
portfolio, I have cited in my testimony some examples in which 
we are actually working with communities and governmental 
organizations like National Association of County Officials to 
provide some guidance. But I think that more formal guidance 
would need to await the passage of a new Coastal Zone 
Management Act. And we look forward to either receiving your 
congressional directive in that bill or some other bills as 
have been referenced here today and elsewhere.
    Ms. Bordallo. Let me follow up. Now, you said your agency 
is working on the guidance report, is that right?
    Ms. Davidson. Yes, from the fisheries side. Yes, ma'am.
    Ms. Bordallo. Yes. Now, do you have any idea then, a rough 
idea of when this will be finished? You know, we----
    Ms. Davidson. I will actually have to give that information 
to you. I am not from the fisheries side of the agency, I am 
from the coastal side of the agency so I do not have that exact 
information. But I believe we can get it very shortly to you.
    Ms. Bordallo. So in other words you are close to concluding 
a report?
    Ms. Davidson. I would have to check on that but I do know 
these discussions have been underway. We have already begun 
incorporating some climate information into our decision 
processes.
    Ms. Bordallo. You also mentioned the CZMA is a tool 
available to NOAA to work with states to improve climate 
adaptation, planning, including the outreach and the education 
required to ensure that state and local decision makers are 
able to apply NOAA's information and products most effectively. 
What specifically is NOAA doing to ensure that states 
incorporate climate adaptation into their coastal zone plans 
and other planning?
    Ms. Davidson. As mentioned by my colleague Mr. Brunello, we 
work with the Coast States Organization which represents these 
state-level programs. And most of the states have identified 
the issues of coastal hazards and climate change as a very high 
priority. We have developed a number of specific local level 
demonstration activities and guide books as well as some 
training programs. And we are looking to make that a much more 
systematic approach over the course of the next few years. But 
we have demonstration projects, if you will, on the ground at 
the local and state level from which we can learn.
    We are also looking at what other agencies are doing like 
Fish and Wildlife and EPA and looking to derive the best 
examples that are consistent with our principles of local 
governance and decision making in this country.
    Ms. Bordallo. Mr. Brunello, would you like to elaborate on 
that?
    Mr. Brunello. The only thing I could add from our side is, 
which I did not speak enough to, is what is needed in any 
comprehensive adaptation effort is looking at three key things. 
One is getting the science right, second is developing some 
type of strategy, and three is moving to action. All three of 
those things are fundamental in anything that we do. And we 
need more guidance and assistance from the Federal level.
    And I would say right now what we have seen has been a 
deficiency on the action side. There is a lot of effort and 
bills on the science side, which is absolutely necessary and 
fundamental, but it has to be all three. And so I hope that 
anything that NOAA is developing that would also be promoted by 
this committee takes all three into account.
    Ms. Bordallo. Good. And, Ms. Chasis, would you care to 
comment?
    Ms. Chasis. Well, I think that, and there is a recent 
report from the Pew Center on Global Climate Change which 
points out that comprehensive and proactive adaptation planning 
is still very much in the early stages in the states. I think 
there is authority under the CZMA and other existing laws to 
promote, to move things forward. But I think that having a 
clear directive from Congress as well as funding to support it 
will be really necessary to get this effort going. And I think 
that can be done both in the individual laws like CZMA. But I 
think more importantly there needs to be this comprehensive 
directive from Congress to require the development of 
adaptation cross-sector plans.
    Thank you.
    Ms. Bordallo. Thank you. Thank you very much.
    Mr. Brunello, I would say it sounds like California has 
taken a leadership role in developing adaptation and mitigation 
strategies in response to climate change. So you mentioned that 
California is working now to implement certain adaptation 
strategies that have already been identified as necessary. And 
I was wondering if you could elaborate on these strategies, 
particularly with respect to the ocean and coastal resources 
sector and the water sector?
    Mr. Brunello. Concerning the ocean sector, a big part of 
what we are doing on this 3-point strategy as I mentioned as we 
look at how do we get the science right and how do we develop a 
strategy and move to action, a lot of the effort that we are 
doing at this point is looking at the science and figuring out 
what are the current impacts. So we are downscaling some of the 
regional or global circulation models and then bring that so 
that it is more relevant to California.
    One area that I can show where we are trying to push the 
boundaries I am sure every state is involved with is looking at 
sea level rise. For example, we wanted to look at what might be 
the impact along the coast if we had a 1 to 3 meter sea level 
rise along the coast. And so the first thing we did was to try 
and look at what type of maps we have available along the coast 
and figure out what places would be inundated. And thinking 
that would be our first step in the adaptation strategy.
    Well, as we try and test the boundaries of our own internal 
planning processes we realized we did not have the maps. So, 
internally, in wanting to make and move on action for sea level 
rise, for example, we realized before strong action could be 
taken, we need to get some of the information right. We can 
obviously focus on some of the low-level areas but one of the 
areas we have to focus on is getting the information at a 
better approach.
    On the water side we are currently in the process of 
looking at how we transport water better in the entire state. 
Looking at sea level rise again, if we had a 55 inch sea level 
rise in California that would inundate our Sacramento-Delta-Bay 
area. That through that area provides drinking water for 25 
million people. So what we are doing right now is looking at 
different scenarios as we try and look at how we might provide 
conveyance systems in the state, different below ground and 
above ground storage, how we can plan better for things such as 
sea level rise.
    Ms. Bordallo. Thank you very much.
    I do not want to put you on the spot but do you have any 
knowledge about whether other coastal states are as far along 
with developing and implementing adaptation strategies, 
particularly with respect to ocean and coastal resources? To 
the extent that they are or they are not, do you feel that the 
greatest limiting factor at this point is technical and 
financial resources? And please be very frank.
    Mr. Brunello. An easy question. A couple things: one is we 
are in contact with our colleagues in Florida, Washington, 
Oregon, Maine, Maryland. There are states that are definitely 
taking action that we have been paying attention to and working 
together with.
    In terms of looking at where they are and what is needed, 
it is a comprehensive package, again, really takes looking at 
all three efforts. Right now there has been a huge deficiency 
of looking at a coordinated strategy. And that is across the 
entire state. It is very complicated to start looking at one 
sector. If you just go into the oceans and coastal resources 
sector, as I mentioned, it gets into every sector.
    We had the same issues as we looked at mitigation efforts 
in the state. And we are having our large mitigation plan will 
be out in about two days, what we call our scoping plan that is 
produced by the Air Resources Board. But we all realize we work 
in stovepipes, we work in one sector. For example, I lead our 
state's forestry efforts. And we do not have the best 
communication with other sectors. It is the same thing with 
adaptation. This is just the way we do things.
    And so I can definitely speak to the fact that having a 
cross-sector approach is going to be fundamental. And again, 
sea level rise is just an easy one for people to comprehend 
that you cannot just look at the coastal areas when we talk 
about sea level rise. When we had our water people who wanted 
to just look at the Delta to understand what the impacts are to 
the water system it was secondary to think about what that 
might mean if you had a state directive just for our state 
water system for the coastal areas.
    So many of these efforts will trigger other questions. But 
I think as I saw with James Hansen from yesterday, as he 
mentioned, just starting is most important for us. Just getting 
the process going and starting with the science is great. But 
having some broad, coordinated strategy effort and then trying 
to push and develop some of the early action efforts is 
fundamental. And we are seeing that in all different states. 
But having more support in doing that is fundamental, which is 
why I am here today.
    Ms. Bordallo. Thank you. Thank you very much.
    Ms. Davidson, do you have any comments on that same 
question that I asked Mr. Brunello?
    Ms. Davidson. I would just echo my colleague's comments. 
Getting the science, the emphasis has been on the science, 
putting that into an adaptation strategy I think that is where 
we are as a country and in our local communities. But the 
implementation challenge, even when you know what is the right 
thing to do in this country we do not always do it, for a lack 
of either fiscal or other sorts of capital, political capital. 
And so that will be, I think, our greatest challenge over the 
next decade will be how do we take some of these tools and 
capabilities that we are developing and we have some 
information about, there are other countries who are ahead of 
us, but how do we actually pay the bill. I think that is going 
to be one of our bigger challenges.
    That is why I focus on the two-fer of disaster mitigation 
and climate adaptation. They are very much the same. And the 
temporal scale of natural disasters in this country is such 
that it often takes precedence when we are coming around to 
paying the check. But I think that there are things that we can 
do for both the environment and for our communities, even as we 
plan for and respond to and recover from increasing extreme 
events: droughts, floods, tsunamis, that will enable us to 
address these longer time scale issues.
    Thank you.
    Ms. Bordallo. Thank you very much.
    Ms. Chasis, do you feel that the states are moving along as 
quickly as they should?
    Ms. Chasis. Well, as I said before, this Pew Climate Center 
Report indicates, and they have done a survey of where the 
states are, that they are still at the very early stages in 
putting together comprehensive adaptation plans. I think we are 
seeing many more states have moved out front on the mitigation 
of climate impacts but have been slow on the adaptation side. 
And I think there is a lot of catch-up that needs to be done.
    We have been active with a coalition in Florida and put 
together this report ``Preparing for Sea Change in Florida: 
Strategy to Cope with the Impacts of Global Warming on the 
State's Coastal Marine Systems'' which was really the basis of 
my testimony. And Florida, as an example in parallel with 
California, has put together at the gubernatorial level a task 
force on climate change. And one of the areas of focus is 
adaptation. And they are going to be developing a comprehensive 
adaptation strategy which will be part of what the Governor 
acts on this November.
    So we are eagerly, you know, advocating for, in Florida for 
some kind of comprehensive program there. And I think though 
even though some states, like California, Florida and some 
others, have stepped out and begun doing comprehensive 
planning, there really is a need for Federal leadership on this 
issue, both from the executive but from Congress. And that is 
why we have been very active in trying to make sure that 
climate legislation on the Senate side, for example, 
incorporates attention to the need for states to move forward 
on the coastal and ocean front and that there be funding to 
accompany and Federal directive. So we would certainly 
encourage you, Madam Chair, and this committee to move forward 
in the House on that.
    Ms. Bordallo. Thank you, Ms. Chasis. I think I have one 
more question for you. Your testimony mentioned the need to 
increase the overall resilience of ocean ecosystems as a means 
of reducing the impact of climate change. Would you be so kind 
as to elaborate on what that would entail for state and Federal 
agencies as well as fisheries managers? Do you think the 
fisheries councils are considering climate change in the plans 
that they are developing?
    Ms. Chasis. Well, one point here is that obviously the more 
diversity, the more diverse and abundant fish and wildlife 
populations are the better able they are going to be to 
withstand the stress of climate change and the better able they 
will be to adapt. So this is a very critical issue.
    I think that the councils are beginning to recognize this 
as an important issue, as Margaret Davidson mentioned, in the 
North Pacific. But I think as a general matter a lot more 
attention needs to be given to this and factored into the 
setting of quotas. So, for example, and the one way this could 
be done is if populations seem to be moving more northward, 
more care given to seasonal closures and limits to protect the 
southern portion of the populations. So there are some very 
specific and concrete things that can be done which I think are 
not yet really being integrated into the process. Hopefully, 
the guidelines that NOAA is developing for how fisheries should 
be managed will be part of that.
    But I come back to the legislation which your Subcommittee 
reported out, Oceans 21,----
    Ms. Bordallo. Yes.
    Ms. Chasis.--which I think is critical in setting out a 
national policy to protect, maintain and restore the health of 
ocean ecosystems, so that all agencies, not just the Fisheries 
Service but the other agencies that impact coastal and ocean 
resources are really committed to this notion of resiliency and 
productive ecosystems.
    Ms. Bordallo. Thank you very much, Ms. Chasis. And just to 
let you know, we are continuing to work on that legislation, 
Oceans 21.
    Ms. Chasis. That is terrific.
    Ms. Bordallo. I want to thank all the witnesses of the 
first panel. And I would like to ask if you could remain in the 
hearing room. Mr. Wittman is still on the Floor voting and I 
would like to give him the opportunity to ask questions. So if 
you would remain in the hall, in the room.
    I would like now to call upon the second panel. On our 
second panel we have Mr. Dan Ashe, Science Advisor to the 
Director of U.S. Fish and Wildlife Service; Mr. David 
Whitehurst, Director of the Wildlife Diversity Division of the 
Virginia Department of Game and Inland Fisheries; Ms. Jamie 
Clark, Executive Vice President for Defenders of Wildlife; and 
Dr. William Moritz, Director of Conservation for the Safari 
Club International Foundation.
    I would like to welcome you all. And you have been here in 
the hearing room so you know the time limitations, five 
minutes. And just to remind you again that your full testimony 
will be entered into the official record. At this time I would 
like to recognize Mr. Ashe for five minutes.

 STATEMENT OF DAN ASHE, SCIENCE ADVISOR TO THE DIRECTOR, U.S. 
   FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Ashe. The Service and its partners deal with water 
resource allocation, species invasion, urbanization, habitat 
degradation and fragmentation, pollution, wildlife disease and 
trade, among many other factors. Now we are further challenged 
to deal with the significantly increased complexities and 
uncertainties that are raised by the scientific consensus that 
there is unambiguous evidence of a changing climate system.
    Hitting a baseball has been described as possibly the most 
difficult feat in sports. A batter has about four-tenths of one 
second to respond once the ball has left the pitcher's hand and 
the bat actually makes contact with the ball only for about one 
one-thousandth of a second. When he was asked what he thinks 
about when hitting, the great ballplayer and philosopher Yogi 
Berra said, ``Think? How the hell are you going to think and 
hit at the same time?'' Obviously a baseball player thinks 
about hitting. They study, the analyze and they plan, they 
evaluate their hitting successes and failures but they do not 
do this when they are in the batter's box and the pitcher is 
winding up.
    Like a batter in baseball, conservation biologists and 
managers must respond quickly to changing and uncertain 
conditions like global warming. We have to be nimble and ready 
to respond as changing climate throws us curveballs. We have to 
step up to the plate. But we will not be as effective as we can 
be if we are essentially thinking and hitting at the same time. 
Conservation is challenging already. Add the complexity and 
uncertainty of changing climate and it is like asking a batter 
to improve their average while moving pitcher's mounds closer 
to home plate and raising it six inches.
    In the Service, our employees are stepping up to the plate 
to deal with global warming. We are using our experience, our 
can-do attitude, we are building on our past successes. But 
more importantly, we are outlining a multi-faceted and forward-
leaning response to global warming. We are doing this by 
building a climate of awareness and a spirit of partnership. 
For example, modeled on a highly successful climate change 
forum for Alaska, this year each of our regions are hosting 
climate workshops, bringing together partners, raising 
awareness and beginning to develop a direction of change in 
addressing global warming within the entire conservation 
community.
    We are doing this by forming an Executive Working Group on 
Climate Change and just recently chartering a Climate Change 
Strategic Plan team charged with outlining a service vision, 
strategy and action plan. We hope to share this with partners 
for broad discussion and input early in 2009. We are doing this 
by beginning to take sensible and important actions like those 
outlined in my testimony, slam modeling for national wildlife 
refuges, helping managers understand and plan for sea level 
rise, innovative new partnerships in habitat restoration and 
carbon sequestration, developing a national phenology network 
with the USGS, the Wildlife Society and others, reducing our 
carbon footprint to establish the Service as a responsible 
corporate citizen and leader. These are all crucial beginning 
steps.
    Most significantly, we are doing this by supporting a new 
direction of change that has resulted from a cooperative effort 
between the Service and the U.S. Geological Survey. This is a 
framework for adaptive landscape scale conservation that we 
call Strategic Habitat Conservation or SHC. Explicit population 
objectives for key species and population habitat relationship 
models are used to define the landscape scale ecological 
conditions that must be sustained in order to achieve those 
population objectives. Spatially explicit data strategically 
targets conservation to site scale priorities. Monitoring is 
used to evaluate success over time and adapt our strategies as 
we learn more about driving forces like climate change.
    Absent a structured framework like SHC, the challenge of 
climate change will make conservation increasingly reactive and 
rapidly overcome us as we try to think and hit at the same 
time. With this framework we will be able to define and manage 
toward dynamic system states, ecological conditions that will 
provide representative, redundant and resilient populations of 
trust species, giving them the best possible chance to adapt.
    We will value the committee's advice and support as we do 
this in the coming months and years. Thank you very much for 
today's opportunity.
    [The prepared statement of Mr. Ashe follows:]

        Statement of Dan Ashe, Science Advisor to the Director, 
       U.S. Fish and Wildlife Service, Department of the Interior

Introduction
    Chairwoman Bordallo and Members of the Subcommittee, I am Dan Ashe, 
Science Advisor to the Director of the U.S. Fish and Wildlife Service 
(Service). I am pleased to be with you today to discuss the actions the 
Service is undertaking and planning to adaptively and strategically 
manage fish, wildlife and plants and their habitats in the face of 
increasing uncertainties that are the result of a changing climate 
system.
    The Department of the Interior and the Service applaud the 
Subcommittee's interest in this issue and your focus upon what is 
happening on the ground today. Natural resource management is a 
challenging endeavor. I know that the Subcommittee and Committee 
Members appreciate the complexities that the Service's managers and 
partners face in dealing with issues such as limited water resources, 
invasive species introductions, habitat degradation and fragmentation, 
and wildlife trade and disease. Climate change adds an entirely new 
dimension of complexity and challenge to the stewardship of fish and 
wildlife resources.

Observations of the Natural Environment
    There is strong scientific consensus that the Earth's climate is 
changing, and that the related changes in temperature, precipitation 
and sea level will have a significant impact on Earth's natural 
environment.
    In 2007, the Intergovernmental Panel on Climate Change (IPCC) 
issued its Fourth Assessment Report concerning the observed and 
projected changes in the Earth's climate system, the impacts of climate 
change on the natural and human environment, and the capacity of these 
systems to adapt. Based on observational evidence world-wide, the 
Assessment concluded that ``
        ``Observational evidence from all continents and most oceans 
        shows that many natural systems are being affected by regional 
        climate changes, particularly temperature increases (very high 
        confidence). A global assessment of data since 1970 has shown 
        it is likely that anthropogenic warming has had discernable 
        influence on many physical and biological systems.''(IPCC WGII 
        Technical Summary).
    The Assessment included the following examples illustrating the 
impact on natural systems:
    <bullet>  changes in freezing, thawing, and drainage in Arctic and 
Antarctic Peninsula ecosystems, including those in sea-ice biomes that 
support polar bears and walrus;
    <bullet>  changes in the timing of ecological events (called 
phenological changes--e.g., bud burst, flowering, insect emergence, 
etc), earlier onset of spring vegetative growth, migration, and 
lengthening of the growing season;
    <bullet>  poleward and elevational shifts in ranges of plant and 
animal species; and
    <bullet>  poleward shifts in ranges and changes of algal, plankton 
and fish abundance in high-latitude oceans.
    The Service is a field-based organization, and biologists working 
on-the-ground are observing changes in many of our natural systems. 
Nowhere are these changes more acutely evident than in the Arctic 
ecosystems. In the Service's Alaska Region, observations of Arctic 
changes include diminishing sea ice, coastal erosion, shrinking 
glaciers, thawing permafrost, wetland drainage, and earlier ``green-
up'' of Arctic vegetation. Related to the deterioration of glaciers, we 
are seeing changes in the hydrology of glacially-fed streams. Increased 
temperatures in the Arctic have also contributed to the earlier onset 
of snow melt and the lengthening of the melting season, resulting in 
decreased total ice cover at summer's end. To explore these changes and 
begin discussions of management strategies, the Service and the U.S. 
Geological Survey (USGS) co-hosted a Climate Change Forum for Alaska, 
in Anchorage, in February 2007. The forum provided the opportunity for 
the Service to collaborate with USGS on recommendations for research 
and monitoring priorities, management directions, and methods to 
improve partner involvement.
    Climate change in the Arctic will continue to affect the habitats 
of ice-dependent species such as polar bear and walrus. On May 15, 
2008, the Service published a final rule to list the polar bear as a 
threatened species under the Endangered Species Act (ESA). The primary 
threat to this species is loss of sea-ice habitat, particularly summer 
sea ice, due to a combination of natural variation and climate change. 
Sea ice is essential habitat for many of the polar bear's life 
functions such as hunting, feeding, movement, and rearing cubs. To 
assist the Service in the decision on whether or not to list the polar 
bear, the USGS conducted research and modeling on the interaction 
between changes in the polar bear's sea-ice habitat and the 
distribution and abundance of bears. This decision required a level of 
scientific support and scrutiny that is atypical and perhaps 
unprecedented. The process of recovery planning will be immensely 
challenging because, in addition to science and management, it will 
require other issues, such as international diplomacy and cultural 
knowledge, to be addressed. Also, there are other species involved. The 
Service has been petitioned to list the walrus under the ESA while the 
National Marine Fisheries Service (NMFS) has been petitioned to list 
the ribbon seal. The NMFS is conducting a status review of all ice 
seals. Changing climate is driving ecology within the entire 
circumpolar arctic and our conservation efforts must address the suite 
of ice-dependent species in the Arctic, and thus, will require novel 
and collaborative solutions among scientists, managers, and native 
peoples--solutions that are at the landscape level and address multiple 
species.
    Like the polar regions, the Northwest and the Mountain-West have 
also been experiencing reductions in annual snowpack. According to the 
USGS, climate changes over the last 50 years in these areas of the 
country have led to as much as a 17 percent decline in annual winter 
snowpack. <SUP>1</SUP> The result has been a decreased recharge of 
ground water systems, increased stress to public water systems, changes 
in the timing of river ice-outs, and reduced river flows that affect 
temperature, depth, and other characteristics of spawning environments 
for fish such as Pacific salmon. Snowpack declines also have been 
accompanied by earlier annual peaks in river run-off, as documented in 
stream gage monitoring and analyses across the lower 48 states and 
throughout Alaska. As snow pack melts earlier throughout the western 
United States, reservoirs designed upon 20th century hydrology may not 
be able to adequately store the runoff. Predictions of less frequent, 
but more intense summer storms may exacerbate storage and supply 
concerns. One study predicts that if current allocations of water 
persist, there is a 50 percent chance that Lake Mead will not provide 
water without pumping by 2023, and a 50 percent chance that Hoover Dam 
will not be able to generate power by 2017. <SUP>2</SUP> While 
Departmental bureaus have previously noted before the Committee that 
there is much room for improvement in the demonstrated resolution of 
climate and streamflow modeling, as land and wildlife managers we have 
nevertheless managed around and through weather patterns like drought 
on annual to decadal scales. Now, however, managers must face the 
growing reality that these recent observations may not be part of an 
annual or even decadal change in weather pattern, but are possibly 
linked to a long-term change in the climate system itself. If this is 
the case, the implications for wildlife and fisheries management are 
substantial and will require extensive changes in the design and 
placement of projects to store water, protect and restore habitats, and 
manage populations.
---------------------------------------------------------------------------
    \1\ Statement of Dr. Thomas R. Armstrong, Program Coordinator, 
Earth Surface Dynamics Program, U.S. Geological Survey, U.S. Department 
of the Interior to Committee on Commerce, Science and Transportation, 
Subcommittee on Global Climate Change and Impacts; Hearing on Projected 
and Past Effects of Climate Change: A Focus on Marine and Terrestrial 
Ecosystems; April 26, 2006
    \2\ Barnett, T. P., and D. W. Pierce (2008), When will Lake Mead go 
dry?, Water Resour. Res., 44, W03201, doi:10.1029/2007WR006704.
---------------------------------------------------------------------------
    Apart from hydrological changes correlated with increased warming, 
Service biologists are also noting changes in abundance and 
distribution of species. These changes include the expansion of pests 
and invasive species. Expansion of the mountain pine beetle into higher 
latitudes and elevations--areas once too cold to support it--is well 
correlated with observed temperature changes. This range expansion is 
increasingly impacting our forest habitats, not just killing trees, but 
making these landscapes more susceptible to catastrophic wildfires and 
creating the potential to drive fundamental shifts in ecosystem 
function and structure.
    We know that changes in temperature and moisture will affect 
species ecology. While some species will adapt successfully, and 
indeed, some will likely flourish in a warming world, some will not. 
The challenge for resource scientists and managers will be in 
developing better capacities to model and predict these changes so that 
we can develop conservation strategies that are timely and effective. 
Species most at risk are those that are unable to generalize or adapt. 
Long-distance migrants and birds with limited geographical ranges, for 
instance, may not be able to adjust to the changes caused by rising 
temperatures. Species at the end of geographical or elevational 
gradients will have difficulty adapting because they have nowhere to 
which they can migrate. Increased competition for habitat and the lack 
of suitable or available food in new locations would mean that a shift 
poleward may change the size of bird populations and composition of 
bird communities adapting to climate change. Changes in ecological 
communities may decouple ecological relationships among species. 
Climate has influenced the development of intricate ecological 
relationships that have evolved over millennia, and relatively abrupt 
changes in climate may, for example, interfere with the synchrony 
between the life cycle of birds, bees, or other pollinators and the 
flowering of their host plants or emergence of insects they eat. 
Monitoring of phenological changes is one example of a potential area 
for future focus.
    Other significant changes associated with increased warming include 
rising sea levels and water temperatures that pose threats to marine 
habitats, coastal wetlands, and estuaries which are part of more than 
160 National Wildlife Refuges the Service manages along the nation's 
coastline and over 50 coastal and marine parks managed by the National 
Park Service. Pea Island National Wildlife Refuge, part of the 
Alligator River National Wildlife Refuge Complex along the North 
Carolina coast, is losing ground annually to the Atlantic Ocean. The 
projected rise in sea level over the next 50 to 100 years will likely 
transform large expanses of marsh to open water, forest to marsh, and 
complicate habitat conservation for species such as the federally 
endangered red wolf and many other species of birds and wildlife. 
Similar threats are facing other refuges like Merritt Island National 
Wildlife Refuge which overlays and surrounds the Kennedy Space Center 
in Cape Canaveral, Florida, and serves as a home to more than 300 
species of birds. At this refuge, projected sea level rise over the 
next few decades threatens to engulf much of the refuge. The Oregon 
Islands National Wildlife Refuge which supports significant seabird 
nesting and the Aransas National Wildlife Refuge along the Texas coast 
are also expected to experience substantial impacts from sea rise and 
subsequent loss of habitat for wildlife. Sea level rise will complicate 
some large scale restoration efforts, such as the effort currently 
underway to restore formerly diked salt ponds in the San Francisco Bay 
National Wildlife Refuge. It will be essential for the Service to 
understand not only the physical changes in habitat that will result 
from sea-level rise in and around our refuges, but the landscape-scale 
changes in population ecology that will be driven by those changes.
    Increased ocean temperatures are also accelerating the intensity of 
algae blooms and incidents of red tide in the Gulf of Mexico. These 
increased incidents can cause significant fish kills, contaminate 
shellfish and, when inhaled, can create severe respiratory irritation 
to humans as well as generating more frequent and more intense events 
of coral bleaching and disease which can stress and kill corals. Coral 
reefs managed by the National Wildlife Refuge System, like other reefs 
world-wide, are experiencing bleaching episodes--most recently the 
reefs of Navassa National Wildlife Refuge demonstrated these effects 
after the extreme Caribbean bleaching episode of 2005.
    With the rise of atmospheric carbon dioxide levels, our oceans are 
becoming more acidic. As oceans absorb more carbon dioxide, the 
availability of carbonate ions is reduced. Reef-building organisms and 
shellfish require an abundance of carbonate ions to build their 
skeletons and shells.
    As field biologists and ecologists research changes correlated with 
observed changes in climate, it is becoming increasingly apparent that 
those changes are widespread, and are adding increasing complexity to 
the challenge of fish and wildlife conservation. For instance, 
University of Texas ecologist, Dr. Camille Parmesan has done an 
extensive survey of scientific literature and concludes that ``
        ``Ecological changes in the phenology and distribution of 
        plants and animals are occurring in all well-studied marine, 
        freshwater, and terrestrial groups. These observed changes are 
        heavily biased in the directions predicted from global warming 
        and have been linked to local or regional climate change 
        through correlations between climate and biological variation, 
        field and laboratory experiments, and physiological research. 
        <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Parmesan, C., (2006, Ecological and Evolutionary Responses to 
Recent Climate Change, Annu. Rev. Ecolo. Evol. Syst. 37: 637-69, 
doi:10.1146/annurev.ecolsys.37.091305.110100.
---------------------------------------------------------------------------
    This presents immense challenge for natural resource managers and 
scientists because we are facing what author Douglas Fox has termed ``A 
No-Analog Future,'' that is, a future in which climate change leads to 
entirely new ecological communities for which there is no present 
analog.

Creating an Atmosphere of Awareness
    The Service is preparing for this no-analog future by working with 
other agencies, states, and partners to understand developments as 
quickly as possible and to develop the capacity to respond. Based on 
the successful Climate Change Forum for Alaska, Service Director Dale 
Hall instructed all Regional Directors to work in concert with their 
USGS counterparts and develop a series of regional climate workshops. 
These workshops, like one that is occurring today for the Columbia 
River Basin, are bringing together partners from federal, state and 
tribal governments, conservation organizations and universities. The 
Service intends to use such information to develop our capacity to 
address the impacts of a changing climate.

Adaptation and Mitigation Strategies
    The Service is establishing an impressive track record of adapting 
and mitigating strategies. Most noteworthy, perhaps, are our pioneering 
partnerships in habitat restoration and terrestrial sequestration. In 
our Southeast Region, an innovative partnership was launched eight 
years ago aimed at restoring native habitats to bolster populations of 
wildlife and migratory birds through a terrestrial carbon sequestration 
initiative. The Service is working with The Conservation Fund, Trust 
for Public Lands, and energy companies like Detroit Edison, American 
Electric Power, and Entergy, adding 40,000 acres of habitat to our 
National Wildlife Refuge System and reforesting a total of 80,000 acres 
with more than 22 million trees that will sequester approximately 30 
million tons of carbon over 70 years. This effort has been fueled by a 
capacity to develop landscape-scale conservation strategies that has 
been built through the Lower Mississippi Valley Joint Venture 
Partnership.
    In March 2007, the Service announced a new partnership with The 
Conservation Fund and its Go ZeroSM initiative that gives individuals 
and organizations a way to offset their own annual carbon emissions 
calculated based on daily commuting patterns, home energy usage and 
other factors. The Conservation Fund then offsets the carbon footprint 
by working with the Service to plant native trees on refuges. It's 
voluntary, non-regulatory, and represents another example of 
partnership that restores habitats, helps achieve goals in ecosystems, 
and contributes towards reducing atmospheric carbon dioxide.
    The next frontier for this effort is to identify ways we can create 
an incentive to more broadly engage private landowners to restore 
native habitats that sequester carbon. For example, the Service is now 
working with the Department of Agriculture to replicate this 
sequestration initiative in other state and federal land management 
agencies as well as territories.
    The Service is also beginning to address the potential for 
significant sea level rise. A comprehensive modeling effort using what 
is called the Sea Level Affecting Marshes Model (SLAMM) has been 
undertaken to determine the potential effects of sea-level rise on 
coastal National Wildlife Refuges (NWRs). The SLAMM model simulates the 
dominant processes involved in wetland conversions and shoreline 
modifications during long-term sea level rise. Map distributions of 
wetlands are predicted under conditions of accelerated sea level rise 
and results are summarized in tabular and graphical form. Since June 
2006, SLAMM modeling has been conducted for approximately 20 NWRs and 
at least an additional 26 are in the pipeline (see Table 1). The 
Service's National Wetlands Inventory (NWI) is an integral component to 
SLAMM modeling because SLAMM simulations run on NWI wetlands data. 
SLAMM results will be crucial elements in developing refuge and 
landscape-scale adaptation strategies and in revising refuge 
comprehensive conservation plans.
    In addition to increased modeling and mapping efforts to better 
predict and understand the consequences of sea level rise on Service 
lands, we are assisting communities as they plan for potential 
environmental change. Sea level rise and subsequent increases in 
coastal erosion are already affecting portions of the coastline, 
particularly evident in western and northern Alaska. Hardening of 
shorelines and the relocation of vital infrastructure are already 
underway with potentially adverse impacts to high-value fish and 
wildlife habitat. In other communities, water shortages and droughts 
are likely to be community concerns. Service biologists are engaging to 
advise and assist communities across the country in planning for, and 
adapting to, these environmental changes while also conserving high-
value fish and wildlife habitats.
Increasing Our Knowledge Base
    Like the fish and wildlife populations that the Service is 
entrusted to conserve, we must adapt our work in an era of changing 
climate. This will require increasing ability to predict changes and 
design conservation strategies at landscape scales, to implement 
conservation projects, and to learn by adapting based on observed 
results. Improved understanding and models of future climate change is 
essential to plan for potentially significant changes. To that end, the 
Service is working with the USGS to develop modeling capacity and other 
research tools for assessing potential effects of climate change.
    The USGS' 2009 budget proposal includes a $5 million Climate Change 
initiative. This initiative will result in science and adaptive 
management strategies for climate impacts and development of the 
methodology to assess geologic carbon storage. Results from this 
initiative will provide resource managers crucial information and tools 
to develop land and water management strategies and determine adaptive 
management activities in a dynamic environment affected by climate 
change. The USGS is also currently conducting research into water use 
and availability trends in order to examine the implications for 
managing the National Wildlife Refuge System. Part of this analysis 
will include projections on climate related changes in water 
availability.
    The Service has joined an important new partnership with the USGS, 
The Wildlife Society, and others to develop a National Phenology 
Network. Our hope is that this effort will fuel a new generation of 
information on changes in ecological relationships in response to 
climate, a new generation of citizen scientists that will create 
opportunity for volunteerism, and support efforts to connect people 
with nature.
    Another example of USGS-Service partnership in addressing impacts 
of climate change is the ongoing development of Adaptive Harvest 
Management (AHM) as an objective, science-based framework for 
establishing annual migratory bird hunting regulations. AHM, as a 
decision-making framework, is built upon alternative models that 
describe competing ideas about how hunted populations respond to the 
environment and to harvest. Population ecologists have traditionally 
attempted to exploit historical relationships between bird population 
dynamics, environmental factors, and harvest data to predict effects of 
future management decisions. Climate change has the potential to 
drastically alter the way that bird populations respond to their 
environment and to human activities such as hunting. This requires 
consideration of alternate potential future system states in the 
decisions harvest managers make today. To this end, Service and USGS 
scientists are evaluating ways to incorporate the predictions of 
climate models, which may suggest future conditions outside the realm 
of historical experience, within the decision-making process. These 
efforts represent a new scientific frontier in the general fields of 
structured decision-making and adaptive resource management.
    A partnership with USGS and the Environmental Protection Agency 
involves the authoring of a case study on adaptation strategies for the 
National Wildlife Refuge System. This case study will be published as a 
chapter in the U.S. Climate Change Science Program (CCSP), Synthesis 
and Assessment Product (SAP) SAP 4.4: Adaptation Options for Climate-
Sensitive Ecosystems and Resources (The CCSP Strategic Plan calls for 
the creation of a series of more than 20 synthesis and assessment 
reports. The lead agency for SAP 4.4 is the Environmental Protection 
Agency.) The 3rd draft of SAP 4.4 was posted on the CCSP web site on 
February 29, 2008, and the final report is scheduled to be posted in 
June 2008. The final report was posted on the CCSP web site on June 20, 
2008. Lead authors of the National Wildlife Refuge Chapter are J. 
Michael Scott and Brad Griffith of USGS with three contributing authors 
from the Service: Robert S. Adamcik, Daniel M. Ashe, and Brian Czech. 
This report provides a preliminary review of adaptation options for 
climate-sensitive ecosystems and resources in the United States. Other 
chapters address National Forests, National Parks, Wild and Scenic 
Rivers, National Estuarine Reserves, and Marine Protected Areas.
    Finally, the Service is cooperating with USGS to implement a 
framework for landscape scale conservation that we call ``Strategic 
Habitat Conservation (SHC).'' SHC is an adaptive management framework 
that begins with explicit trust resource population objectives. Because 
climate change affects species and habitat change globally, the Service 
needs a consistent approach to understand and address this challenge. 
This direction of change is inspiring and challenging us to reshape not 
just how we do the work of conservation, but how we think about 
conservation. Implementation of this approach and building this 
capacity will be an essential ingredient in our response to the 
changing climate system.
    SHC integrates five functional elements into an adaptive framework: 
biological planning, conservation design, conservation delivery, 
decision-based monitoring, and assumption-driven research. While 
methods may vary, the essence of SHC begins and ends with explicit 
trust resource population objectives for a key species or group of key 
species. These objectives are met by applying predictive models and 
conservation biology principles to define the ecological conditions 
that must be sustained at the landscape scale and by using spatially 
explicit data to strategically target conservation priorities at the 
site scale. Landscape-level conservation through adaptive management 
provides a habitat conservation framework within which scientists and 
managers can factor in actual and projected changes in climate. Habitat 
fragmentation, dispersal and migration corridors, nonlinear changes in 
ecosystem response, and factors including intensified wildfires, 
droughts, and storms can be more effectively addressed through this 
framework. As we face the extraordinary complexity of changing climate, 
the Service will need to be increasingly strategic in conservation 
delivery. We must develop capacities to understand and anticipate 
change on broader landscape scales relevant to the types of climate 
changes likely to occur and develop new and innovative strategies such 
as potential climate refugia and conservation designs that result in 
landscape connectivity allowing habitat and populations to adapt as 
successfully as possible.
    The SHC framework has been successfully applied in key regions for 
several years, most notably the Lower Mississippi Valley and Prairie 
Pothole regions, and increasingly is being expanded to other geographic 
areas. For example, in the plains of the Southwest, the Playa Lakes 
Joint Venture followed the SHC framework to conserve habitat for the 
lesser prairie-chicken and associated wildlife through strategic 
enrollment of land into Farm Bill conservation programs such as the 
Conservation Reserve Program. Applying the SHC framework (including a 
rigorous biological planning process to identify priority bird species 
in the region and habitat acres based on their potential benefit to the 
prairie-chicken), Joint Venture partners determined that, in the Texas 
Panhandle, 20,000 acres of CRP placed randomly on the landscape had no 
noticeable effect on the chickens' numbers. CRP acres spatially 
targeted and planted with native grasses, however, can support 217 
prairie-chickens.

Conclusion
    Critical to the Service's success in addressing these challenges 
will be our ability to build the capacity to understand the changing 
climate and to predict and adapt to its forcing effects on the natural 
environment, and the capacity to build partnerships with organizations 
like USGS, states, and other partners that have relevant expertise, 
tools and information. Admittedly, there is still a lot of work to be 
done, but the Service is making significant strides in developing 
adaptive and mitigation responses and expanding our knowledge of 
climate change trends and effects. Despite the enormity of the many 
challenges associated with this issue, the Service is committed to 
addressing climate change and its potential impacts on our Nation's 
fish, wildlife, and habitat. We are creating an atmosphere of awareness 
and an important new direction of change. We are modeling innovative 
new partnerships in adaptation and mitigation. We are increasing our 
knowledge and capacities to implement landscape-scale and adaptive 
approaches.
    We appreciate your attention to this issue and we look forward to 
working with the Subcommittee, the Committee, and the entire Congress 
as we all work to address this challenge in the months and years to 
come.
[GRAPHIC] [TIFF OMITTED] T3199.001

                                 .eps__
                                 
    Ms. Bordallo. Thank you very much, Mr. Ashe. It is my 
understanding from the committee up here that you once served 
as congressional staff for the Merchant Marine and Fisheries 
Committee and that you have a long history on these issues. So 
we appreciate your insights today and, of course, your timing 
as well.
    Mr. Ashe. Thank you, Chairman Bordallo.
    Ms. Bordallo. I would like to now recognize Mr. Whitehurst.

STATEMENT OF DAVID K. WHITEHURST, DIRECTOR, WILDLIFE DIVERSITY 
   DIVISION, VIRGINIA DEPARTMENT OF GAME AND INLAND FISHERIES

    Mr. Whitehurst. Thank you, Madam Chairwoman. Thank you for 
the opportunity to speak to you today about state efforts to 
incorporate the expected impacts of global climate change into 
our wildlife management programs and to offer recommendations 
regarding additional direction and resources that Congress 
could provide to support these efforts.
    As you have heard during previous hearings, climate change 
poses an unprecedented threat to the future of human 
communities, wildlife habitat, and the natural communities that 
we depend on for food, our drinking water, our recreational 
pursuits, the strength of our local economies and our quality 
of life. The implications of climate change present critically 
important challenges that must be met by state and territorial 
wildlife agencies and their conservation partners using 
scientific and adaptive approaches, collaboration and timely 
and effective communications.
    State wildlife agencies nationwide have a history of 
successfully managing natural resources in the public trust, 
and we can meet these new challenges given proper resources. In 
2001, Congress provided a new source of appropriated funding 
for wildlife conservation, the State Wildlife Grants Program. 
It is now the cornerstone in many states for keeping common 
species common and preventing wildlife from becoming 
endangered. Resulting state wildlife action plans provide the 
foundation for managing species with greatest conservation 
needs.
    A very successful Federal/state partnership led by the U.S. 
Fish and Wildlife Service and the Association for Fish and 
Wildlife Agencies collaborated on guidelines for the states and 
territories to facilitate the development of these plans. I 
participated on this team and can attest that this partnership 
is one of the best that I have seen in my 40 years in the 
profession. Hopefully, this successful partnership can serve as 
a prototype for a cooperative planning process to develop an 
adaptation strategy for climate change.
    At the time that most of these plans were being written 
though, most of us were focused on the more tangible threats 
immediately facing us such as habitat loss and fragmentation, 
pollution and invasive species, rather than the less documented 
threats from climate change. As you probably know, these plans 
revealed that many of the country's wildlife species are 
already experiencing significant declines. State wildlife 
agencies are now recognizing the needs and taking steps to 
adopt wildlife management activities to address climate change 
impacts on wildlife.
    In Virginia, Governor Kaine established a Commission on 
Climate Change and charged it with developing a Climate Change 
Action Plan that will include impacts to the state's natural 
resources. Our agency has established a climate change working 
group and is working with the National Wildlife Federation and 
the Virginia Conservation Network to adapt our state wildlife 
action plan via workshops and stakeholder sessions to more 
explicitly describe the effects of climate change on wildlife 
and to identify actions to manage those effects. Other states 
are taking similar actions, as detailed in my written 
testimony.
    I would like to offer several recommendations to you. 
First, we need to develop a national biodiversity climate 
change adaptation plan. The plan should utilize a risk 
assessment approach, be developed with input from the state 
wildlife agencies, and guide future funding resources. 
Furthermore, this plan should lead to the development of 
uniform Federal policies and interagency responses to climate 
change that are well coordinated with state and natural 
resource agencies.
    Additional uniformity can be provided by using existing 
tools such as state wildlife action plans, the North American 
Waterfowl Management Plan or programs such as the Wildlife 
Conservation and Restoration Program. These existing tools will 
require an update to address climate change.
    State wildlife agencies are currently addressing the 
impacts of climate change with extremely limited budgets. 
Congress could provide necessary adequate, dedicated funding 
sources to support Federal, state and territorial efforts to 
mitigate and adaptively manage wildlife populations and 
habitats in response to climate change. Moreover, regional 
ecosystem-based cooperative programs and partnerships among 
states to implement this plan at the landscape level should be 
encouraged through the creation of incentives and various 
Federal funding programs.
    The Association of Fish and Wildlife Agencies worked 
closely with the hunting and fishing conservation community, 
the National Wildlife Federation, the Nature Conservancy, and 
the Defenders of Wildlife over the last year--and with the 
staffs from the offices of Senator Lieberman, our own Senator 
Warner, and Senator Whitehouse--to perfect the natural resource 
adaptation provisions in Senate Bill 3036. The title has broad 
and diverse support in the conservation and environmental 
communities. Your committee staffs have been briefed on these 
provisions. And we all encourage you to give serious 
consideration to the Lieberman-Warner Natural Resource 
Adaptation Construct, including state match requirements in any 
legislative drafting you undertake.
    In conclusion, climate change will fundamentally change the 
way that state and territorial wildlife agencies manage 
wildlife populations for the public trust. The potential 
magnitude of the impact and the time frame in which they will 
occur are greater than any other threat that we have faced in 
the last 100 years or so. The state wildlife agencies are ready 
and willing to work with this Subcommittee, the rest of 
Congress, and the Federal Government to plan and adaptively 
manage for the impacts of climate change on your natural 
resources.
    Thank you for the opportunity to testify today, Madam 
Chair.
    [The prepared statement of Mr. Whitehurst follows:]

    Statement of David K. Whitehurst, Director, Wildlife Diversity 
 Division, Virginia Department of Game and Inland Fisheries, Richmond, 
                                Virginia

    Madam Chairwoman and members of the Subcommittee, I am David 
Whitehurst, Director of the Wildlife Diversity Division of the Virginia 
Department of Game and Inland Fisheries. Thank you for the opportunity 
to speak with you today about state efforts to incorporate the expected 
impacts of global climate change into our natural resource planning and 
management programs. I also welcome the opportunity to make 
recommendations regarding additional direction and resources that 
Congress could provide to assist in these efforts.
    As you have already heard during previous hearings, climate change 
poses an unprecedented threat to the future of human communities, fish 
and wildlife habitat, and the natural communities we depend on for our 
food, our drinking water, our recreational opportunities (such as 
fishing, hunting, boating, and bird watching), the strength of our 
local economies, and our quality of life. The implications of climate 
change on our rich natural heritage present critically important 
challenges and opportunities that must be met by state and federal fish 
and wildlife agencies and their conservation partners using scientific 
and adaptive approaches, collaboration, and timely and effective 
communications.
    The Virginia Department of Game and Inland Fisheries is the inland 
fish and wildlife management agency of the Commonwealth. The agency is 
also the boating entity in Virginia. The Department's mission is:
    <bullet>  To manage Virginia's wildlife and inland fish to maintain 
optimum populations of all species to serve the needs of the 
Commonwealth;
    <bullet>  To provide opportunity for all to enjoy wildlife, inland 
fish, boating and related outdoor recreation and to work diligently to 
safeguard the rights of the people to hunt, fish and harvest game as 
provided for in the Constitution of Virginia;
    <bullet>  To promote safety for persons and property in connection 
with boating, hunting and fishing; and
    <bullet>  To provide educational outreach programs and materials 
that foster an awareness of and appreciation for Virginia's fish and 
wildlife resources, their habitats, and hunting, fishing, and boating 
opportunities.
    Healthy and intact ecosystems support our wildlife conservation 
needs. Hunter and anglers, farmers and ranchers, hikers and bird 
watchers, and citizens in all walks of life, benefit from programs at 
all levels of government that support our ability to sustain not just 
human life, but fish, wildlife, and the habitats upon which all of us 
depend for ecosystem services such as clean air and drinking water, 
recreation, and validating our natural heritage and relationship with 
the land.
    The Virginia Department of Game and Inland Fisheries celebrated its 
92nd birthday last week. State fish and wildlife agencies nationwide 
have an extensive history of managing natural resources, largely guided 
by the wisdom and foresight of great leaders of conservation--Teddy 
Roosevelt, Gifford Pinchot, Aldo Leopold, Rachel Carson, and Virginia's 
own A. Willis Robertson, to name a few. The ``North American Model of 
Wildlife Conservation,'' which is distinct from other forms of wildlife 
conservation worldwide, includes, as one of its tenants, that wildlife 
are held as public trust resources by the states for the benefit of all 
people. Our conservation leaders have been instrumental in ensuring 
that our country has a strong legacy of protecting our fish and 
wildlife and the habitats upon which they depend.
    In Virginia, the national parks, national forests, national 
wildlife refuges, state wildlife management areas, state parks and 
natural area preserves, and state forests represent a considerable 
investment in lands and waters recognized for their biological, 
cultural, recreational, and natural significance. The Virginia 
Department of Game and Inland Fisheries owns the most public land of 
any state government agency in the Commonwealth. Climate change 
threatens every one of the investments we have made to date and will 
have profound impacts on how we manage our lands, waters, and fish and 
wildlife populations. I can assure you, too, that with a $51 million 
annual budget and existing needs that go unmet each year, we do not 
have the resources needed to respond appropriately to these new 
threats. Like many other state fish and wildlife agencies, our wildlife 
conservation programs are primarily funded by hunters and anglers. 
While we are all already making investments in assessing impacts of 
climate change and developing adaptive management strategies, critical 
funding shortfalls hamper our efforts.
    Natural resources provide enormous contributions to our state 
economy. The 2006 National Survey of Fishing, Hunting, and Wildlife-
Associated Recreation found that over 87 million Americans (38 percent 
of those aged 16 and older) pursued outdoor recreation in 2006 and 
spent $120 billion that year on those activities. In Virginia alone, 
more than 2.9 million people participated in these activities and 
generated over $2.1 billion in economic revenue that year. Natural 
systems also provide significant benefits to our local communities 
through the services that they provide--such as flood protection, storm 
buffers, groundwater storage, clean drinking water, and clean air. 
These ecosystem ``services'' can be and should be estimated in terms of 
the value that they provide to human communities. For example, a study 
conducted by the Minnesota Department of Natural Resources estimated 
that the state's wetlands provide flood abatement and storage worth 
$300 per acre-foot of water. The U.S. Geological Survey's National 
Wetlands Research Center has estimated that Louisiana's 2.5 million 
acres of coastal wetlands provide storm protection valued at between 
$520 million and $2.2 billion. In Virginia, we initiated an ecosystem 
services evaluation last year, led by the Virginia Department of 
Forestry, and that work is still under development.
    In federal FY2001, Congress provided the 50 states, the District of 
Columbia, and the trust territories with a new source of appropriated 
funding for wildlife conservation--the State Wildlife Grants program 
administered by the U.S. Fish and Wildlife Service. This program is now 
the cornerstone in many states for keeping common species common and 
preventing wildlife from becoming endangered. As a condition to 
receiving those funds, Congress asked each state and territory fish and 
wildlife agency to develop a roadmap that documented the status and 
condition of fish and wildlife populations and habitats, threats to 
those resources, and conservation actions that could be taken to 
address those threats. These documents, known as State Wildlife Action 
Plans, were all completed by the prescribed October 1, 2005, deadline 
and have provided the foundation for managing species of greatest 
conservation need and the habitats in which they live. A very 
successful federal-state partnership, led by the U.S. Fish and Wildlife 
Service and the Association of Fish and Wildlife Agencies, collaborated 
on guidelines to states and territories to facilitate the development 
of these Plans. I had an opportunity to participate on this team as a 
state representative and can attest that this partnership is one of the 
best I have seen in my 40 years in the profession. Because this effort 
resulted in strong, well-established partnerships, Wildlife Action 
Plans should be used as a guiding framework for integrating climate 
change considerations into wildlife management and planning. Targeting 
resources to incorporate climate change into these plans will be a 
cost-effective and efficient mechanism for addressing impacts of global 
warming on wildlife.
    At the time that most of these plans were being written, though, 
many of us focused more on the tangible threats immediately facing us, 
such as habitat loss or degradation, pollution, and deleterious or 
invasive species, rather than the less well-documented climate change 
threats to resources in our respective states. The effects of climate 
change can more properly be viewed as exacerbators of other more direct 
threats as mentioned previously. The Virginia Wildlife Action Plan 
documents 924 species of greatest conservation need, found across 
Virginia and in nearly every natural habitat occurring in the state. We 
did recognize climate change as a source of stress to barrier island 
and coastal marsh habitats, high elevation spruce-fir forests that are 
relicts from the last Ice Age, and our coldwater headwater streams, and 
the many declining or at-risk species associated with them. We were 
not, however, able to identify appropriate ameliorating actions within 
our sphere of influence or those of our conservation partners in the 
short timeframe we had to complete the Plan.
    Historical species ranges are changing and should be considered 
cautiously when determining long-term management objectives and 
implementation options. We recognize that the effects of global climate 
change in Virginia will result in habitats and associated wildlife 
species shifting northward and upward in elevation. Without 
considerably greater efforts, it is likely that many of our imperiled 
freshwater mussels, the Peaks of Otter salamander, and other species 
found nowhere else in the world will become extinct. Some species that 
are currently rare in Virginia but found elsewhere, such as the 
snowshoe hare, will likely persist in more northern parts of Canada and 
the United States, but will be extirpated from Virginia. We anticipate 
that some species not native to the Commonwealth, such as the American 
alligator and the armadillo, will expand their ranges northward into 
Virginia and establish populations in our state. Finally, some species, 
such as the brook trout and many waterfowl, may continue to persist in 
the state, found in significantly less habitat and in lower numbers. 
Reducing non-climate stressors on ecosystems (such as environmental 
contaminants, habitat fragmentation, and invasive species) may help to 
reduce impacts from changing climatic conditions.
    Unfortunately, unlike funding provided through the Wildlife and 
Sport Fish Restoration Programs (established under the Pittman-
Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish 
Restoration Act, respectively) for much of our wildlife management 
activities, the State Wildlife Grants Program is currently an annual 
appropriation that must be revisited each year. For federal FY 2008, 
the final apportionments to states from the Wildlife Restoration Fund 
is $309,686,579 and from the Sport Fish Restoration Fund, $398,337,729. 
The total appropriation in federal FY 2008 for the State Wildlife 
Grants Program (including funds for U.S. Fish and Wildlife Service 
administration of the program) is only $61,522,997. The uncertainty of 
annual funding and low funding levels confound our abilities to 
initiate and sustain comprehensive long-term planning and management 
programs to respond to the effects of climate change.

Natural Resource Planning and Management Activities
    State fish and wildlife agencies across the country are recognizing 
the need, and are taking steps, to adapt wildlife management and 
planning activities to address climate change impacts on wildlife. In 
Virginia, we have recently initiated a number of activities to help the 
Commonwealth and its citizens address likely impacts of climate change.
    In 2006, the Virginia General Assembly passed legislation 
establishing renewable portfolio standards and directing the 
development of a Virginia Energy Plan. In 2007, the Commonwealth also 
joined The Climate Registry, a nonprofit partnership developing an 
accurate, complete, consistent and transparent greenhouse gas emissions 
measurement protocol that is capable of supporting voluntary and 
mandatory greenhouse gas emission reporting policies for its Members 
and Reporters.
    In 2007, Virginia Governor Tim Kaine released the state's first 
ever Virginia Energy Plan. This plan covers all aspects of energy 
production and consumption in Virginia: fuel demand and supply; 
infrastructure; impacts of energy use on the environment; and energy 
research and development capabilities. The Plan identifies four overall 
goals, including the reduction of greenhouse gas emissions by 30 
percent by 2025, bringing emissions back to 2000 levels. This goal will 
be partially achieved through energy conservation and renewable energy 
actions identified in this Plan.
    On December 21, 2007, Governor Kaine signed Executive Order 59 
establishing the Governor's Commission on Climate Change. The 
Commission is charged with developing a Climate Change Action Plan for 
Virginia that identifies the additional steps that must be taken to 
achieve the goal of reducing greenhouse gas emissions by 30 percent by 
2025. When completed, the Climate Change Action Plan will include an 
inventory of the amount of and contributors to Virginia's greenhouse 
gas emissions and projections through 2025; evaluate expected impacts 
of climate change on Virginia's natural resources, the health of its 
citizens, and the economy, including the industries of agriculture, 
forestry, tourism, and insurance; identify what Virginia needs to do to 
prepare for the likely consequences of climate change; identify the 
actions (beyond those identified in the Virginia Energy Plan) that need 
to be taken to achieve the 30% reduction goal; and identify climate 
change approaches being pursued by other states, regions, and the 
federal government. The Commission is chaired by the Virginia Secretary 
of Natural Resources, L. Preston Bryant, Jr., and includes 
representatives from all affected interests. The Virginia Climate 
Change Action Plan is due to Governor Kaine by December 15, 2008. 
Through its first five meetings, the Commission has heard testimony and 
public comment regarding, among many topics, the expected impacts of 
climate change to forests, fisheries and wildlife, and the Chesapeake 
Bay ecosystem; calculating and quantifying ecosystem services; expected 
economic impacts of climate change on tourism; and adaptive management 
strategies, particularly in association with vulnerable wildlife.
    Within the Virginia Department of Game and Inland Fisheries, we 
have established a climate change working group that is tasked with 
synthesizing information both for the Commission and the Department. 
This group has only been together for three months, and its first task 
was to develop a summary of the general impacts of climate change on 
natural communities and potential impacts on Virginia's wildlife and 
habitats for use in policy planning.
    The Department is also working in partnership with the National 
Wildlife Federation and the Virginia Conservation Network to adapt our 
state Wildlife Action Plan to more explicitly describe the effects of 
climate change on all wildlife and to identify actions to mitigate or 
adaptively manage for those effects. We are planning two workshops in 
the next year--the first to be held this fall--to gather stakeholders 
together, determine more specifically the projected impacts of climate 
change on Virginia's wildlife populations and habitats, and identify 
specific management strategies. Such efforts will likely include 
minimizing the number of extinctions (which may require us to think 
differently about habitats, connectivity, and species distributions); 
facilitating the gradual migration of species (perhaps around human-
created barriers); and strategically planning the acquisition and 
protection of future management areas that will, eventually, be 
suitable for target species, all the while maximizing the efficiencies 
and cost-effectiveness of our actions. More specific efforts may 
involve triage, a complicated process to determine which species can be 
saved with immediate action; can be saved if actions are initiated 
later; and cannot be saved, irrespective of actions.
    When it is possible to save species, our success or failure will 
depend upon our ability to identify where habitats currently exist and 
to work with landowners, municipalities, and agencies to facilitate the 
migration of those habitats across Virginia. We will not have the 
resources to work in our traditional ``species by species'' approach; 
habitat planning and management will be more critical than ever. From a 
management perspective, climate change will be the new reality, and we 
will have to constantly evaluate and adapt our efforts if we are to be 
successful. We will have to monitor the current situation to determine 
what we have and where it occurs, initiate management efforts to 
conserve species and habitats as the climate changes, monitor species 
and habitats to determine if our management efforts are effective, 
adapt our efforts as conditions change, and then repeat. This cycle 
will occur over the course of decades. Climate change will test our 
ability to think about groups of species, plan for change decades in 
advance, and implement the adaptive management strategies needed to 
bring plans to fruition.
    It is important to realize that climate change is just one of many 
issues that threaten the future of Virginia's wildlife heritage. The 
Virginia Wildlife Action Plan identifies over 900 species of greatest 
conservation need that currently reside in Virginia. The vast majority 
of these species are being impacted by the loss and degradation of the 
habitats in which they live. At the same time, conservation-related 
funding programs are declining. So we have many species that are 
already in trouble, many of our habitats are already degraded, and less 
money is available for conservation. Success in a world and a 
Commonwealth influenced by global climate change will require more 
cooperation among agencies at all levels of government, non-government 
organizations, businesses, private landowners, legislators (at the 
state and national level), and other countries. The experiences in 
Virginia are not unique, though. Throughout the country, State Wildlife 
Action Plans identified many species of wildlife in serious decline due 
to habitat loss and fragmentation, pollution, invasive species, and 
other causes. In each state, scientists have also begun to turn their 
attention to the compounding effects of climate change on these 
resources.
    Other states have offered information to me to help illustrate 
further for you the efforts of state fish and wildlife agencies to 
address climate change impacts on wildlife and habitats nationwide. 
Florida's Fish and Wildlife Conservation Commission adopted a Global 
Warming Resolution in September 2007 that specifically calls for the 
Commission to ``support science and management that will effectively 
assess the future effects of global climate change on Florida's fish, 
wildlife and ecosystems...[and] to engage with other experts from 
government, academia, industry, and conservation organizations to 
develop recommendations for conserving fish and wildlife in the face of 
global climate change.'' Florida is also hosting a conference entitled 
``Florida's Wildlife: On the Frontline of Climate Change'' in August 
2008. The conference will bring stakeholders together from across the 
state to raise awareness about the impacts of climate change on 
Florida's biodiversity and to identify key research needs and actions 
to minimize climate change effects on fish and wildlife, which will be 
incorporated into the Commission's comprehensive climate change 
strategy.
    Washington is one of the first states in the nation to develop a 
targeted action plan to cope with the impacts of global warming, 
prompted by an Executive Order from Governor Christine Gregior in 2007 
as part of her Climate Change Challenge. Stakeholder-driven Preparation 
and Adaptation Working Groups developed a comprehensive list of 
recommendations to address the impacts of climate change in several 
important sectors, including human health, agriculture, coastal 
systems, forestry resources, and water resources. In addition, the 
Washington State Department of Fish and Wildlife provided supplemental 
recommendations specific to state habitats and species. These 
recommendations provide an important foundation for continuing work in 
the coming months to enhance emergency preparedness and response; 
incorporate climate change and its impacts into planning and decision-
making processes; restore and protect natural systems and natural 
resources; develop and improve water supply and management; build 
institutional capacity and knowledge to address impacts associated with 
climate change; manage and share available data more effectively; and 
educate, inform and engage landowners, public officials, citizens and 
others. The Washington Department of Fish and Wildlife also is in the 
process of updating its wildlife action plan to address climate change.
    Maryland's Commission on Climate Change also organized Adaptation 
and Response Working Groups. The working groups have developed a 
diverse set of policy options to address climate change that the 
Commission will present to the Governor. Policy options include strong 
recommendations that will benefit wildlife and fisheries. For example, 
one policy option calls for identifying priority areas for restoration 
in the context of sea-level rise and implementing strategic management 
actions to protect against sea-level rise. These actions will be 
important for protecting key Chesapeake Bay habitats that support 
coastal wildlife and fish species and migratory birds. Protecting and 
expanding coastal forests and wetlands also will help provide wildlife 
replenishment areas and movement corridors. Policy options also focus 
on resource-based industries, including commercial and recreational 
fishing and sportsmen activities. Policy options for commercial 
fisheries include developing long-term plans that are adaptive and 
management efforts that conserve diverse habitats to increase 
resiliency of the system under climate change conditions.
    The Nevada Department of Wildlife is working to address climate 
change challenges through innovative partnerships and cross-cutting 
initiatives. Together with its partners, the agency is gathering 
information that enables it to better understand and predict future 
changes. By taking a multi-pronged approach that includes habitat 
restoration, species research and monitoring, and conservation planning 
efforts, the agency is working to incorporate management strategies 
that reduce the stress of climate change on wildlife populations. 
Examples of actions already underway include the restoration of healthy 
sagebrush habitats in northern Nevada, designed in part to stem the 
invasion of non-native cheatgrass into native habitats; implementation 
of discovery surveys in various areas of Nevada to better understand 
the current ranges of species at risk, which will then inform more 
effective management strategies; and collaboration with The Nature 
Conservancy and other non-governmental organizations to develop 
ecological models that predict the relative risk of Nevada's key 
wildlife habitats to the projected threats of climate change.
    Nebraska's Game and Parks Commission has organized an agency-wide 
climate change working group to address impacts of climate change on 
wildlife and the implementation of the state wildlife action plan. The 
agency has also established relationships with outside partners, 
including the U.S. Geological Survey and the University of Nebraska at 
Lincoln, to support the development of a research agenda for a possible 
regional climate change research center and a degree program in 
adaptive resource management through the University's School of Natural 
Resources. Commission staff members are also engaging the state's 
Wildlife Action Plan Partners team in a comprehensive discussion of 
climate change and its impacts to wildlife populations and habitats. 
The agency faces some significant challenges, however, including 
increasing demands for biofuels and high commodity prices, which may 
result in a significant loss of conservation reserve lands and other 
grasslands to irrigated cropland. As with many other states, there is 
also considerable uncertainty in the conservation community as to what 
adaptation strategies are needed to offset the impacts of climate 
change.
    Montana Fish, Wildlife and Parks is working with the National 
Wildlife Federation to plan a workshop to begin addressing the 
challenges that climate change will present for wildlife management and 
conservation efforts in the state. Initial steps in this process will 
focus on needed modifications in state management plans. The workshop 
will serve as a model for states in the Rocky Mountain and Dakota 
regions in collaboration with their state fish and game departments. 
Several states in the region, such as South Dakota, already have 
expressed interest in using the workshop as a model for similar efforts 
in their states. In addition, the South Dakota Department of Game, Fish 
and Parks is working currently with the South Dakota chapter of The 
Wildlife Society on climate change issues.
    The Vermont Wildlife Action Plan ranks climate change as one of the 
top five problems facing fish and wildlife today. Many of the actions 
identified to address these impacts focus on maintaining and improving 
connectivity of habitats, although reducing other stressors is also 
recommended. The Vermont Fish and Wildlife Department has teamed up 
with the Vermont Department of Transportation over the past five years 
to maintain and improve fish and wildlife habitat connectivity. Those 
two agencies work with their colleagues in Maine and New Hampshire and 
have created a ground-breaking transportation collaborative. The third 
biennial transportation and wildlife conference, to be held later this 
year, will provide further opportunities for wildlife managers and 
transportation specialists to discuss regional needs and options for 
addressing those needs.
    Various other states also are implementing multi-sector, consensus-
building processes to develop adaptation strategies for wildlife. For 
example, the California Department of Fish and Game is embarking on a 
process to incorporate global warming into its activities, and the 
California Resources Agency is also about to launch a process to create 
a state-level Climate Adaptation Strategy which will include a 
component on natural lands, habitat, and species. The state of 
Wisconsin is measuring the impacts of climate change on its highly 
sensitive and fragile peatlands. Scientists there are studying the 
changes of the plants, insects, amphibians, and other wildlife using 
the bogs by looking at peat core samples. This assessment will help 
them evaluate which species are most susceptible to climate change and 
determine how resource managers must counter these changes.
    The states and territories are also working with the Association of 
Fish and Wildlife Agencies to identify efficient and effective 
strategies for responding to climate change impacts on fish and 
wildlife habitats and populations. The Association--the organization 
that represents North America's fish and wildlife agencies--promotes 
sound management and conservation, and represents the collective 
perspectives of the State Fish and Wildlife agencies on important fish 
and wildlife issues. Through a relatively new Climate Change 
Subcommittee, the Association is providing a forum through which state 
fish and wildlife agencies can collaborate on the identification of key 
issues and actions pertaining to climate change and engage at 
international, national, regional, state, and local levels to 
successfully influence policy and implement vital management response 
for climate change impacts. The Association's Climate Change 
Subcommittee is also preparing a document summarizing more specific 
strategic and operational considerations for state agencies responding 
to climate impacts, including a recommended framework for adaptation 
strategies, monitoring protocols, and modeling at the local level.

Recommendations--Additional Direction and Resources
    I want to ensure that the members of the Subcommittee recognize 
that state fish and wildlife agencies are currently addressing the 
impacts of climate change on fish and wildlife populations and habitats 
with extremely limited budgets. More investment is needed to protect, 
manage and restore fish and wildlife populations and habitats.
    The Association of Fish and Wildlife Agencies worked closely with 
the hunting and fishing conservation community, the National Wildlife 
Federation, The Nature Conservancy, and the Defenders of Wildlife over 
the last year with Senate staffs from the offices of Senator Lieberman 
(CT), our own Senator Warner (VA), and Senator Whitehouse (RI) to 
perfect the natural resources adaptation provisions in S3036, which the 
Senate considered, but failed to act on, a couple of weeks ago. This 
title, which prescribes the development of federal and state adaptation 
strategies and the requirements, terms and conditions for spending 
carbon-auction derived revenues under direct-spending to remediate the 
effects of climate change on fish, wildlife, and their habitats, has 
broad and diverse support in the conservation and environmental 
communities. Association staff and representatives from these other 
organizations have briefed your Committee staffs on these provisions, 
and we all would urge that you give serious consideration to the 
Lieberman-Warner natural resource adaptation construct in any 
legislative drafting you undertake.
    On behalf of my colleagues, I would like to offer some additional 
recommendations for direction and resources that Congress could provide 
to assist the states in addressing these impacts:
    <bullet>  Develop a national biodiversity climate change adaptation 
action plan (see the Australia National Action Plan). The Plan should 
utilize a risk assessment approach, be developed based on state input, 
and should guide future funding resources based on objectives developed 
in the plan.
    <bullet>  Provide uniformity to federal climate change planning 
efforts by using existing tools, such as State Wildlife Action Plans, 
or programs, such as the State Wildlife Grants or Wildlife Conservation 
and Restoration programs. Provide expanded funding to accomplish an 
update to all Wildlife Action Plans to account more fully for the 
impacts of climate change on species of greatest conservation need.
    <bullet>  Develop uniform federal interagency response to climate 
change that is well-coordinate with state natural resource agencies. 
State fish and wildlife agencies should encounter consistent policies 
when engaging federal agencies on climate change issues.
    <bullet>  Establish national climate change information centers in 
all major regions of the country. Existing federal research centers 
could be leveraged to provide this expertise.
    <bullet>  Identify and commit to a direct spending, dedicated 
funding source that will support state and territorial efforts to 
mitigate and adaptively manage wildlife and fish populations and 
habitats in response to climate change. Include funding of education 
and nature-based recreational activities to more comprehensively 
address climate change impacts.
    <bullet>  Ensure future federal climate change funding is not 
difficult to match at the state level. Many state fish and wildlife 
agencies already have trouble meeting the 50/50 match requirements of 
the State Wildlife Grants program when traditional wildlife 
conservation funding sources have a match requirement of 75/25. Given 
the magnitude of the issue, and the speed with which it must be 
addressed, it would be preferable if match was at 90/10 as was 
identified in the Lieberman-Warner Climate Security Act.
    <bullet>  Encourage regional, ecosystem-based cooperative programs 
and partnerships among adjacent states to address conservation issues 
affected by climate change at the landscape level through the creation 
of incentives in various federal funding programs.
    <bullet>  Support the identification and quantification of natural 
ecosystem services so that they are considered in climate change 
policies and included in the carbon marketplace.
    <bullet>  Develop robust climate change awareness activities. 
Create funding opportunities for climate change educational outreach 
programs for states and regions.
    <bullet>  Develop additional incentives that promote sustainable 
technologies and low-impact development.
    <bullet>  Continue to support and strengthen programs that 
implement habitat conservation on private lands (e.g., Conservation 
Reserve Program; Landowner Incentive Program).
    <bullet>  Create innovative federal programs that assist landowners 
in restoring cropland back to wetlands in floodplains and further 
``upslope'' as sea levels rise due to global warming.
    <bullet>  During the rule-making process for the Farm Bill 
Conservation title, seek opportunities to make greater use of 
conservation programs to lessen the impacts of climate change on 
wildlife.

Conclusion
    Global climate change will fundamentally change the way that state 
fish and wildlife agencies manage fish and wildlife populations and 
habitats for the public trust. The potential magnitude of the impacts 
and the timeframe in which they will occur are greater than any other 
threat we have faced in the last 100 years or more. The resulting 
impacts on our air and water--no doubt on our overall way of life--are 
staggering. I urge Congress to work together on global warming as their 
top priority. The states are ready and willing to work with this 
Subcommittee, the rest of Congress, and the federal government to plan 
and adaptively manage for the impacts of climate change on our natural 
resources. Only through such collaboration can we conserve our natural 
heritage for future generations. Thank you for the opportunity to 
testify today, and I look forward to your questions.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Whitehurst, not only 
for your thoughtful testimony about the efforts of the State of 
Virginia but for taking the time to gather information from the 
other states as well.
    And I now recognize Ms. Clark for five minutes.

 STATEMENT OF JAMIE RAPPAPORT CLARK, EXECUTIVE VICE PRESIDENT, 
                     DEFENDERS OF WILDLIFE

    Ms. Rappaport Clark. Thank you. Madam Chairwoman and Mr. 
Wittman, on behalf of our over one million members and 
supporters across the Nation thank you for holding today's 
hearing on what we believe is the most important conservation 
challenge that we face today, the impact of global warming on 
wildlife. As a wildlife biologist working for many years for 
the National Guard Bureau, the Department of Army and then the 
Fish and Wildlife Service, I worked for most of my Federal 
career with the assumption that the climate and the way species 
and ecosystems functioned were relatively constant.
    Well, global warming has unequivocally changed all of that. 
It will literally shuffle the deck of existing ecosystems and 
reorder assemblages of wildlife and habitats. Consequently, we 
need a new paradigm. While we must act immediately to 
substantially reduce emissions of greenhouse gas pollution, we 
must also assist wildlife to survive and adapt to the impacts 
of global warming already taking place today.
    Though many Federal programs currently exist to protect and 
restore fish and wildlife habitat, they are not primarily 
designed to address the wildlife adaptation challenges posed by 
global warming. They can and must, however, be used more 
effectively to minimize and offset future impacts to global 
warming, of wildlife and habitats. Natural resources agencies 
must make greater use of their existing authorities to address 
global warming, and they must be given additional direction to 
consider these impacts in program planning, land and water 
management, and environmental analyses.
    Equally important, new governmental processes and 
structures need to be explored. While each agency should 
develop measures for protecting wildlife from the effects of 
global warming, it is insufficient and ineffective for 
individual agencies to contemplate and plan strategies purely 
on their own. The problem is simply much too complex. And 
effective response to the impact of global warming on wildlife 
requires the kind of comprehensive and coordinated measures set 
forth in the Global Warming and Wildlife Survival Act which was 
adopted by the House in July of 2007 as part of the 
Comprehensive Energy Bill. This legislation is included in 
large measure in the Boxer-Lieberman-Warner Climate Security 
Act recently considered in the Senate, indicating the strong 
policy consensus emerging on the subject.
    The Survival Act provides for dramatically enhanced Federal 
scientific capacity to address global warming and wildlife, a 
coordinated national strategy to ensure that wildlife impacts 
spanning government jurisdictions are effectively addressed, 
and a commitment of Federal funds sufficient to carry out 
measured implementing the national strategy. I would like to 
briefly address these measures.
    First, we must have increased Federal scientific capacity 
to address wildlife adaptation to global warming. The 
scientific capacity of Federal agencies is woefully inadequate 
to address the magnitude of wildlife adaptation needs today. We 
must have a solid foundation of knowledge as well as a system 
of monitoring to determine changes in species' numbers and 
distribution or declines in ecosystem structure and function. 
Researchers can then propose new tools, practices and 
strategies to assist wildlife and habitat adaptation.
    Building rigorous scientific inventory and monitoring 
programs within each Federal land management agency is also 
essential to manage wildlife in its habitat in a world 
undergoing continual change due to global warming. Congress 
recognized this urgent need by initiating through 
appropriations last year the establishment of a new National 
Global Warming and Wildlife Science Center within the U.S. 
Geological Survey. Once fully established and funded, this 
national interagency scientific support center will conduct 
research, develop monitoring protocols and models, and directly 
support land management and wildlife agencies in responding to 
global warming.
    Second, a national strategy for addressing the impact of 
global warming on wildlife must be developed. This complex 
threat to wildlife requires strategic planning on a national 
scale to ensure common tools and approaches at Federal, state 
and local levels are coordinated and that funds provided for 
wildlife adaptation to global warming are spent strategically 
and effectively. State wildlife adaptation strategy should 
build on the great existing state wildlife action plans and 
they should be coordinated with the national strategy.
    Third, Congress must increase appropriations for Federal, 
state and tribal conservation efforts and allocate substantial 
dedicated funding to address the immediate and severe harm 
global warming is causing to wildlife and natural resources. 
Because a responsible national response to climate change must 
both reduce greenhouse gas emissions and address the impacts of 
global warming, a portion of the revenue generated from any 
cap-and-trade system for auctioning greenhouse gas emissions 
credits should be dedicated to programs to assist wildlife 
adaptation. In the long run this will benefit not only wildlife 
but people and communities which derive economic benefits and 
ecosystem services from conservation of wildlife and its 
habitat.
    In conclusion, global warming truly is the conservation 
challenge of our time. The success of our efforts to conserve 
and recover fish, wildlife and other natural resources for 
future generations will depend on how well we respond to this 
challenge. We look forward to working with you to meet this 
challenge so that our children and our grandchildren will be 
able to enjoy the abundance, diversity and wonders of nature 
that we have enjoyed.
    Thank you.
    [The prepared statement of Ms. Rappaport Clark follows:]

     Statement of Jamie Rappaport Clark, Executive Vice President, 
                         Defenders of Wildlife

    Madam Chairwoman and members of the subcommittee, I am Jamie 
Rappaport Clark, Executive Vice President of Defenders of Wildlife. 
Founded in 1947, Defenders of Wildlife has over 1 million members and 
supporters across the nation and is dedicated to the protection and 
restoration of wild animals and plants in their natural communities.
    I want to thank you for holding this hearing on what Defenders 
believes is the most important conservation challenge we face today, 
the impact of global warming on wildlife. With the recent listing of 
polar bears as a threatened species, even the Bush administration has 
grudgingly and belatedly recognized the reality that wildlife and 
wildlife habitat are being harmed due to global warming. Unfortunately, 
the Bush administration is still trying to avoid actually doing 
anything to help polar bears or other wildlife survive the impacts of 
global warming. For that reason, I am pleased that this subcommittee 
has chosen a better path, focusing attention on the issue by holding a 
hearing last year, on April 17, 2007, on the impacts of global warming 
on wildlife and habitat, and, today, holding a hearing on the even more 
difficult question of what should be done to help wildlife survive 
global warming.
    As you know, at the subcommittee's hearing in April 2007, Dr. 
Christopher Haney, Defenders of Wildlife's Chief Scientist, testified 
on the myriad impacts of global warming on America's fish, wildlife, 
and habitats. Rather than repeat what Dr. Haney said then, I will 
simply incorporate it by reference in my testimony today. I will focus 
my testimony today on what must be done by Congress and the Executive 
Branch to meet this critical conservation challenge.

Responding to Global Warming: A New Paradigm for Wildlife Conservation
    Global warming increasingly will present unprecedented challenges 
to existing federal, state, tribal, local and private programs for 
conservation of wildlife, fish, plants and their habitats. Our system 
of conservation programs, ranging from land management and acquisition 
to regulatory and grant making programs, evolved with an assumption 
that the climate and the ways species and ecosystems functioned were 
relatively constant. Wildlife conservation efforts now must adopt a new 
paradigm, with new approaches and innovative strategies to manage the 
broader landscape, as well as wildlife populations, if we are to help 
species survive and adapt to these changes. Because impacts on wildlife 
and habitat from global warming already are here and will continue to 
grow, we must act boldly and immediately in order to help wildlife 
survive.
    Our national approach to combating the impacts of global warming on 
wildlife must consist of two key approaches. First, we must take 
immediate steps to substantially reduce greenhouse gas emissions, to 
address the root cause behind climate change. Second, we must craft 
responses now to help wildlife navigate through a looming bottleneck of 
complex effects caused by global warming which are already occurring 
and will continue to occur for a century or more. These two approaches 
are usually referred to as mitigation and adaptation. Both approaches 
are absolutely essential for our nation to frame its policy response as 
we build a comprehensive strategy to protect fish, wildlife, and other 
natural resources. Some ways to address wildlife adaptation are 
suggested in the following pages of my testimony.

1.  A Coordinated, Interagency Response is Essential for Wildlife 
        Adaptation
    The effects of global warming on wildlife, fish, plants and 
associated ecological processes will challenge current institutional 
structures and policies because these effects will occur at large 
scales and across jurisdictional boundaries. Global warming will 
literally ``shuffle the deck'' of existing ecosystems, reordering the 
assemblages of wildlife and habitats that comprise ecosystems. Species 
that exist together now will not necessarily do so in the future as 
habitats change in response to global warming and species move or 
become extinct in response to those habitat changes. The location of 
some crucial fish and wildlife habitats will likely shift over time in 
ways that are not currently predictable and opportunities to maintain 
these habitats may decline. Landscape scale planning, timely action and 
future human adaptation to changing patterns of wildlife and fisheries 
use will be increasingly important to protect crucial habitats and to 
prevent foreclosing options to conserve habitats that may become 
crucial.
    Climate change is, and will continue to have profound impacts on 
how wildlife managers at the state and federal levels manage our 
nation's wildlife populations. However, federal agencies have been slow 
to include climate change's impacts in their management planning and 
decision-making. A report released in September 2007 by the Government 
Accountability Office, Climate Change: Agencies Should Develop Guidance 
for Addressing the Effects on Federal Land and Water Resources, found 
that federal land and wildlife management agencies currently lack the 
capacity and guidance to effectively respond to the impacts of global 
warming on our federal lands and wildlife. There is, thus, an urgent 
need to guide agencies' efforts through the development of climate 
change adaptation strategies at the federal and state levels and to 
provide significant resources to implement these strategies.
    Many federal programs currently exist to protect and restore fish 
and wildlife habitat. These programs are not primarily designed to 
address the challenges posed by global warming; however, they are 
essential tools that need to be used more effectively to minimize and 
offset future impacts of global warming on wildlife and habitats. 
Federal land management agencies must make greater use of their 
existing authorities to address the wildlife impacts of global warming, 
and they must be given additional direction to consider these impacts 
in program planning, land and water management, and environmental 
analysis pursuant to the National Environmental Policy Act, the 
Endangered Species Act, the National Forest Management Act, the Federal 
Land Policy and Management Act, the National Wildlife Refuge System 
Improvement Act, the National Park Service Organic Act, and other 
relevant laws. Though the brunt of some global warming impacts may not 
be fully felt for a number of years, planning to address and ameliorate 
those impacts on wildlife and wildlife habitat must begin now.
    Equally important, new governmental processes and structures need 
to be explored that will themselves be resilient and adaptive to the 
threats from global warming. While it is important for each federal 
agency to develop measures for protecting wildlife from the effects of 
global warming, it is insufficient for individual agencies, or even 
individual federal land units, to contemplate and plan strategies 
purely on their own. The problem is simply too complex.
    An effective response to the impact of global warming on wildlife 
requires the kind of measures set forth in the Global Warming and 
Wildlife Survival Act, introduced as H.R. 2338 by Representatives 
Dicks, Inslee and Saxton and as S. 2204 by Senators Whitehouse and 
Boxer. The provisions of H.R. 2338 were included in Title IV of H.R. 
2337, the Energy Policy Reform and Revitalization Act, introduced by 
Chairman Rahall, and passed by the House in July 2007 as Title VII of 
H.R. 3221, the comprehensive energy bill. Though subsequently dropped 
from the energy bill in conference with the Senate, the principal 
provisions of the Global Warming Wildlife Survival Act and the robust 
funding needed for implementation were also included in S. 3306, the 
Boxer-Lieberman-Warner Climate Security Act recently debated in the 
Senate. Additionally, recently introduced climate change legislation in 
the House--Representative Doggett's Climate MATTERS Act (H.R. 6316) and 
Representative Markey's iCAP bill (H.R. 6186) incorporate the Survival 
Act's policy foundation and dedicate funding to address climate 
change's impacts on wildlife and its habitat. However, Defenders 
believes the iCAP bill does not provide a sufficient level of 
investment to soundly implement these provisions. Nevertheless, the 
similarity of the policy prescriptions contained in these many bills 
indicates the strong policy consensus emerging on this subject.
    The Global Warming Wildlife Survival Act provides for dramatically 
enhanced scientific capacity, a coordinated national strategy to ensure 
that wildlife impacts spanning government jurisdictions are effectively 
addressed, and a commitment of federal funds sufficient to carry out 
measures implementing the national strategy by federal, state, and 
tribal authorities. I will address below the need for, and purpose of, 
each of these measures.

A.  Enhanced scientific capacity is essential.
    The scientific capacity of federal agencies is, at present, 
woefully inadequate to address the magnitude of wildlife adaptation 
needs, due, in part, to the unprecedented nature of the global warming 
challenge and, unfortunately, to short-sighted cuts in science budgets 
and staffing. Effectively assisting wildlife adaptation in a changing 
climate requires first and foremost that adequate species and habitat 
data are available and that we understand the fundamental ecosystem 
processes that occur on the landscape.
    From a research and management perspective, the way forward must be 
built upon a solid foundation of species and ecosystem inventories, as 
well as a system of monitoring to determine changes in species numbers 
or distribution, or declines of ecosystem structure and function. The 
coverage of biological inventories across federal, state and private 
lands is insufficient in many areas, but it provides a baseline to 
build upon.
    Inventory and trends analyses generated through a comprehensive 
monitoring program can be applied to analytical and predictive models. 
Based on trends and predictions, federal and collaborative researchers 
can then propose new tools, practices, and strategies on a limited 
pilot or experimental basis to help identify promising approaches to 
assisting wildlife and habitat adaptation to global warming. In 
addition, building rigorous scientific inventory and monitoring 
programs within each federal land management agency to evaluate the 
effects of management decisions and to adapt management responses 
accordingly is essential to successful management of wildlife and its 
habitat in a world undergoing continual change due to global warming.
    Last year, Congress recognized this urgent need for enhanced and 
coordinated scientific capacity to assist in addressing the impacts of 
global warming on wildlife and in developing effective measures to 
respond to those impacts by initiating, through appropriations, 
establishment of a new National Global Warming and Wildlife Science 
Center within the U.S. Geological Survey. Once fully established and 
funded, this national, interagency global warming scientific support 
center will conduct research, develop monitoring protocols and 
downscale models, and directly support federal land management and 
wildlife agencies in responding to global warming. The National Global 
Warming and Wildlife Science Center is to be responsive to the research 
needs of federal and state agencies in conducting scientific research 
on national issues relating to the impact of global warming on wildlife 
and wildlife habitat and mechanisms for adaptation to, mitigation of, 
or prevention of global warming impacts. A key function of the Science 
Center, integrated with climate change research programs throughout the 
federal government, is the detection of changes in wildlife abundance, 
distribution, and behavior related to global warming.
    The Science Center will play a pivotal role in many wildlife 
adaptation responses to global warming that have been identified by the 
scientific community, including the protection and restoration of 
habitat corridors to assist species in shifting their ranges and the 
protection of climate ``refugia,'' areas that are not as vulnerable to 
the effects of a changing climate and are better able to preserve 
biodiversity in the face of climate change. Implementation of these and 
other strategies will require the assistance and direction of the 
Science Center in collecting and integrating many types of data, such 
as current native species distributions, behavior, and habitat 
requirements, regional estimates of how the climate will change, as 
well as estimates of how native species and habitats will respond to 
changing climate. The Science Center also will assist in development of 
downscaled climate-change projections--critical for land managers' 
decision making--that will be needed to predict shifts in vegetation 
and individual plant and animal species distributions in response to 
global warming.

B.  A national strategy for wildlife adaptation to global warming must 
        be developed.
    A national strategy for addressing the impact of global warming on 
wildlife must be developed, with the express purpose of helping 
wildlife navigate the bottleneck of global warming impacts over the 
next century and beyond, until the benefits of reducing greenhouse gas 
pollution and, consequently, global warming, are fully realized. The 
complex threat to wildlife from global warming requires strategic 
planning at a large scale. It makes little sense for each coastal 
national wildlife refuge or national park or state wildlife area, for 
instance, to develop in isolation its own strategies for assessing and 
adapting to rising sea levels. Instead, it would be much more effective 
and efficient to assemble a framework that considers the national 
picture of our changing climate, to ensure common tools and approaches 
at state and local levels are coordinated and meaningful and to ensure 
that funds provided for wildlife adaptation to global warming are spent 
strategically and effectively. An interagency national strategy for 
assisting wildlife in adapting to global warming will deliver this 
coordination.
    This national strategy should examine management issues common to 
geographic areas and threat type (e.g. coastal habitats, sea level 
rise, increased hurricane frequency and intensity; arctic habitats, 
melting pack ice; desert habitats, shifts in precipitation patterns). 
It should ensure that federal agencies develop and implement plans to 
reduce the impact of global warming on wildlife and habitat by 
including prioritized goals and measures to--
    <bullet>  Identify and monitor wildlife populations likely to be 
adversely affected by global warming;
    <bullet>  Identify and monitor coastal, marine, terrestrial, and 
freshwater resources and habitat at greatest risk of being damaged by 
global warming;
    <bullet>  Assist species in adapting to the impacts of global 
warming;
    <bullet>  Protect, acquire, and restore wildlife habitat to build 
resilience to global warming;
    <bullet>  Provide habitat linkages and corridors to facilitate 
wildlife movements in response to global warming;
    <bullet>  Restore and protect ecological processes that sustain 
wildlife populations vulnerable to global warming; and
    <bullet>  Incorporate consideration of climate change wildlife 
adaptation strategies into the planning and management of Federal lands 
and waters.
    State wildlife adaptation strategies are also needed. Every state 
has already completed a wildlife action plan, which identifies at-risk 
habitats and species that need special conservation attention. State 
wildlife adaptation strategies should build on, and be incorporated 
into, those set forth in state wildlife action plans to address global 
warming impacts on wildlife, and they should be coordinated with the 
national strategy. Individual federal and state agencies and land 
management units could then coordinate their management activities with 
these national and state strategies.
    Coordination among federal, state, and tribal natural resource 
agencies is essential in planning and carrying out strategic, watershed 
and landscape scale adaptation activities to maintain or re-establish 
connectivity. Wildlife adaptation activities should be conducted in 
accordance with the national strategy, state adaptation strategies and 
wildlife action plans, and other fish and wildlife conservation 
strategies, including the National Fish Habitat Action Plan, the North 
American Wetlands Conservation Act, Partners in Flight plans, coastal 
zone management plans, regional fishery management plans, and recovery 
plans for threatened and endangered species.

C.  Adequate funding to address global warming's impacts on wildlife 
        must be provided.
    Development and implementation of a national strategy to address 
global warming's impacts on wildlife, providing the necessary science 
to underpin that strategy, and taking action to reduce other stressors 
on wildlife will require substantially more money than is currently 
provided for natural resources conservation. With many of the federal 
land management agencies already facing a fiscal crisis, Congress must 
increase appropriations for federal, state, and tribal conservation 
efforts, and allocate substantial dedicated funding from the sale of 
greenhouse gas pollution allowances to federal, state, and tribal 
conservation agencies, in order to meet the challenge posed by global 
warming.
    The U.S. Fish and Wildlife Service (FWS) has lost nearly 800 staff 
from 2004-2007, an 8 percent reduction. Another 250 staff may be cut 
from the Refuge System alone in the next few years if substantial 
increases in funding are not available. Many wildlife refuge biological 
programs have been reduced or cut altogether, staff has been eliminated 
from entire refuges, and over 200 refuges have no biologists on staff.
    The National Forest System has lost 35 percent of its staff, 
including a 44 percent reduction in inventory and monitoring staff and 
a 39 percent reduction in biologists and biological technicians. Almost 
half of the Forest Service's budget is now consumed by wildfire costs, 
which will only be exacerbated by global warming. Restoring forests 
ecosystems to reduce fuel loads will be increasingly important to 
protect wildlife habitat and human communities. However, the Forest 
Service estimates that 132 million acres of national forests alone are 
in need of restoration, at a cost of billions of dollars.
    A 2000 report estimated that the cost to acquire inholdings in 
national parks, wildlife refuges, and other public lands was $10 
billion. Since then, national real estate values have climbed 72 
percent. Climate change will require additional land protection 
efforts, including partnering with private landowners on term easements 
and leases outside existing federal lands boundaries and will cost 
billions of dollars.
    As Congress develops legislation to cap greenhouse gas emissions, 
it is likely to create a system of emissions credits that can be 
traded. In the process, there is an opportunity to auction these 
credits, producing substantial revenue for the federal Treasury. 
Because a responsible national response to climate change must both 
reduce greenhouse gas emissions and address the impacts of global 
warming, a portion of the revenue generated from the auction of 
emissions credits should be dedicated to federal, state, and tribal 
programs to assist wildlife adaptation to global warming. In the long 
run, this will benefit not only wildlife, but also people and 
communities which derive economic benefits and ecosystem services from 
conservation of wildlife and its habitat. Special emphasis should be 
given to providing funding to address federal responsibilities for 
wildlife and land conservation in the face of global warming. In the 
absence of a new revenue source, however, Congress should increase 
appropriations to agencies to address the threats of global warming to 
wildlife and habitat.

2.  Federal Agencies Can Act Now to Address Wildlife Adaptation to 
        Global Warming
    Even while Congress works toward enactment of comprehensive global 
warming legislation, including enactment of the measures contained in 
the Global Warming Wildlife Survival Act, there is much that federal 
agencies can and should be doing using their existing authorities to 
address wildlife adaptation to global warming. As many businesses are 
now doing, federal agencies should conduct a top to bottom assessment 
of federal resources at risk of adverse impacts from global warming. 
Agencies should use this assessment to establish priorities for 
maintaining their mission and protecting federal assets. While much is 
still unknown, there are still concrete actions each agency can take.
    The assessment of risks and potential conservation problems is 
already generally required of each federal land management agency in 
developing land use plans, and agencies should begin addressing the 
risks of global warming in those plans now. Unfortunately, few federal 
land units, including national wildlife refuges, are addressing this 
serious issue. For example, national wildlife refuges are currently 
developing comprehensive conservation plans (CCPs). Defenders of 
Wildlife conducted exhaustive, site-specific scientific literature 
reviews of the impacts of global warming on wildlife and habitat on and 
surrounding particular national wildlife refuges developing CCPs. 
Defenders synthesized this information for FWS and developed 
recommendations for each of these refuges to address the impacts of 
global warming in their CCPs.
    One of the refuges Defenders addressed, the Merritt Island National 
Wildlife Refuge in Florida, is one of the few refuges with a draft CCP 
that mentions climate change and associated impacts. The refuge is an 
overlay with NASA's Kennedy Space Center and protects low-lying coastal 
marshes as well as beach property. Yet the threat of global warming is 
given only scant treatment in the plan. The CCP states briefly that sea 
level rise could negatively impact the refuge with increased flooding, 
beach and dune habitat loss, saltwater intrusion into freshwater 
habitats, and inundation and accretion deficit, as well as exacerbate 
erosion and transform upland areas into coastal wetlands and high marsh 
into low marsh. Yet, the CCP proposes no actions to address this 
threat. The CCP does not recognize other impacts of global warming 
beyond sea level rise including the spread of invasive species, the 
range shift of terrestrial habitats, the increased risk of red tide 
algal blooms, and the risks of increased temperatures on the breeding 
success of endangered sea turtles and other reptiles.
    As an example of the types of activities and strategies that 
individual land units should now be including in their land management 
plans, Defenders provided the following recommendations regarding the 
land management plan for Merritt Island Refuge:
    <bullet>  The impacts of global warming on the refuge's wildlife 
and habitat must be included throughout the land management plan.
    <bullet>  The FWS should consider the present and future impacts of 
global warming when developing objectives and management actions in the 
land management plan. In the face of uncertainty, the FWS should build 
natural resilience to global warming by focusing resources to reduce 
non-climate related ecological threats.
    <bullet>  FWS should convene a panel of experts to assist Merritt 
Island NWR and other coastal refuges in developing adaptation 
strategies for coastal marshes and other habitats.
    <bullet>  FWS should establish a sea turtle monitoring and research 
network with other Atlantic coast refuges and other agencies to detect 
population changes associated with global warming.
    <bullet>  The FWS land management plan for the refuge should 
include comprehensive research on, and monitoring of, the impacts of 
global warming and their relation to non-climatic stressors to 
ecological systems and management actions, including:
      <all>  Upland habitat shifts
      <all>  Changes in fire regime
      <all>  How fresh and saltwater marshes respond to global warming
      <all>  Changes in seagrass habitat and the relationship to 
manatee populations
      <all>  How southeastern beach mouse responds to sea level rise
      <all>  Changes in the timing of ecological events, including 
horseshoe crab spawning and shorebird migration.
    <bullet>  Global warming should be incorporated into refuge 
infrastructure design and planning.
    <bullet>  Global warming should be incorporated into the refuge's 
environmental education and interpretation programs.
    While these and similar measures are examples of steps national 
wildlife refuges and other federal land management agencies can take 
under existing law to address wildlife adaptation to global warming, 
they are not enough. As set forth in the Global Warming Wildlife 
Survival Act, a coordinated national strategy among federal, state, and 
tribal conservation agencies; expanded, coordinated science capacity at 
the federal level; and adequate dedicated funding for federal, state, 
and tribal measures to assist wildlife adaptation to global warming are 
critically important.

Conclusion
    Global warming is the conservation challenge of our time. The 
success of our efforts to conserve and recover fish, wildlife, and 
other natural resources for future generations of American citizens 
will depend on how well we respond to this challenge. We must act 
immediately to substantially reduce greenhouse gas emissions to halt 
and eventually reverse the changes we are causing to our planet from 
global warming. At the same time, we must take immediate steps as set 
forth in the Global Warming Wildlife Survival Act and which I have 
outlined here today in order to assist wildlife to survive the now 
unavoidable impacts of global warming.
    Madame Chairwoman and members of the subcommittee, on behalf of 
Defenders of Wildlife, thank you for the opportunity to share our 
perspective on this critical issue. We look forward to working with you 
to meet the challenge of reducing global warming's impact on wildlife 
and wildlife habitat so that our children and grandchildren will be 
able to enjoy the abundance, diversity, and wonders of nature that we 
have enjoyed.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Ms. Clark, for your 
testimony.
    Now I would like to recognize Dr. Moritz to testify for 
five minutes.

 STATEMENT OF WILLIAM MORITZ, PH.D., DIRECTOR OF CONSERVATION, 
   SAFARI CLUB INTERNATIONAL FOUNDATION, ACTING DIRECTOR OF 
        GOVERNMENTAL AFFAIRS, SAFARI CLUB INTERNATIONAL

    Mr. Moritz. Good morning. Thank you for the opportunity to 
testify today on behalf of Safari Club International and Safari 
Club International Foundation. Safari Club protects the freedom 
to hunt and promotes wildlife conservation worldwide. And 
Safari Club International Foundation funds and manages 
worldwide programs dedicated to wildlife conservation, outdoor 
education, and humanitarian services.
    The most important point that we would like to make today 
is that wildlife and their habitats are critically important 
considerations in a discussion of potential implications of 
climate change, as many of the other speakers have noted. 
Although Congress has learned the difficulty of finding common 
ground in the climate change debate, we believe that most 
citizens would agree that the fish and wildlife resources are 
vital to the health and well-being of the Nation and the world. 
The needs of the world's fish and wildlife should be considered 
when determining policy direction.
    Emotions have run high when discussing the potential 
impacts of climate change. We encourage Congress to use science 
rather than emotion in developing policies to respond to 
climate change questions and to create appropriate funding 
mechanisms to ensure researchers are able to address critical 
gaps in our current understanding of the possible impacts of 
climate change on fish and wildlife.
    Since our understanding of climate change relies heavily on 
scientific modeling, SCI and SCIF recommend that adequate time 
and resources be allowed to enhance climate change models to 
minimize the amount of uncertainty that is associated with the 
input variables and the predictions that come forth.
    The hunting community has always been and will continue to 
be an integral part of wildlife conservation, nationally and 
worldwide. Sport hunters have a long and proud tradition of 
supporting wildlife conservation, including the enforcement of 
hunting seasons and quotas for harvest. Through the Pittman-
Robertson Act in the United States, revenue from hunting 
licenses and Federal excise taxes on equipment paid by hunters 
have been distributed to all 50 states for more than 70 years. 
Funds used by the states for matching grants under Pittman-
Robertson are largely funded by license fees. However, support 
from the broader public community will be needed to adequately 
manage the potential impacts of climate change and ensure 
states have the necessary resources to monitor and manage fish 
and wildlife.
    Although there is no analogue to the Pittman-Robertson 
program in any other country, the money spent by sport hunters 
goes to provide operating funds for wildlife agencies in many 
countries. Perhaps more importantly, the benefits of sport 
hunting that flow to local people provide incentives for them 
to value wildlife and to help sustain wildlife populations. 
These benefits include: jobs, direct payments to villages, the 
provision of funds from hunting for civic projects in rural 
villages, and the provision of meat from game animals. As human 
populations increase and more pressure is placed on wild lands 
from a variety of sources, it will be critical to emphasize the 
value of wild lands and wildlife when compared to alternative 
land uses. Whether future impacts are caused by climate change 
or other stressors, sport hunting will continue to advance 
sound conservation measures in countries around the world.
    In recognition of the role of sport hunting in wildlife 
conservation, Safari Club International Foundation was recently 
granted non-government observer status by the U.N. and by the 
United National Economic and Social Council. We also 
participate in the deliberations on CITES, as well as the 
Convention on Biological Diversity.
    Let me end by reiterating our main points: wildlife and 
wildlife habitats are essential components in the debate about 
climate change policy. Hunters will promote science-based 
conservation program that ensures wildlife populations are 
sustained for future generations. Climate change policy needs 
to be based on sound science. And funding for conservation that 
has historically come from hunters will need to be enhanced by 
broader support in order to ensure fish and wildlife 
populations are sustained.
    SCI and SCIF, in partnership with the hunting community, 
thank you for the opportunity to contribute to this important 
conversation.
    [The prepared statement of Mr. Moritz follows:]

Statement of Dr. William Moritz, Director of Conservation, Safari Club 
International Foundation, and Acting Director of Governmental Affairs, 
                       Safari Club International

    Key points:
    1.  Wildlife and wildlife habitat are essential components in the 
debate about Climate Change policy.
    2.  Hunters will be part of the solution.
    3.  Climate Change policy needs to be based on sound science.
    4.  Funding for conservation has historically come from hunters but 
more support is needed to ensure fish and wildlife populations are 
sustained.
    Good morning. My name is Dr. William Moritz, Director of 
Conservation for Safari Club International Foundation (SCIF) and acting 
Director of Governmental Affairs for Safari Club International (SCI). 
SCI protects the freedom to hunt and promotes wildlife conservation 
worldwide. SCIF funds and manages worldwide programs dedicated to 
wildlife conservation, outdoor education and humanitarian services. 
Thank you for allowing me to testify today on their behalf.
    Mr. Chairman, the most important point that we would like to make 
to the Committee is that wildlife and their habitats are critically 
important considerations in the discussion of potential implications of 
climate change. Although Congress has learned the difficulty of finding 
common ground in the climate change debate, we believe that most 
citizens would agree that fish and wildlife resources are vital to the 
health and wellbeing of the nation and the world. The needs of the 
world's fish and wildlife should be considered when determining policy 
direction.
    Emotions have run high when discussing the potential impacts of 
climate change. We encourage Congress to use science rather than 
emotion in developing policies to respond to climate change questions, 
and to create appropriate funding mechanisms to ensure researchers are 
able to address critical gaps in our current understanding of the 
possible impacts of climate change on fish and wildlife. Since our 
understanding of climate change relies heavily on scientific modeling, 
SCI and SCIF recommend that adequate time and resources be allowed to 
enhance climate change models to minimize the amount of uncertainty 
that is associated with the predictions and input variables.
    The hunting community has always been and will continue to be an 
integral part of wildlife conservation, nationally and worldwide. Sport 
hunters have a long and proud tradition of supporting wildlife 
conservation, including the enforcement of hunting seasons and quotas 
for harvest. Through the Pittman-Robertson Act in the United States, 
revenue from hunting licenses and federal excise taxes on equipment 
paid by hunters have been distributed to all fifty states for more than 
seventy years. Funds used by the states for matching grants under 
Pittman-Robertson are largely funded by license fees. However, support 
from the broader public community will be needed to adequately manage 
the potential impacts of climate change and to ensure states have the 
necessary resources to monitor and manage fish and wildlife.
    Although there is no analogue to the Pittman-Robertson program in 
any other country, the money spent by sport hunters goes to provide 
operating funds for wildlife agencies in many countries. Perhaps more 
importantly, the benefits of sport hunting that flow to local people 
provide incentives for them to value wildlife and to help sustain 
wildlife populations. These benefits include: jobs, direct payments to 
villages, the provision of funds from hunting for civic projects in 
rural villages, and the provision of meat from game animals. As human 
populations increase and more pressure is placed on wild lands from a 
variety of sources, it will be critical to emphasize the value of wild 
lands and wildlife when compared to alternative land uses. Whether 
future impacts are caused by climate change or other stressors, sport 
hunting will continue to advance sound conservation measures in 
countries around the world.
    In recognition of the important role of sport hunting in wildlife 
conservation, Safari Club International Foundation was recently granted 
non-government observer status by the United Nations and the United 
Nations Economic and Social Council (ECOSOC). SCIF also participates in 
the deliberations of the CITES treaty on wildlife trade and the 
Convention on Biological Diversity.
    Let me end by reiterating our main points: Wildlife and wildlife 
habitats are essential components in the debate about Climate Change 
policy. Some groups will try to convince you that hunting will 
exacerbate the problems of climate change. But the truth is that 
hunters will promote science based conservation programs that ensure 
wildlife populations are sustained for future generations. Climate 
Change policy needs to be based on sound science. Funding for 
conservation has historically come from hunters, and we will continue 
to contribute, but more support is needed to ensure fish and wildlife 
populations are sustained.
    SCI and SCIF, in partnership with the hunting community, thank you 
for the opportunity to contribute to this important conversation.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Moritz, for 
appearing here today and offering your testimony and your 
insights.
    At this time as Chairwoman I would like to recognize our 
Ranking Member, the Acting Ranking Member Mr. Wittman who would 
have questions I am sure for this panel. And if you do have 
questions for the first panel I would like to--do you have some 
for the first panel?
    Mr. Wittman. Yes.
    Ms. Bordallo. Yes. Would the, Megan, would you see that the 
first panel people are placed around the table. There are a 
couple of chairs there. We just need one more chair. Unless you 
can sit on each other's lap.
    All right, please proceed, Mr. Wittman.
    Mr. Wittman. Thank you, Madam Chairwoman.
    A question for Mrs. Davidson. You had given quite an 
extensive overview about the potential impacts of climate 
change. In that assessment is there going to be an effort to 
try to estimate the cost of these adaptation strategies? And 
also, looking at also what the impact is on the value that we 
place in our fish and wildlife populations, and obviously they 
are in a lot of different levels of value, but in other words 
to try to look at what those costs are versus the value?
    Ms. Davidson. I believe you actually asked three different 
questions, Congressman. On the value of our fish and wildlife 
populations, at least the coastal component of that, I do 
believe that there are some efforts underway to do that on a 
more comprehensive basis. We usually tend to do that almost on 
a species by species basis.
    And I would submit that actually I would need to get with 
my colleagues at this table and elsewhere to address that 
question. We have, NOAA funded something called the National 
Ocean Economics Program for the last five years but it does not 
focus on the fish and wildlife so much as the 2-legged critter 
side of coastal ecosystems.
    On your second question you asked about the cost of 
implementation. While you were out of the room making the vote 
we discussed actually at my panel the importance of the 3-prong 
strategy: the science, the development of the strategic plans, 
and then getting to the action. And we do not yet have an idea 
of the cost of action because we do not yet have at all levels 
of government comprehensive strategies. It is in the developing 
of those strategy plans at all levels of government that we 
could actually begin to have an idea of what the actual costs 
of action or implementation might be.
    I do know in a recent informal conference call in which we 
discussed the importance of quantifying these issues we did 
talk about we thought at least from a coastal perspective 
entirely, developing coastal adaptation plans that we were 
probably back of the envelope talking about something on the 
order about $60 to $70 million just to develop the basic 
frameworks. And again, the cost of actually implementing that 
would depend upon the content of those plans.
    But if you were to give the Feds $60 million I think we 
could get on that comprehensive adaptation planning process 
right away.
    Mr. Wittman. Would that be $60 million to NOAA or $60 
million to the agencies across the board?
    Ms. Davidson. Well, I am afraid it was kind of a NOAA-
centric conversation.
    Mr. Wittman. I just wanted to make sure I was clear.
    Ms. Davidson. No, I think it is an important question to 
ask. And one that I think that the interagency community should 
actually take up as soon as possible.
    Mr. Wittman. Let us say in a perfect world that $60 million 
were available do you know the time frame in which you could 
put together this implementation strategy or when that would be 
ready for you to, or if you were to have the dollars how long 
would it take you from that point to have an implementation 
strategy that you would be ready to go ahead and place some 
costs around to recommend what should be done?
    Ms. Davidson. Well, let me say, as you know from working on 
the committee, the more people you have around the table the 
more complex it is to come to a resolution. But we do have some 
good examples on the ground, both Fed, state and local 
examples. So I am just going to take a flyer on this. If the 
money were there I think we could probably see a comprehensive 
coastal strategy, now again speaking just from a coastal 
management standpoint, I think we could probably do that within 
a matter of a few years. By a few years I mean less than five.
    Now, getting from the planning process to making things 
happen, getting folks to relocate physical infrastructure, 
getting people to strategically acquire and create habitat in 
areas where we will need them in a few decades, that could take 
a little bit longer. And I would at least have to discuss with 
Mr. Ashe in order to discuss how we could bring together, for 
instance, the Community Restoration Programs of Interior and 
NOAA to work in a more strategic way.
    Mr. Wittman. Thank you.
    Mr. Whitehurst, if you could talk a little bit about what 
you think the level of Federal assistance that is necessary to 
assist states that have primary responsibility over all 
resident wildlife, if you could give us an idea about what 
level of assistance you believe that you would need in order to 
make sure that that responsibility is fulfilled over all 
resident wildlife in relation to coping with climate change and 
adaptation?
    Mr. Whitehurst. Congressman Wittman, that is a very good 
question. I think the first and most important thing that 
Congress, the direction that Congress needs to provide is to 
direct that a national adaptation strategy be developed. That 
is critical. And I use as a parallel, but on much less 
challenging terms, was the state wildlife action plans. 
Congress gave the states direction to develop those action 
plans. They gave us three years to do it. It took every bit of 
three years to do it. It was quite a challenge but it was led 
by a very successful collaborative effort between the U.S. Fish 
and Wildlife Service and the state wildlife agencies.
    Something, that type of approach is needed for this issue 
but it is much, much larger than anything that we have ever 
looked at before. So I think that is the direction that we 
need.
    Another observation is, you know, now we are in the stage 
of trying to implement these wildlife action plans, and while 
we have had great reaction from the Federal agencies, including 
a very strong endorsement from the Director of the Fish and 
Wildlife Service, it is very interesting to see, you know, 
while the agencies are turning toward these plans they are not 
turning fast enough. As Mr. Brunello said earlier, everybody 
goes back to their stovepipe. So we really need to have an 
adaptation policy strategy that cuts across all different 
aspects of Federal Government and state government because we 
need to focus in a way that we have never focused before. And, 
you know, the Federal Government is a large ship to turn, and 
50 states and six territories also a large ship to turn.
    So we have to turn together and provide the focus that we 
have not done before. We were facing a crisis in wildlife 
before we recognized climate change. That crisis is much more 
challenging now. And we need to have leadership that we had 
with President Roosevelt, Gifford Pinchot and those at the turn 
of the last century to meet this challenge.
    Mr. Wittman. Thank you. An additional question.
    The Virginia Wildlife Action Plan that you had mentioned 
identifies 900 species in need of increased conservation 
efforts. Can you tell us how many of these species are 
imperiled by climate change and what other factors are 
threatening these species in addition to or exacerbated by 
climate change?
    Mr. Whitehurst. Well, climate change is affecting most or 
all these species in one way or another. However, the primary 
stressors for most of them are habitat loss, habitat 
fragmentation, and degradation of habitat through pollution, 
through introduction of non-native species. So that is really 
what we are facing. You know, while we are growing at 
exponential rates in terms of population we have been using the 
land at a much faster rate than population growth. And we just 
really need to look at our consumption land and we need to 
develop new land use policies that will help us manage for 
these habitat needs.
    And I think that is one point that we need to understand, 
we have to have the localities at the table, at attention and 
helping with this because, as you know, Congressman Wittman, 
most land use decisions are made at the local level. And we 
will need to have some new land use planning to address this 
problem.
    Mr. Wittman. You had spoken about non-native species and I 
just wanted to get your estimation about how you believe warmer 
temperatures affect the spread of non-native or invasive 
species?
    Mr. Whitehurst. Well, you have quite an effect. You are 
seeing across Virginia and with Zebra mussels which we did 
successfully eradicate, snakehead fish. We are looking to see 
alligators get to our southern border before long, armadillos, 
probably fire ants. We have now got didymo, which is actually a 
cooler water species. But we are facing tremendous challenges 
from invasive species. But we are facing tremendous challenges 
from invasive species. And as climates warm these species have 
advantage, competitive advantage; as native species are 
stressed out and declining it creates an avenue for invasive 
species to attack, so to speak, and they do. And we need to 
look very seriously at tightening our controls on the transport 
of non-native invasive species into this country and across 
state borders.
    Mr. Wittman. Thank you.
    A question for Ms. Chasis. By the year 2012, China and 
India will build some 800 new coal-fired power plants that will 
emit approximately 2.5 billion tons of carbon dioxide into the 
atmosphere. What is the likely impact of these plants on fish 
and wildlife species residing in the U.S.? And how should the 
international community respond to this issue? I am sorry, 
Chasis.
    Ms. Chasis. Chasis. That is OK.
    Mr. Wittman. My apologies.
    Ms. Chasis. Thank you very much, Congressman.
    I do not know that I am really in a position to answer that 
in full detail. I can certainly consult with my colleagues on 
that. But I do know that what happens in China and India has 
tremendous impacts on the resources in this country. I mean, a 
lot of the climate change impacts that California, for example, 
is experiencing are directly attributable to what is going on 
in China. And actually, our organization has an office in 
Beijing which we opened two years ago for the very purpose of 
providing technical assistance and advice to the Chinese 
government to help in the reduction of greenhouse gases in that 
country and to import some of the lessons learned in this 
country about energy efficiency and the promotion of renewables 
and try to encourage the promulgation of policies there to that 
end.
    But internationally certainly in terms of our oceans, you 
know, we already, as you know, are seeing tremendously stressed 
ocean fish populations as a result of a variety of factors: 
over-exploitation, habitat degradation, pollution from land-
based sources principally. And our firm belief is that if these 
stressed, already stressed populations are going to be able to 
handle the increased impacts of climate change and ocean 
acidification which is a very serious problem, we need to 
really promote the resilience and restoration of those.
    And while you were out taking a vote, I pointed to the 
legislation that this Subcommittee reported out, Oceans 21, as 
an important step in the direction of promoting the resilience 
and health of ocean systems. So I think that is one very 
important step that this committee could take to help fish and 
wildlife populations deal with the impacts of climate change 
and ocean acidification.
    Mr. Wittman. Thank you, Ms. Chasis.
    Mr. Ashe, when developing comprehensive conservation plans 
are national wildlife refuges considering the potential impact 
of climate change? And if so, what are some of the things that 
they have in mind in order to, again, develop these adaptive 
management strategies?
    Mr. Ashe. I think that I will maybe lean on David 
Whitehurst's response to say that as managers are developing 
comprehensive conservation plans for our national wildlife 
refuges they are considering a variety of factors that are 
driving wildlife population response. And for the most part 
those are things that we, that like habitat fragmentation, like 
pollution, like invasive species. And climate change is 
certainly an emerging factor that managers are considering.
    The managers that are now in the midst of completing 
comprehensive conservation management plans, for instance on 
the Upper Mississippi River, have been working on those for 
probably four, three to four to five years in duration. So 
would I say that they have adequately, you know, considered 
climate change in the context of those plans based on what we 
know today? No, I do not believe they have.
    Are they taking steps to consider and deal with climate 
change more effectively today than they were three or four or 
five years ago? I think, yes, they are by looking at things 
like sea level rise, by beginning to think about at least what 
we know at the broad scale in terms of temperature and 
precipitation change. And managers like Mendel Stewart at San 
Francisco Bay National Wildlife Refuge are thinking about 
climate change as they plan large scale restoration projects.
    So there is a direction of change that is occurring with 
the organization. If we look at comprehensive conservation 
management plans that had been developed over the last ten 
years since the Refuge Improvement Act was passed, I would say 
most of those do not address a changing climate. But that in 
itself is changing now.
    Mr. Wittman. Ms. Clark, I would like to ask if you could 
give us maybe your perspective on that question and how the 
development of those conservation plans have an impact and what 
your thought is on that?
    Ms. Rappaport Clark. Sure. Thank you, Mr. Wittman.
    I would in essence agree with Dan generally. When I was at 
the Service not that long ago--seems like a long time ago, but 
not that long ago--we were dealing, we were confronting, you 
know, serious and complex challenges to wildlife in this 
country that extended beyond refuge boundaries, working with 
the states to deal with issues like habitat, invasive species, 
pollution, water shortage. And while, you know, climate change 
was in our rear-view mirror it certainly did not have the 
visibility and the recognition of its impact that it is now 
rightfully enjoying today.
    So the plans that came into being post-Refuge Improvement 
Act really did not consider that. And the ones in the pipeline 
are not considering it to the degree they need to. The 
development of comprehensive conservation plans for refuges 
also need to be better integrated with the work being done by 
the states, the state wildlife action plans, and the planning 
work that is being done by the Forest Service and the Park 
Service. And so because wildlife certainly do not recognize 
borders, as a Federal government the challenge of integrating 
the land planning work of the different agencies in concert 
with the state action plans and Indian Country, frankly, is 
extremely critical.
    But I think Dan very tactfully acknowledged that the refuge 
system plans have a long way to go. Which needs, frankly, I 
think a lot of the challenge, I mean the folks in the Fish and 
Wildlife Service are working and doing the best they can with 
incredibly limited resources. And the budget cuts over the past 
few years and the reduction and compromise to their scientific 
capacity I think has really challenged their ability to do what 
they know they have to do.
    Mr. Wittman. Thank you.
    Dr. Moritz, wildlife has been adapting to various climate 
changes for millions of years. And can you tell us a little bit 
about what your perspective is about today's wildlife that may 
in any way impact its ability to adapt to changes in 
temperature that we are seeing today or, actually, the 
increases in temperature that we are seeing today?
    Mr. Moritz. Well, there will be many species that have 
enough mobility in order to adjust their distributions if 
indeed their habitat types shift as well. The question will be 
primarily on the sufficiency of those habitats as they move up, 
down or north and south, depending on where you are at. There 
has been a fair amount of concern that that ability of the 
species themselves to adjust will not be sufficient. So that 
really complicates the issues of the borders of Federal 
property or states' properties on whether or not they are large 
enough to maintain the habitat types that will be used by these 
species.
    It really brings to the point something that I have not 
heard mentioned yet, and that is that much of the land in the 
United States is in private ownership. And those individuals, 
individual private owners will need to be involved in this 
conversation to a large extent because a great deal of wildlife 
is on that private land. There are plenty of incentive programs 
in a variety of places for private landowners. I will just use 
the conservation title of the Farm Bill as one example. The 
state wildlife action plans are another place where there is 
tremendous opportunity with partnerships on private landowners.
    But because of the concerns with shifting distribution of 
habitat types we need to make sure those folks are involved.
    Mr. Wittman. Thank you, Madam Chairwoman, that is all the 
questions I have at this time.
    Ms. Bordallo. I thank the gentleman from Virginia, Mr. 
Wittman. And I do have just a couple of questions before we go 
on with the third panel. Mr. Ashe, I recognize that you are 
with the Service and not the department, but perhaps you could 
help me with a matter very relevant to today's hearing.
    In February, Deputy Scarlett advised the committee that the 
department had convened three working groups which prepared 
recommendations on steps the Department of Interior could take 
to prepare for and address climate change. Notwithstanding 
promises from the Deputy Secretary, these reports still have 
not been posted on the department's website nor will they share 
them with GAO. Do you know when they will be available? And 
more importantly, do you know when these recommendations will 
actually be incorporated into the Department of Interior 
planning efforts?
    Mr. Ashe. Chairman Bordallo, I would say first I would want 
to take just a moment to commend Deputy Scarlett, Deputy 
Secretary Lynn Scarlett for her leadership in convening the 
Department of the Interior Task Force on Climate Change. And I 
was a member of the DOI Task Force and I sat on one of the 
three subcommittees. The subcommittees were Legal and Policy, 
Land and Water Manager, and Science. And I sat on the Science 
Subcommittee along with a number of colleagues. And I would say 
that each of the subcommittees has submitted a report 
separately and those three reports are now with the Steering 
Committee which consists of bureau directors and assistant 
secretaries.
    And so that is where the reports are at this point in time. 
I do not know when they----
    Ms. Bordallo. Mr. Ashe, do you have any idea when we will 
be able to see the reports?
    Mr. Ashe. I do not, Chairman Bordallo.
    Ms. Bordallo. My next question then is to Mr. Whitehurst. 
You specifically mentioned the strong state/Federal partnership 
that resulted in the development of the state wildlife action 
plans and your belief that the wildlife action plans should be 
used as a framework for integrating climate change into 
wildlife management and planning, saying that it would be the 
most cost effective and efficient mechanism. Can you talk more 
about why you think this is the best approach?
    Mr. Whitehurst. I think for the first time ever all 50 
states and the territories have a blueprint for what we need to 
do for wildlife management. As stated earlier, climate change 
is in many ways an exacerbater to many of the stresses that are 
currently being placed on wildlife. Those plans do require us 
to identify threats and to develop actions to address those 
threats, to monitor and to adapt over periods of time. Those 
are the same processes that we need to use in any type of 
strategy to deal with climate change.
    So I think it is a very good framework. There is nothing 
like it in the history of wildlife management to my knowledge. 
So I think it does serve as a wonderful body of knowledge that 
can be used to address probably the greatest challenge that we 
have seen to wildlife in history.
    Ms. Bordallo. Thank you very much, sir, for that comment.
    And I do want to commend members of the panel, you know, 
when they say states and territories. That pleases me because 
in many instances we are not mentioned.
    My third question is to you, Mr. Ashe--or, I am sorry, Ms. 
Clark. You point out, as did the GAO and a new report issued 
this week by the U.S. Climate Change Science Program that few 
Federal land units are addressing the threats of climate change 
and incorporating it into their planning. The refuge system 
seems to be a prime example of this. And why do you think that 
is and what can we do about it in the short term to kick-start 
this effort?
    Ms. Rappaport Clark. Well, the easy answer is money. But 
let me elaborate. The refuge system is really kind of a 
fantastic suite of lands that were set aside where wildlife 
comes first. So one could argue they should be a great kind of 
foundational anchor for work on wildlife and climate change 
adaptation. The fact of the matter is, though, the budget for 
the refuge system while it has been increasing is woefully 
inadequate to address the demands of wildlife and conservation 
challenges facing this nation. And, indeed, we have watched the 
kind of decline in biologists and certainly the decline in 
scientific capacity in that agency.
    That is serious. It is not lack of will, it is lack of 
capacity. And so the ability to lift up and take it beyond just 
individual units and look at a national strategy, it is a 
national wildlife refuge system made up of five hundred and 
something plus units that should feed into a national strategy. 
This will become very cost ineffective and inefficient for 
wildlife if we reinvent the wheel over and over and over, which 
is why there has been a lot of discussion about the need for a 
national conservation strategy that guides all of our work, 
Federal work, state and territory work, and the private 
initiatives dealing with global warming.
    Ms. Bordallo. You also mention the need for a Global 
Warming Science Center. Now why would that be necessary when 
all the agencies are working on research?
    Ms. Rappaport Clark. Well, I think it is a stretch to say 
all the agencies are working on research. Though it----
    Ms. Bordallo. Well, the majority maybe.
    Ms. Rappaport Clark. OK. There is a fair amount of science 
going on. But if you were to kind of look at the science 
capacities of these bureaus in the Federal Government today 
they are incredibly unbalanced. And while I might show some 
bias to the Fish and Wildlife Service for obvious reasons, the 
science capacity, Dan notwithstanding, the science capacity of 
the Service is not anywhere near equipped to meet the 
challenges of the work necessary to support the management and 
policy decision making of these wildlife biologists.
    A National Science Center I think we believe is also 
extremely important and would be helpful to provide a 
foundation of knowledge and monitoring inventory protocol kind 
of opportunity for the states and territories that too are 
evolving and working on their plans as it relates to climate 
change.
    Having a central repository focuses budget, focuses 
outcomes and ensures collaboration and coordination.
    Ms. Bordallo. Well, I do agree with you, I believe in 
centralization you know, and if we are all going in different 
directions, so it makes sense to me.
    And I want to thank all of the witnesses on the second 
panel. And we will now invite the third panel to come forth.
    I would like to welcome the third panel at this morning's 
public hearing, The Honorable Kaush Arha, Deputy Assistant 
Secretary for Fish, Wildlife and Parks, United States 
Department of the Interior; Dr. John Robinson, Executive Vice 
President for Global Conservation Programs at the Wildlife 
Conservation Society; Mr. Tom Dillon, Senior Vice President for 
Field Programs at the World Wildlife Fund; Mr. Patrick 
Burchfield, Director of the Gladys Porter Zoo; and Mr. Juan 
Pablo Arce, Director of Latin America and the Caribbean 
Programs for NatureServe. I would like to welcome all of our 
witnesses this morning, and thank you very much for being here 
with us.
    And, Mr. Arha, you will be the first one we will hear from. 
And congratulations on your new position. Please begin. And 
remember, gentlemen, the timing, five minutes. Thank you.

  STATEMENT OF KAUSH ARHA, PH.D., DEPUTY ASSISTANT SECRETARY, 
  FISH AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Arha. Well, good morning and thank you, Madam Chair. I 
am Kaush Arha, Deputy Assistant Secretary for Fish, Wildlife 
and Parks for Department of the Interior.
    Thank you for the opportunity to testify today on H.R. 
4455, to present the Administration's strong support for the 
legislation. I offer my deep appreciation to the Chair and 
Subcommittee members for their continued leadership on 
international conservation programs, and to Congressman Young 
for introducing H.R. 4455.
    This committee and the Congress have led the way in 
directing our nation's invaluable efforts in international 
wildlife conservation. The citizens of the United States and 
the world are the beneficiary of your leadership on this issue.
    Secretary Kempthorne and Assistant Secretary Laverty 
appreciate your leadership and have placed a high priority on 
international wildlife conservation and Fish and Wildlife 
Service's Wildlife Without Borders program. Secretary 
Kempthorne has been personally engaged in our Wildlife Without 
Borders initiative and has just returned from a visit to 
Tanzania where he saw firsthand the real impact of our 
programs. I was with him, Madam Chair. And while we were there 
we had a chance to visit with the President of Tanzania, Mr. 
Kikwete. And he told us and asked for the assistance from the 
Secretary on the anti-poaching program that they are trying to 
put forth in that country.
    We met with the Minister of Natural Resources and Tourism 
and she asked for assistance on developing tourism for that 
country which is now the number one industry in that particular 
country and Americans are the biggest sort of group that are 
the tourists in Tanzania.
    We met with the Director of Wildlife Division of Tanzania 
and they sought our assistance in working with wildlife 
corridors between the parks and how we can help them.
    And then we went down to the conservator of the Ngorongoro 
Conservation Authority and he thanked the Secretary for Fish 
and Wildlife Service providing them with the night vision 
goggles that helps all the rangers who are 24 hours protecting 
the 19 black rhinos that we have in that crater at the moment.
    So we look forward to working with our Tanzanian colleagues 
on all those fronts.
    Madam Chair, I wanted to introduce our Wildlife Without 
Borders Programs with this Tanzanian episode. And I am proud to 
be here and state that that program is working and working very 
well and following your lead in international conservation as 
we go forth. It is a program that has developed over the last 
30 years and complements the direction that the Congress and 
this committee has provided with the multi-national species 
conservation programs in protecting African rhinos, African 
elephants, Asian elephants, tigers, great apes and marine 
turtles.
    Let me give you a good example of how this program 
complements those. While I was in Africa in Arusha I went to 
Mawaka where there is a college, African College for Wildlife 
Conservation and Management. And I met very young, fine 
wildlife managers from four countries, from Rwanda, from 
Southern Sudan, from Kenya and Tanzania. And these fine young 
people are fighting one of the biggest issues that is 
confronting Tanzania and Africa which is bush meat, illegal 
trading and practice of bush meat.
    And it is very funny, back in 1900 we had a similar 
situation here. We used to call it market hunting before we 
came up with the Lacey Act and tried to address it. Similar 
challenges are being faced by these people and there is no 
other country and there is no other service that is better 
positioned to address these because Fish and Wildlife and we 
have been at it for the last 100 years and have the rich 
experience of learning from our mistakes and sharing those so 
others do not have to repeat it.
    The Wildlife Without Borders program, as I mentioned, has 
started off and come to age over the last 30 years. It provides 
a comprehensive and strategic view of addressing the pressing 
wildlife conservation needs that are there. And the way we do 
it is a 3-pronged strategy. We focus on the species, under your 
leadership again, on the species that we have the fund on. And 
we complement that with broad regional and national programs 
through the regional, national and also global programs. I 
think since 1995 we have given or awarded grants in excess of 
$18 million under this program. Now, those $18 million have 
leveraged in excess of $54 million. So we are talking about a 
match in the leverage of more than 1 to 3 of a ratio. In short, 
I think we are delivering one of the most cost-effective, on-
the-ground conservation efforts with our Wildlife Without 
Borders program.
    Now, having said that one has to make the case, and I am 
here to do that, that this program has earned its reputation 
and deserves your recognition as it goes forward. And if it got 
your recognition it will be the better for it, and so will be 
the countries that benefit from this particular program.
    I would shortly also mention that in my humble opinion we 
are talking about wildlife conservation overseas 
internationally, and we look at what the challenges are. We 
have gone through a phase of developing and marking protected 
areas and national parks. We have gone through a phase after 
that in working with our community natural resources to work 
with the communities around these protected areas. But the 
challenge we face now is to work with wildlife and humans where 
they coexist. This is the land between the protected areas 
where a lot of wildlife is, and a lot of these big animals like 
the elephants, like the rhinos, like the tigers need to go 
through from one protected area to another. And that is the 
issue that we have confronting and a challenge we need to face.
    I come from Wyoming. Where is the wildlife in this great 
nation that we have? We have one of the greatest wildlife 
resources of anywhere in the world. But most of that is not in 
our parks or our refuges, most of them are out there on private 
lands or in the multi-use public lands, Forest Service lands or 
BLM lands. When I drive from Cheyenne to Cody that is where 
most of the deer and antelope in Wyoming are, not in 
Yellowstone Park. That is the challenge we have in these 
countries like Tanzania, India and Latin American countries. 
And nobody else has managed this wildlife over multiple 
jurisdiction lands where human beings and their activities are 
given due and equal consideration as wildlife than the United 
States has, both at the state and Federal level. That is what 
we have to offer as we go forward.
    One other thing I will mention before I conclude. One of 
the great things that our Wildlife Without Borders program does 
is grow leaders. It grows young leaders in these places that 
can go forth with wildlife management. I have behind me sitting 
Dr. Herbert Rafael. He started the first Master's program in 
Latin America. Today there are 500 graduates from that program 
having a Master's Degree in wildlife. And I have one of the 
theses in my hand that talks about how best to sustainably 
harvest whistling duck eggs so that you can preserve the 
population and also use the eggs at the same time.
    We started the Wildlife Institute of India, developing all 
the wildlife leaders in India that came out of that particular 
program. And I talked to you about the mentor program early on.
    So I would conclude by saying it is a good program. We 
appreciate your support. And we can do a lot more as we go 
forward. Thank you again.
    [The prepared statement of Mr. Arha follows:]

Statement of Dr. Kaush Arha, Deputy Assistant Secretary, Office of the 
 Assistant Secretary, Fish, Wildlife and Parks, U.S. Department of the 
                                Interior

    Thank you for the opportunity to present the Administration's views 
on H.R. 4455, the Wildlife Without Borders Authorization Act. The 
Administration would like to express its support for this legislation. 
H.R. 4455 recognizes the crucial role that the United States plays in 
the conservation of wildlife and natural resources around the globe.
    Wildlife and natural resources are under pressure from growing 
human populations and corresponding changes in land use, pollution, and 
consumption of natural resources. The complexity and diversity of these 
challenges require a coordinated approach led by skilled natural 
resource managers. Unfortunately, many countries containing the highest 
levels of biodiversity are faced with a shortage of wildlife 
professionals who have the capacity to lead multifaceted strategies to 
address the most pressing threats to wildlife.
    Protection of domestic wildlife also requires internationally 
coordinated actions. Many migratory species in the United States, 
including 340 species of migratory birds, rely on foreign soils to 
complete some part of their seasonal cycles. In fact, approximately 30 
percent of the species covered by the Endangered Species Act (ESA) 
occur primarily outside of the United States. In addition, our native 
animals are increasingly exposed to the possibly devastating effects of 
zoonotic diseases that can be introduced through trade and human 
travel. These problems are best addressed in the countries where they 
begin.
    Long-term, sustained wildlife management, capacity building, 
endangered species conservation, strategic habitat conservation and 
environmental outreach, education, and training are tools that can 
address emerging issues in wildlife conservation. The United States 
Fish and Wildlife Service (Service) is in a strong position to 
influence and shape the outcome of wildlife conservation abroad, using 
expertise in management of refuges, fisheries, endangered species as 
well as employment of law enforcement techniques and the best available 
technologies.
    Since its inception, the Wildlife Without Borders program's goals 
have been to initiate, facilitate, and promote meaningful conservation 
efforts across the globe to help ensure conservation of the world's 
diverse species. The first conservation grants issued under the program 
were awarded through the Wildlife Without Borders-Latin America and the 
Caribbean program, to implement the Convention on Nature Protection and 
Wildlife Preservation in the Western Hemisphere and to provide 
expertise in wildlife and habitat conservation throughout the region. 
Since that time, the program has supported more than 800 conservation 
projects around the world.
    Wildlife Without Borders projects provide critical capacity 
building to participants from small grassroots organizations to high 
level government officials. Through the Wildlife Without Borders 
program the first Masters level graduate program in conservation in 
Latin America was created and has since graduated over 400 students. 
Similarly, in India, Wildlife Without Borders financially and 
technically supported the creation of the Wildlife Institute of India, 
which trains all of the nation's wildlife resource managers. The 
program also created RESERVA, the first regional program for training 
protected areas managers of Latin America and the Caribbean.
    Wildlife Without Borders also serves a key role within the Service 
in facilitating bilateral and multilateral dialogues through 
organization of fora such as the United States-Russian Federation Joint 
Committee on Cooperation for Protection of the Environment and Natural 
Resources; the Western Hemisphere Migratory Species Initiative; and the 
US-Mexico-Canada Trilateral Committee for Wildlife and Ecosystem 
Conservation and Management. These fora offer government 
representatives from various countries opportunities to share 
experiences, develop best practices and coordinate international 
wildlife conservation efforts. The Service, through participation in 
such meetings, has developed an understanding of techniques used around 
the world and can better facilitate technology transfer, making 
wildlife conservation more efficient and effective.

H.R. 4455
    H.R. 4455 would codify the Wildlife Without Borders Program, 
incorporating various activities of the Division of International 
Conservation, such as the Multinational Species Conservation Funds and 
the Ramsar Convention on Wetlands, into a more unified and cohesive 
Wildlife Without Borders program. This should provide a coordinated 
approach toward existing and emerging international threats to wildlife 
and natural resources at varying scales.
    H.R. 4455 creates three sub-programs that will operate in concert 
with one another to address threats at the appropriate level. The 
Wildlife Without Borders Species program will implement the 
Multinational Species Conservation Acts and their associated grants 
programs. The Species Program currently allows specialists to share 
information, conduct research, and implement management activities on a 
species by species basis.
    The Wildlife Without Borders Regional Program will address grass-
roots wildlife conservation problems from a broader, landscape 
perspective using capacity building and institutional strengthening as 
primary tools. It will also take the lead in providing assistance to 
and coordinating with other Service programs in conducting 
international activities. While the Service is already involved in such 
efforts, H.R. 4455 will provide additional flexibility in establishing 
conservation partnerships.
    As noted above, under H.R. 4455, the Wildlife Without Borders 
Global Program will implement global habitat and conservation 
initiatives such as the Ramsar Convention on Wetlands and the 
Convention for Nature Protection and Wildlife Preservation in the 
Western Hemisphere. This program will assist the Service in addressing 
threats to wildlife that are global in nature, such as the spread of 
invasive species and wildlife disease.
    The Service has actively cultivated strong relationships with other 
Federal agencies, states, foreign governments, academic institutions 
and non-governmental organizations around the world. The three-pillared 
approach formalized in H.R. 4455 will allow the Service to support 
these relationships in a holistic and comprehensive manner.
    H.R. 4455 also authorizes additional components that could 
strengthen the role of the Service in international conservation, such 
as advisory committees that could help ensure that all Wildlife Without 
Borders activities are strategically developed and implemented. These 
committees could also provide a venue for information sharing and gap 
analysis to help ensure that the Service's International Conservation 
program remains effective and complementary to the work of other 
federal agencies, state and foreign governments, and outside 
organizations.
    International conservation of natural resources is a complex task. 
H.R. 4455 creates a balanced approach to addressing serious global 
wildlife conservation problems while strengthening the Service's 
ability to effectively partner with institutions involved in 
international wildlife conservation. This approach will support 
efficient use of human and financial resources, development of 
effective conservation strategies and sustained commitment of partners 
in maintaining wildlife resources. For these reasons, we support the 
legislation.
    Thank you for the opportunity to testify on H.R. 4455. I would be 
happy to answer any questions at this time.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Mr. Arha, for 
very interesting testimony. And your complete testimony will be 
entered into the official record.
    I please remind the panelists because of the hour in the 
day that we stick to the five minute time.
    Our next speaker will be Dr. Robinson to testify for five 
minutes.

 STATEMENT OF JOHN ROBINSON, PH.D., EXECUTIVE VICE PRESIDENT, 
  GLOBAL CONSERVATION PROGRAMS, WILDLIFE CONSERVATION SOCIETY

    Mr. Robinson. Madam Chair, Congressman Wittman, thank you 
very much for the opportunity to testify on H.R. 4455. I am 
John G. Robinson, Executive Vice President of Conservation and 
Science with the Wildlife Conservation Society which is 
headquartered at the Bronx Zoo. Over our more than 100 year 
history we have established some or helped establish some 150 
national parks, and today help manage scores of others. We work 
to save some of the world's most iconic wildlife species across 
their whole geographic range. Accordingly, we have a keen 
interest in Wildlife Without Borders Act.
    The U.S. Fish and Wildlife Service International Program is 
really a leader in the conservation of global priority species. 
The Service's cost-efficient programs have built technical and 
management capacity, they have leveraged private and corporate 
philanthropy and engaged other Federal agencies in efforts to 
conserve wildlife species. The impact of the Service has been 
enhanced with the multinational species conservation funds 
which have funded the protection of tigers, rhinoceros, great 
apes, elephants and sea turtles.
    I would like to offer three brief points on these funds. 
The first is to stress that the enactment of the Wildlife 
Without Borders Act should not replace the U.S. Government's 
commitment to these species funds.
    The second is a plea to increase budget allocations to 
these funds which are authorized at about $30 million. But only 
appropriations in Fiscal Year 2008 have reached about $8 
million.
    And third, the Wildlife Conservation Society urges 
augmenting these single species efforts with a comprehensive 
approach to conserve flagship or priority species. And I joint 
with my colleague from World Wildlife Fund in submitting to the 
record a joint statement to that effect. The United States has 
a longstanding commitment to assist other countries with the 
conservation of global priority species through the U.S. Fish 
and Wildlife Service. And this regional program has trained 
wildlife professionals around the world in the skills necessary 
to manage their resources.
    Kaush has mentioned some of these and I will mention some 
of them again. I have a personal involvement over the years in 
the establishment and support of the training programs in Costa 
Rica, Brazil, Venezuela and Argentina. I have worked with the 
programs in India. The International Program was responsible 
for the establishment and support of the Wildlife Institute of 
India, among other initiatives.
    The Wildlife Conservation Society would recommend 
continuing to support the successful grant program in Africa, 
maintaining the effective regional programs in Mexico and Latin 
America. And we are starting the Asia program, especially in 
India. In Asia, burgeoning populations and expanding economies 
lead to dwindling natural resources. And the Asian traditional 
trade does prey on bears for their gall bladders, tigers for 
their bones, and rhinos for their horns.
    In order for the U.S. Fish and Wildlife Service to 
effectively administer these regional programs our 
recommendation is the authorized funding level should be at 
least $30 million.
    In addition to these regional programs, the U.S. Fish and 
Wildlife Service's global programs have strong capacity to 
develop strategies to address global threats to conservation 
like climate change, invasive species, emerging wildlife 
diseases and wildlife trade. Let me comment on some of these.
    Wildlife disease spreads as natural habitat is destructed 
and there is increased contact between wildlife and domestic 
animals. The great risk to wild populations from emerging 
diseases spread through the trade is evidence in part by 
disease-related declines in 43 percent of all amphibian species 
worldwide. Perhaps 60 percent of these emerging diseases are 
zoonotic diseases that pass from animals to people: Asian 
influenza, HIV/AIDS, Ebola, West Nile Virus.
    Second, the illegal wildlife trade and unsustainable 
hunting of wildlife poses critical threats to biodiversity 
around the world. A voracious appetite for almost anything that 
is large enough to be eaten, potent enough to be turned into 
medicine, or lucrative enough to be sold is stripping wildlife 
from wild areas.
    Climate change, as we have already heard today, directly 
threatens wildlife species. Up to 10 percent of the world's 
biodiversity may be directly threatened with extinction over 
the next 100 years.
    So the Wildlife Conservation Society recommends that this 
act can help build capacity for wildlife disease monitoring and 
surveillance, that the Service also has the capacity to 
coordinate the U.S. Government's initiatives toward illegal 
wildlife trade and coordinate efforts to mitigate impact on 
climate change.
    The U.S. Government invests significantly in global 
biodiversity conservation through the U.S. Fish and Wildlife 
Service, through the U.S. Agency for International Development 
and the like. But the U.S. Fish and Wildlife Service 
International Program is ideally positioned to help develop new 
relationships and strengthen existing ones among U.S. 
Government agencies.
    I appreciate the opportunity to come before you to share my 
perspective. And the Wildlife Conservation Society appreciates 
the continued support provided by the U.S. Government to 
wildlife conservation. And we strongly support the 
reauthorization of the Wildlife Without Borders Act.
    [The prepared statement of Mr. Robinson follows:]

     Statement of Dr. John G. Robinson, Executive Vice President, 
        Conservation and Science, Wildlife Conservation Society

    Madame Chairwoman, Members of the Subcommittee: Thank you very much 
for the opportunity to testify on the H.R. 4455, Wildlife Without 
Borders Act. I am Dr. John G. Robinson, Executive Vice President, 
Conservation and Science with the Wildlife Conservation Society, which 
was founded with the help of Theodore Roosevelt in 1895 as the New York 
Zoological Society. Headquartered at the Bronx Zoo, WCS seeks to 
conserve wild lands and wildlife, and we operate in 64 countries around 
the world. Over our more than 100 year history, we have helped 
establish more than 150 national parks, and today help manage scores of 
others. We work to save some of the world's most charismatic wildlife 
species across their whole geographic range. Accordingly, we have a 
keen interest in the Wildlife Without Borders Act.
    The Wildlife Conservation Society would like to thank Don Young (R-
AK), the Ranking Member of the Full Natural Resources Committee for 
introducing this piece of legislation and the Subcommittee Chair, 
Congresswoman Bordallo (D-GU) and the Members of the Subcommittee for 
recognizing the need and urgency expressed in the Wildlife Without 
Borders Act. The Act will provide additional support for global 
priority species and landscape level conservation beyond our own 
borders, and recognizes the sentiments of the American people about the 
desperate urgency to conserve the last remaining wildlife and wild 
places of our planet. The Wildlife Without Borders Act both strengthens 
in-country wildlife management and global initiatives to address key 
threats to species conservation, such as climate change, emerging 
wildlife diseases, human wildlife conflict, and the impact of 
extractive industries on wildlife habitats.
    Congressional authorization for the Wildlife Without Borders 
program affirms the leadership of the U.S. Government within the 
international community, underscoring our commitment to our 
international wildlife treaty obligations, and encouraging coordinated 
international efforts to save wildlife species. Passage of this 
legislation supports the objectives of species conservation and 
capacity building of the U.S. Fish and Wildlife Service.
    We should conserve wildlife species because they are integral to 
the functioning of the ecological systems upon which we all depend, 
they are prized across most cultures, and they are critical to many of 
the economic relationships that link people with nature. Species are 
threatened by deforestation, habitat loss, over hunting and fishing, 
emerging diseases, and the dislocations wrought by climate change. Many 
of the most critically threatened species are found in the developing 
countries of Africa, Asia and South America, and as citizens of the 
world, we have a collective duty to protect this planet's biological 
richness. The passage of this legislation will take us a step closer in 
that direction. The Wildlife Without Borders Act will complement 
existing species and landscape-based initiatives and strengthening 
partnerships between the U.S. Fish and Wildlife Service and local 
governments, conservation organizations, other federal agencies 
mandated to assist with global biodiversity conservation
    My testimony recognizes that the Wildlife Without Borders Act will 
backstop existing U.S. Government commitments to the Multinational 
Species Conservation Funds through the support of programs of the U.S. 
Fish and Wildlife Service to strengthen management capacity in 
countries with globally important species. That capacity is essential 
if we are to address global threats to wildlife species.
Wildlife Without Borders Program--Species Program
    The U.S. Fish and Wildlife Service International Program is 
recognized as being a leader is the conservation of global priority 
species, those species which are biologically, culturally, and socio-
economically important, and which are subject to both anthropogenic and 
natural threats. The U.S. Fish and Wildlife Service has provided both 
funding and technical support to countries around the world. Its cost 
efficient programs have built technical and management capacity, 
leverage private and corporate philanthropy, and engaged other federal 
agencies in efforts to conserve wildlife species.
    The impact of the USFWS International Program has been enhanced 
with the Multinational Species Conservation Funds, which, starting in 
1990, has funded successful programs for the protection of tigers, 
rhinoceros, great apes, elephants and sea turtles. Thanks to the 
support of Chairwoman Bordallo (D-GU), Rep. Tom Udall (D-NM) and Rep. 
Henry Brown (R-SC) the House of Representatives has passed a bill just 
last month to develop another species program for great cats and rare 
canids.
    With your permission, I would like to offer three brief points on 
the Multinational Species Conservation Funds. The first is to make 
clear that the enactment of the Wildlife Without Borders Act should in 
no way impact the implementation or limit or reduce the authorization 
levels of the existing and pending species funds. The second is a plea 
to increase budget allocations for these funds. Existing Multinational 
Species Conservation funds have authorized funding levels totaling $30 
million, but only recently have reached $8 million in the FY08 Interior 
Appropriations Act. Actual funding levels for existing programs need to 
be at or near authorized levels. And third, the Wildlife Conservation 
Society urges a more comprehensive approach to species conservation, 
augmenting single species or single taxa efforts, with a flexible 
approach to conserve ``flagship'' or priority species. I know that with 
an appropriate commitment of staff and resources a science-based 
strategy for prioritizing conservation funding for global priority 
species and the cross-cutting threats to conservation, including but 
not limited to climate change, emerging wildlife disease and wildlife 
trade, can be developed.

Wildlife Without Borders Program--Regional Program
    The United States has a long-standing commitment to assist other 
countries with the conservation of global priority species. Training 
wildlife professionals with the skills necessary to manage these 
resources is a hallmark of science-based conservation. The Wildlife 
Without Borders Act emphasizes the focal role capacity building in 
foreign countries plays in promoting conservation action.
    The U.S. Fish and Wildlife Service International Program, beginning 
in the 1980s, helped establish and support, both technically and 
financially, graduate training programs in wildlife conservation in 
Costa Rica, Brazil, Venezuela and Argentina. These programs have 
provided the foundation for the growing management capacity in Latin 
America. In India, the International Program was responsible (through 
its management of India's repayment in rupees of PL 480 humanitarian 
assistance) for the establishment and support of the Wildlife Institute 
of India, as well as conservation assistance to local non-governmental 
organizations, state governments and private entities. Strong national 
programs for the conservation of such species as the tigers, Asian 
elephants, and Asian lions, were the direct result of this support.
    The Wildlife Conservation Society has a long history of working 
with the U.S. Fish and Wildlife Service International Program. Let me 
give one recent example. The northern part of Guatemala, an area known 
as the Peten, is home to the multi-use Maya Biosphere Reserve, 
established in 1990 to protect approximately 16,000 kilometers of 
Guatemalan forests. This is the largest protected area in Mesoamerica, 
and home to more than 95 species of mammals and 400 species of birds. 
WCS has worked with local partners for over 15 years to protect the 
wildlife and forests of northern Guatemala from a wide range of threats 
such as forest fires, unsustainable agricultural expansion, wildlife 
poaching and poorly planned large-scale development projects. With the 
help of the U.S. Fish and Wildlife Service, WCS has been able to: (1) 
plan and monitor the sustainable extraction of non-timber forest 
resources, including local wildlife management initiatives; (2) train 
local people in field research, fire fighting and vigilance skills; and 
(3) monitor populations of key wildlife species.
    The Wildlife Without Borders Act should continue to support a 
successful grant program in Africa, a continent characterized by 
stunning wildlife species living in a huge range of ecosystems, but 
where many governments lack the capacity to steward their natural 
resources. The result is that pressures for short-term results to 
improve living standards often trump sustainable management options. 
The U.S. Fish and Wildlife Service International Program has used its 
limited resources wisely to increase human and institutional capacity, 
mitigate the impact of extractive industries, address issues of the 
illegal trade in bushmeat, and develop species specific conservation 
programs.
    The Wildlife Conservation Society would recommend restarting the 
regional program in Asia, which closed with the exhaustion of PL 480 
funds in 2002. Across Asia, ancient cultures and religions evolved with 
a deep respect for, and dependence on, the natural world. Many of 
Asia's border regions run along the ridges of some of the world's great 
mountain ranges--the Himalayas, Pamirs, Tien Shans, Karakorams, and 
Hindu Kush. These ranges serve as both some of the last great wild 
places left on earth and home to some of the most majestic wildlife. 
The continent contains the last great temperate grasslands left on 
earth--the great steppes of the Central Asian states, Mongolia, China, 
and Russia--as well as significant tropical forests in South Asia, 
South East Asia and Indochina. Everywhere, burgeoning populations and 
expanding economies lead to dwindling natural resources. The Asian 
medicine trade preys on bears for their gall bladders, tigers for their 
bones, and rhinos for their horns. Logging demands destroy forest 
habitats that are home to countless rare wildlife species, and local 
agriculture draws from watersheds, sucking them dry. And wildlife 
markets in Asia have helped spawn emerging diseases, such as SARS, that 
represent a global threat to public health, food security, as well as 
to conservation itself.
    Let me draw on two examples, where the Wildlife Conservation 
Society is especially active. An expansion of the Wildlife Without 
Borders Regional Program could support institution and capacity 
building to help save the unique Pamir Mountains--called ``the roof of 
the world''--shared by Tajikistan, Afghanistan, Pakistan, and China. 
This region is renowned for spectacular scenery, diverse cultural 
traditions, and a great variety of plants and animals. The snow leopard 
and the Marco Polo sheep--both symbols of this mountain world--wander 
across international borders from one country to another, visible 
symbols of a common resource. A regional program could also contribute 
to saving Central Asia's great steppes, which represent the last intact 
temperate grassland remaining on earth. Here, huge herds of Mongolian 
gazelles still number in the millions, moving across the landscape (and 
across borders) in a manner comparable to the migratory spectacle of 
Alaskan caribou or Serengeti wildebeest. Yet for species like the saiga 
antelope, threats have reduced herds once numbering in the millions by 
97% in only 15 years.
    In order for the U.S. Fish and Wildlife Service International 
Program to effectively administer its Regional Program with the 
recommended growth areas in India and Asia the authorized funding level 
would need to be at least $30 million or roughly $5 million per 
Regional Program.
Wildlife Without Borders Program--Global Program
    In furtherance of its mission, the U.S. Fish and Wildlife Service 
implements initiatives through a variety of domestic laws, 
international treaties, and voluntary agreements, and build global 
partnerships critical to benefit international wildlife and wildlife 
habitat conservation. The U.S. Fish and Wildlife Service International 
Programs also works in partnership beyond formal treaties and 
agreements to address cross-cutting threats such as emerging wildlife 
diseases, climate change, invasive species, wildlife trade, and human-
wildlife conflict. While the section of the bill entitled ``Global 
Program'' is crafted in general terms with little criteria, I suggest 
that congressional authorization would allow the agency to address 
these types of threats with increased capacity and flexibility. Let me 
elaborate on three threats in which the USFWS International Program has 
a special capacity.

Wildlife Diseases
    As natural habitat is disrupted, and there is increased contact 
between wildlife and domestic animals, disease have increasingly 
threatened wildlife species. The great risk to wild populations from 
emerging diseases spread through trade is evidenced in part by the 
declines of 43% of all amphibian species worldwide, with one major 
cause being Chytridiomycosis, a fungal disease believed to have been 
spread by the international trade in African Clawed Frogs. Avian 
Influenza threatens a wide variety of different species, often 
dramatically. For instance, an estimated between 5% and 10% of the 
world population of the barheaded goose (Anser indicus) perished in an 
avian influenza outbreak at China's Qinghai Lake in spring 2005. Many 
of these emerging diseases (and perhaps 60% of the 1,400 known 
infectious diseases) are zoonotic--diseases that can pass from animals 
to people. Avian influenza, HIV/AIDS, SARS, Ebola, monkey pox and West 
Nile virus are just some examples of the link between the health of 
people, domestic animals, wildlife and the environment. More than 35 
new infectious diseases have emerged in humans since 1980--one new 
infectious disease in humans every 8 months. Consequences of new, more 
virulent and mutating pathogens can be devastating for humans and 
animals. An estimated 40 million people worldwide live with HIV/AIDS, a 
disease that came from wild primates and spread to people through the 
consumption of primates, with 3 million AIDS-related deaths reported in 
2006. Infectious diseases affect food production, food security and 
impact virtually every major global industry--including financial, 
travel, trade, and tourism sectors worldwide. In the current avian 
influenza crisis, with hundreds of millions of domestic fowl culled to 
date, direct economic costs are already in the tens of billions of 
dollars.
    Emerging wildlife-related disease threats, including but not 
limited to those arising at the wildlife / livestock / human interface, 
should be addressed at national, regional or global levels as needed 
through adequate surveillance, science-based policy and 
interdisciplinary response to reduce the risk of negative impacts on 
wildlife conservation, livestock agriculture, and/or public health. The 
Wildlife Conservation Society recommends that the Wildlife Without 
Borders Act strengthen increased capacity building for wildlife 
diseases monitoring and surveillance activities and lay the foundation 
for U.S. Fish and Wildlife Service to establish a comprehensive 
worldwide wildlife health surveillance system to enhance preparedness. 
We believe that the Service is strongly placed to coordinate 
interactions and dialogue between other U.S. government agencies, 
multilateral institutions, national governments, conservation 
organizations, veterinary and medical schools, and other partners.

Illegal Wildlife Trade
    The illegal trade and unsustainable hunting of wildlife pose 
critical threats to biodiversity around the world. While ecologically 
rich tropical forests tend to be the genesis for most of global 
wildlife trade, the practice has become extremely pervasive with 
illegal wildlife and wildlife products being traded in markets around 
the world and often transported to countries such as the United States 
in large quantities. The problem has escalated dramatically in recent 
years with depleting forests and massive economic development 
manifested through construction of roads that have opened up forests to 
loggers and other resource extractors. Hunting rates by local people 
rise as they hunt increasingly for sale as well as for subsistence, and 
as new roads facilitate access to better hunting technologies.
    The result is that, across the landscape, both inside and outside 
parks and reserves, people are harvesting wild species at ever-
increasing rates. A voracious appetite for almost anything that is 
large enough to be eaten, potent enough to be turned into medicine, or 
lucrative enough to be sold, is stripping wildlife from wild areas--
leaving empty forests and an unnatural quiet. This not only is a 
conservation crisis but also remains a key issue of global health and 
security as wildlife and animal products transported around the world 
could potentially can transmit serious diseases.
    Due to existing U.S. Government and international investment such 
as the Coalition Against Wildlife Trade (CAWT) and the Convention on 
International Trade of Endangered Species of Flora and Fauna (CITES) a 
global effort to curb illegal wildlife trade is currently underway. WCS 
recognizes the leadership of the U.S. Fish and Wildlife Service in 
addressing this crisis through the existing species funds and the 
regional programs. I urge this panel to ensure that illegal trade of 
wildlife and wildlife products remain a priority concern for the 
Wildlife Without Borders Act and support to curb these activities 
continue to be funded at maximum levels.

Climate Change
    Recent estimates suggest that up to 10% of the world's biodiversity 
may be directly threatened with extinction over the next 100 years by 
global warming. Mitigating the impact of climate change on wildlife 
species will require the maintenance of connectivity across the 
landscape. Global warming is a threat equal to deforestation and 
habitat loss in many areas. Species living in high latitude and high 
altitude environments will be the first to see rapid changes in their 
habitat. The iconic Polar bear is just the harbinger of a wider problem 
that is already directly affecting the health and persistence of many 
species. And of course as climate changes, so does the distribution of 
pathogens and the vectors that carry them, reinforcing the importance 
of emerging and resurging diseases to conservation, agriculture, and of 
course human health and well-being.
    Climate change related legislation proposed in both the House and 
the Senate have included provisions for wildlife adaptation. Strategies 
to direct general revenue generated from the sale of emission 
allowances to a Wildlife Adaptation Fund should include both wildlife 
in the United States as well as global priority species around the 
world. In 2007, WCS joined 20 other member organizations of the 
Multinational Species Conservation Funds Coalition to urge Chairman 
Rahall to include wildlife adaptation funding though the New Direction 
for Energy Independence, National Security and Consumer Protection Act 
to benefit key programs administered the U.S. Fish and Wildlife Service 
International Program. I include a copy of this letter in the appendix 
section of my testimony. Such wildlife adaptation set asides are likely 
to generate significant new resources for wildlife related programs, 
and I encourage this panel to ensure that programs administered by the 
USFWS International Program and outlined in the Wildlife Without 
Borders Act continue to be considered in these strategic investment 
decisions.
    In order for the USFWS to effectively administer its Global Program 
with the recommended growth areas to address cross-cutting threats 
related to climate change, emerging wildlife disease and illegal 
wildlife trade the authorized funding level would need to be at least 
$50 million or such sums as are necessary.

Strengthening Coordination of U.S. Government Investment in Wildlife 
        Conservation
    The U.S. government invests significantly in global biodiversity 
conservation, through the U.S. Fish and Wildlife Service International 
Program, the U.S. Agency for International Development, the U.S. State 
Department and other agencies. Such investment is important for (1) 
directly supporting the conservation of biological diversity, globally 
important wildlife species, and significant wild lands and ecosystems, 
(2) promoting good governance and management capacity in countries 
around the world, and (3) supporting peace and security initiatives. 
Supporting and promoting transparent and equitable resource governance 
systems has beneficial social, economic, and environmental 
consequences, and is an important pathway towards democracy at local, 
regional, and national levels.
    The success of the Wildlife Without Borders program has 
traditionally been in providing support for capacity building, long-
term in-country wildlife management, endangered and migratory species 
conservation, strategic habitat and natural area conservation, and 
environmental outreach, education and training. Leveraging funds 
granted by the U.S. Fish and Wildlife Service International Program has 
been one of the hallmarks of the department's success. Since 1990, the 
Multinational Species Conservation Funds has provided $73 million in 
grants for programs in Africa, Asia and Latin America and leveraged 
$225 million in partner contributions. Wildlife Without Borders has 
made $18 million in grants and generated $54 million in matching funds.
    Grants from the U.S. Government funds can also amplify fund raising 
opportunities for other organizations. For example, funding from the 
Rhino-Tiger Conservation Fund has been instrumental to the Wildlife 
Conservation Society in the development and on-going implementation of 
tiger conservation projects across the range of the species. The funds 
have directly leveraged private support from the Save the Tiger Fund of 
the National Fish and Wildlife Foundation which receives funds from 
ExxonMobil. In addition, early support from the U.S. Government has 
helped WCS develop our Tigers Forever initiative which, in turn, has 
garnered commitments of $10 million over the next decade. Leverage can 
also be measured through long-term sustainable partnerships. Our 
experience working in partnership with implementing agencies of the 
Congo Basin Forest Partnership and the Amazon Basin Conservation 
Initiative have led us to believe that a coordinated effort in 
cooperation with other federal agencies, foreign governments, 
international institutions and non-governmental organizations ensures 
the maximum utilization of limited financial resources. The Congo Basin 
Forest Partnership and the Amazon Basin Conservation Initiative--made 
up of a consortium of international institutions, national governments 
and international NGOs--has leveraged millions of dollars and has 
institutionalized the protection of valuable tropical forests.
    Because of the pivotal and catalytic role played by the U.S. Fish 
and Wildlife Service International Program, I am confident the Wildlife 
Without Borders Act will help develop new relationships and strengthen 
existing ones through increased collaboration among U.S. Government 
agencies. I also urge the Subcommittee to take note of the success in 
leveraging private donations, matching grants and in-kind contributions 
by conservation groups, corporations and other private entities.

Conclusion
    I appreciate the opportunity to come before this distinguished 
panel to share my experiences and expertise on global wildlife 
conservation. The Wildlife Conservation Society appreciates the 
continued support provided by the U.S. Government to wildlife 
conservation, and we strongly support the reauthorization of the 
Wildlife Without Borders Act. We also urge that you consider 
authorizing a budget of between $30 and $50 million, which would allow 
strengthening Regional Programs in Africa, Asia and Latin America, and 
develop Global Programs that would be able to address cross-cutting 
global threats such as emerging wildlife diseases, the illegal trade in 
wildlife species, and climate change. I would be happy to answer any 
questions
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Robinson.
    And now, Mr. Dillon, I want to thank you for being here 
today to testify on H.R. 4455.

STATEMENT OF TOM DILLON, SENIOR VICE PRESIDENT, FIELD PROGRAMS, 
                      WORLD WILDLIFE FUND

    Mr. Dillon. Madam Chair, Representative Wittman, thank you 
for the opportunity to testify today. My name is Tom Dillon, I 
am the Senior Vice President at World Wildlife Fund for Field 
Programs. For more than 45 years, WWF has been protecting 
nature throughout the world. We work in about 100 countries 
with the support of six million members worldwide.
    Let me begin by recognizing your leadership, Chairwoman 
Bordallo, as well as that of Ranking Member Brown, in raising 
the profile of species conservation throughout the 110th 
Congress. With the series of hearing sand legislation that this 
Subcommittee and the Committee as a whole have considered 
during this Congress, I think you have done a tremendous job in 
advancing U.S. efforts in international species conservation.
    From my own observations from spending most of my career 
working in international conservation and living outside of 
this country I have seen a lot of great examples of the 
multinational species funds working. I think one of the 
astounding ones, for instance, is Cambodia where tigers are 
coming back to eastern Cambodia which is an area that suffered 
from 50 years of civil war and strife and which while the 
habitat was still there all the mammals basically were killed 
off. And they are returning. And that is the Fish and Wildlife 
Service support is critical for that.
    There are a lot of other examples I could give, some of 
them are in my written testimony.
    I think the regional program also fulfills a critical need 
by providing flexible international conservation funding that 
is not targeted at a single species. And it has been really 
successful in capacity building. And I think that that was 
pointed out well by Dr. Arha in terms of the, for instance, the 
mentor program in Africa.
    WWF reads this legislation to take the three programmatic 
areas of the Fish and Wildlife Service International Program 
and place them under one heading of the Wildlife Without 
Borders programs. And we see great value in doing that in that 
it will foster greater synergy among these programs and greater 
consolidation.
    While we do not read the bill as subsuming or superseding 
the independent authorized levels of the specific species 
bills, we hope that there is not any confusion on that point. 
We understand the resources provided by this bill to be 
additional to those resources. And that they would also not 
supersede the baseline funding the Fish and Wildlife Service 
receives, that this would be outside of the international 
affairs administrative budget.
    We think that the $5 million proposed though is far too 
low. The $30 million as proposed by Dr. Robinson I think would 
be much, much more appropriate. And that most of the new 
funding should go into the regional and global programs.
    The global program, however, that is proposed in this bill 
I think needs more specific language. It appears to be very 
useful in terms of providing flexibility to the Fish and 
Wildlife Service and to programs that are not already covered 
but its language I think needs greater elaboration on scope, 
description of activities, priority setting for potential 
funding. The language establishing the global program could, 
for instance, address some of the global crises we are seeing, 
such as the one discussed in the last panel, the climate change 
and how it is affecting species.
    I think that the disease issue that Dr. Robinson brought up 
is also highly, very important. And it ties into a lot of other 
issues outside of the environmental field such as national 
security when you think about diseases such as Ebola and the 
potential for them to reach the U.S. And we can be dealing with 
this through species conservation, in fact they are making 
efforts to do that already.
    So we consider the global program to be a useful addition 
to the current Fish and Wildlife Service suite of programs but 
not an adequate response. What is needed probably is a new 
paradigm for international conservation. And this program could 
be considered, the one we are talking about today, a place 
holder potentially for further congressional direction and 
funding on addressing the current extinction crisis that is 
taking place across the planet. But we believe that a broader 
approach is necessary and ought to be discussed. WWF would be 
very happy and prepared to work with the Subcommittee and 
Committee on discussing best ways to address these broader 
needs. We would support a separate hearing on a global approach 
to species conservation with the goal of developing legislation 
consistent with the attachments to this testimony that I have 
provided.
    In conclusion I would like to thank you for the opportunity 
to testify today. My organization would like to endorse this 
bill with the suggested changes that I mentioned. There is much 
to be gained in authorizing the international conservation 
programs of the Fish and Wildlife Service and creating one 
umbrella to promote synergies, efficiencies and coordination. 
We think it is an important step toward redefining the approach 
to international species conservation.
    Madam Chair, I cannot emphasize how important your work has 
been in protecting some of the world's most endangered and 
iconic species. We look forward to working with you and other 
members of the Subcommittee and your respective staff on these 
most important efforts. Thank you.
    [The prepared statement of Mr. Dillon follows:]

 Statement of Thomas Dillon, Senior Vice President for Field Programs, 
                          World Wildlife Fund

    Madam Chair, Mr. Ranking Member, and members of the Subcommittee, 
thank you for the opportunity to testify today. My name is Thomas 
Dillon, and I am the Senior Vice President for Field Programs at the 
World Wildlife Fund (WWF). For more than 45 years, WWF has been 
protecting the future of nature. Today we are the largest multinational 
conservation organization in the world. WWF's unique way of working 
combines global reach with a foundation in science, involves action at 
every level from local to global, and ensures the delivery of 
innovative solutions that meet the needs of both people and nature. We 
currently sponsor conservation programs in more than 100 countries, 
thanks to the support of 1.2 million members in the Unites States and 
more than 5 million members worldwide.
    I am pleased to be here today to discuss H.R. 4455, the bill being 
considered by the Subcommittee that would improve the Wildlife Without 
Borders Program of the U.S. Fish and Wildlife Service (FWS) 
International Affairs Office, and to discuss international species 
conservation more broadly.
    Let me begin by recognizing your leadership, Chairwoman Bordallo 
and Ranking Member Brown, in raising the profile of species 
conservation throughout the 110th Congress. With the series of hearings 
and legislation that this Subcommittee and the Committee as a whole 
have considered during this Congress, you have done a tremendous job in 
advancing U.S. efforts in international species conservation. This 
includes enactment into law of bills to reauthorize the Rhinoceros and 
Tiger Conservation Act and the African Elephant Conservation Act (H.R. 
50), sponsored by Rep. Young, as well as to reauthorize the Asian 
Elephant Conservation Act (H.R. 465), introduced by Rep. Saxton. It 
also includes House passage of the Great Cats and Rare Canids 
Conservation Act (H.R. 1464), introduced by Rep. Tom Udall and the co-
chairs of the International Conservation Caucus, as well as the Crane 
Conservation Act (H.R. 1771), introduced by Rep. Baldwin, both of which 
have moved to the Senate for its consideration. This success would not 
be possible without the strong bipartisan support within the Congress 
that these programs enjoy, and the exemplary management of these 
programs by the FWS. I would also like to take a moment to commend the 
staff of the Subcommittee and Committee members for their dedicated 
work.
    My testimony today will discuss: (1) the overall importance of H.R. 
4455 and the Wildlife Without Borders Program; (2) WWF collaboration 
with the FWS as a partner in the WWB Program; (3) some specific 
comments on the legislation; and (4) lastly, our recommendation that 
the Subcommittee begin to consider a new paradigm in international 
species conservation, modeled on the existing multinational species 
conservation programs, and incorporating the elements of the WWB 
program, but on a scale that seeks to address the magnitude of the 
extinction crisis now taking place around the world.

The Wildlife Without Borders Program
    The Wildlife Without Borders (WWB) Authorization Act, H.R. 4455, 
defines the purpose of the bill as:
        ``to provide capacity building, outreach, education, and 
        training assistance in endangered species and strategic habitat 
        conservation to other nations by providing international 
        wildlife management and conservation programs through the 
        Wildlife Without Borders Program''.
    The WWB Program brings three elements of the FWS international 
programs together under a single title. It incorporates the 
Multinational Species Conservation Fund (MSCF), benefiting African 
elephants, rhinoceros and tigers, Asian elephants, great apes, marine 
turtles, and potentially soon great cats and rare canids, and cranes. 
These programs are referred to as the Species Programs. It also 
incorporates the Wildlife Without Borders regional program, which helps 
strengthen local wildlife management capabilities and provides 
flexibility to FWS in regions not covered by the species programs. 
These programs are referred to as the Regional Programs. A third 
category addresses the Service's support for international conventions 
and treaties, and provides a vehicle for addressing cross-cutting 
issues that are not covered by the previous two programs. These 
activities are referred to as the Global Programs.
    Species Programs. The five mammal and turtle programs of the 
Multinational Species Conservation Funds (MSCF) provide funding for 
grants to support law enforcement, mitigate human-animal conflicts, 
conserve habitat, conduct population surveys, and support public 
education programs. The first of these species programs was authorized 
in 1989 when Congress passed the African Elephant Conservation Act to 
help protect African elephants from rampant poaching for ivory. 
Subsequent programs were added as Congress saw the need to protect 
other keystone species that were threatened by poaching, habitat 
destruction, civil strife, or demand for bushmeat in impoverished 
areas.
    Since 1990, Congress has authorized five programs at a total of $30 
million, while appropriations in Fiscal Year 2008 were $7.9 million. 
These programs have an excellent record of leveraging additional funds 
from public and private partners. Total funding for the MSCF from FY 
1990 to FY 2007 totaled $52 million, and was supplemented by $128 
million in matching contributions, a ratio of 2.5 to1. Partners have 
included other developed countries, such as Holland, Germany, France, 
UK, and the European Union, private corporations like Exxon-Mobil and 
Disney, non-government organizations, and host country agencies.
    These funds provide critical assistance to struggling species. 
Tigers are seriously threatened in India, where populations have fallen 
from an estimated 3,600 animals in 2002 to 1,400 today, and in Sumatra, 
where poaching and open sale of tiger products continues unabated. In 
China, the government is considering lifting the ban on internal trade 
in tiger parts to accommodate tiger farmers, an action that would 
unleash another round of poaching pressure on these great cats in 
neighboring countries.
    Asian elephants face ongoing difficulties in South and Southeast 
Asia, where reduced habitat and human-animal conflicts over cropland 
threaten remaining wild populations. FWS has worked with its partners 
to develop innovative solutions--such as the use of domesticated 
elephants to guard plantations in India and Indonesia and the use of 
chili peppers as a deterrent to elephant depredations around cultivated 
areas--which have succeeded in reducing deaths of both animals and 
humans. In South Sudan, crucial support from the African Elephant 
Conservation Fund allowed for aerial surveys of this war-torn region, 
revealing large herds of elephants and migrations of antelope that 
rival the Serengeti. The promise of future tourism will contribute to 
greater economic security for an area that has seen much civil strife.
    This year, the Marine Turtle Conservation Fund (MTCF) is expected 
to receive almost 100 qualified proposals totaling more than $5 
million, far surpassing the available funding. These projects relieve 
pressure on turtles and their eggs on nesting beaches by guarding 
against poaching and supporting turtle-based tourism as an alternative 
source of local employment. The Great Apes Conservation Act has made 
critical contributions to the control of bushmeat hunting and the 
spread of wildlife diseases like ebola to humans.
    Regional Programs. The Wildlife Without Borders Regional Programs 
have focused largely on capacity-building and training to augment 
conservation management capabilities in developing countries. The 
Regional Programs were initiated in 1995 and have largely benefited 
Mexico, Latin America and the Caribbean. Smaller programs in Russia, 
China and India have recently been joined by a regional program for 
Africa. These programs not only complement the species programs by 
providing capacity-building, they also provide added flexibility to the 
FWS when conservation needs arise outside the habitat of species 
covered by the MSCF. The WWB Regional Programs have enjoyed a 
corresponding record of leveraging additional funds from external 
partners, having awarded a total of $18 million and generated more than 
$54 million in partner contributions.
    Global Programs. The third set of programs managed by the USFWS are 
the Global Programs, which currently include support for United States 
involvement in the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES), the RAMSAR Convention on 
Wetlands of International Importance, the Western Hemisphere Migratory 
Species Initiative, and other international treaties and conventions. 
Participation in these accords provides opportunities for the United 
States to exercise leadership in shaping international conservation 
policy.
    Up until now ``Wildlife Without Borders'' has generally referred to 
the Regional Programs of FWS International Affairs. H.R. 4455 would 
expand the definition of ``Wildlife Without Borders'' to encompass all 
of the international programs of FWS--the Multinational Species 
Conservation Funds, the Wildlife Without Borders Regional Program, and 
several cross-cutting global initiatives.
    Given these distinct responsibilities, we see H.R. 4455 as an 
effort to bring the three functions together under a single title, to 
supplement existing sources of funding for these activities, to codify 
the Regional Programs as a grant program distinct from the 
administrative functions of the International Affairs Division, and to 
set the stage for a broader global program that would provide greater 
flexibility for FWS to respond to conservation needs that are outside 
the realm of the species programs or the regional programs.

WWF Collaboration with FWS International Programs
    Before commenting on specific aspects of the legislation under 
consideration, I'd like to speak for a moment about some of the 
partnerships between WWF and FWS through its international programs, in 
particular WWF's experience working in collaboration with the 
individual species programs and the WWB regional programs.
    The grants for individual species conservation come through a 
number of separately authorized funds, and while these grants can be 
modest in size, their focused nature and their proven ability to 
leverage private funding (on the order of 2.5 to 1) has made them 
highly effective programs for supporting targeted programs in priority 
areas. Through the Rhinoceros and Tiger Conservation Fund, WWF has 
partnered with FWS on a number of projects to protect tiger populations 
in Asia, including work to update information on populations and 
habitat in order to determine what areas will be able to support viable 
tiger populations in the future. Particular effort has been focused on 
the Indonesian province of Riau on the island of Sumatra, which 
supports one of the last remaining habitats for the critically 
endangered Sumatran tiger. There were once two other subspecies of 
tigers on the Indonesian islands of Bali and Java, but these 
populations were driven to extinction over the course of the 20th 
century. The last observation of a Javan tiger was recorded in 1976. 
Sumatra is now the last stronghold of tigers in Indonesia, and their 
future there is uncertain as well, with the Sumatran tiger now 
numbering fewer than 400 individuals in the wild.
    The main drivers of species loss in this instance are rapid 
deforestation and rampant poaching. A recent survey found that tiger 
body parts--including teeth, claws, skin, whiskers and bones--were 
available for sale in 10 percent of the 326 retail outlets surveyed in 
28 cities and towns across Sumatra. These body parts are sold for use 
in traditional Chinese medicines and as souvenirs and decorative 
pieces. The problem is largely one of law enforcement, with a need for 
much more vigorous anti-poaching efforts on the part of Indonesian 
authorities. WWF has partnered with FWS to provide accurate and up-to-
date data on tiger distribution and ecology while building local 
capacity for tiger conservation. We have also been working to raise 
awareness among local communities about the need to protect the last 
populations of these great cats before they are gone for good.
    Through the Asian Elephant Conservation Fund, WWF has also 
partnered with FWS to protect populations of Asian elephants in a 
number of priority regions. In Cambodia, WWF has engaged in protected 
area management and law enforcement patrols, as well as monitoring and 
research in areas containing important elephant populations. At the 
same time, WWF has worked to build local capacity for these elephant 
conservation efforts. In Nepal's Terai Arc region, WWF has used money 
provided by FWS to restore transboundary biological corridors between 
Nepal and India, helping to improve elephant habitats, address human 
and elephant conflicts in the corridor areas, and increase awareness in 
local communities--an important step to prevent such conflicts from 
arising. Also in Nepal, WWF has used funding from FWS to treat park 
patrol elephants for tuberculosis, which can appear in captive 
elephants and subsequently put wild populations at risk of 
transmission.
    Through the Marine Turtle Conservation Fund, WWF has worked with 
FWS to study and protect vulnerable turtle populations in Mexico, the 
Caribbean and East Africa. The work undertaken through this Fund has 
helped to support community-based conservation projects that strengthen 
local capacity for marine conservation as well as local livelihoods. 
Some of this funding has also gone towards studying climate change 
impacts on marine turtles.
    WWF has been a partner with Wildlife Without Borders Regional 
Programs on a number of initiatives. Through the WWB Program for Latin 
America and the Caribbean, WWF has received funding for a regional 
``Train-the-Trainer'' workshop on protected area management in the 
Tropical Andes and Amazon region. The workshop, based in Ecuador's 
Podocarpus National Park, is helping to teach new skills, techniques, 
and methods to park rangers throughout the region. WWB has also helped 
to fund a guidebook on ``Migratory Species of the Western Hemisphere'' 
to support awareness of the Western Hemisphere Migratory Species 
Initiative (WHMSI). This document will act as an essential educational 
and promotional tool to raise the profile of WHMSI while communicating 
the importance of conserving migratory species.
    WWF has received significant funding from FWS through the newest of 
the WWB regional programs, Wildlife Without Borders--Africa. FWS 
launched the Africa regional program in 2007 by awarding a $500,000 
grant for the Mentoring for Environmental Training and Outreach in 
Resource Conservation (MENTOR) Fellowship Program The grant, which is 
one of the largest ever given by FWS, is shared between the Africa 
Biodiversity Collaborative Group (ABCG)--a consortium of major U.S. 
conservation NGOs with field programs in Africa currently based at 
WWF--and the College of African Wildlife Management in Mweka, Tanzania, 
established 45 years ago by WWF's founder, former president and 
chairman emeritus, Russell E. Train. MENTOR is supporting capacity 
building, training and career development of emerging African 
conservation leaders in order to build a network of leading wildlife 
professionals in East Africa who can develop and implement solutions to 
reduce illegal and unsustainable bushmeat exploitation at local, 
national and regional levels.
    Eight MENTOR Fellows were selected from four East African nations--
Kenya, Southern Sudan, Tanzania and Uganda--and are currently pursuing 
academic studies at the College of African Wildlife Management. One-on-
one mentorship is the foundation of the 18-month program. Four highly 
experienced African conservation professionals are working side-by-side 
with the Fellows to conduct bushmeat assessments, implement field 
projects, and draw up plans for interventions in their respective 
countries. Upon completion, the Fellows will have received substantial 
practical, solutions-based field training, in addition to a post-
graduate diploma.
    MENTOR Fellows are currently engaged in conducting bushmeat 
assessments and drawing up plans for interventions in their respective 
countries. Among the planned interventions that Fellows are working on 
are education and awareness campaigns targeted at both local and urban 
markets for bushmeat, and efforts to expand and enforce wildlife laws. 
In some formerly war-torn areas, such as Southern Sudan, there are 
programs underway to train unemployed ex-combatants to become paid park 
rangers, providing a double benefit by helping to achieve conservation 
goals through wildlife protection while at the same time helping to 
achieve security goals by reducing the potential for armed conflict and 
stabilizing East African communities. These programs will be greatly 
enhanced by Fellows who have trained in the MENTOR Program and who can 
return to their home countries to act as mentors themselves while at 
the same time having access to a network of East African wildlife 
professionals who are working to combat the bushmeat trade on a 
regional basis.
    The MENTOR Program, which involves the collaboration of U.S. 
experts with environmental NGOs, African institutions, and wildlife 
professionals from throughout East Africa, provides a clear example of 
the strength of the regional approach employed by FWS through the 
Wildlife Without Borders Regional Programs. It was recently highlighted 
by Secretary of the Interior Dirk Kempthorne in his address at the 
Opening Ceremony of Sullivan Summit VIII, attended by thousands of 
people including many African heads of state, and broadcast live on 
national TV in Tanzania on 2 June 2008.
    Projects currently pending include building the capacity of 
government agencies and NGOs in the Ruvuma Wilderness of Tanzania and 
other ecoregions in East Africa to use Geographic Information Systems 
(GIS) as a guide to their decisions regarding wildlife and protected 
area management. Another would build and enhance the capacity of women 
currently working in protected area management and conservation in the 
Democratic Republic of Congo, in order to provide them with training 
focused on human/wildlife conflicts, illegal trade in bushmeat, 
wildlife/livestock diseases, and alternative sources of livelihoods for 
communities living around protected areas.
    In WWF's experience, the species program has many decades of proven 
success, and the regional program has fulfilled a crucial need by 
providing flexible international conservation funding that is not 
targeted at any one species or habitat, but which can be used in a 
broader regional context. The regional program has been particularly 
successful in supporting capacity building, education and training on a 
regional and local scale--a critical component for bringing about a 
culture of conservation in those developing countries where WWB-funded 
projects are underway. It is only by creating a homegrown capacity for 
conservation in developing countries, by instilling an appreciation of 
the globally important biodiversity found in those countries and its 
value to local communities, and by ensuring the desire among local 
individuals to preserve their natural heritage that any conservation 
efforts can be confident of success over the long-term. Through its 
regionally focused Wildlife Without Borders Program, FWS has done much 
over the past twelve years to bring us closer to that goal.

WWF Comments on the Legislation
    WWF reads H.R. 4455 to take the three programmatic areas of FWS 
responsibility for international conservation and place them under the 
one heading of the Wildlife Without Borders Programs. The bill would 
define the Wildlife Without Borders Program as an umbrella for the 
Species Programs, the Regional Programs and the Global Programs. As 
noted above, we see great value in tying the three programs together, 
in that it will foster greater synergy among the programs, and greater 
consolidation and coordination of efforts towards international species 
conservation within the FWS.
    However, we are concerned that it may cause at least initial 
confusion among Congressional supporters of the Multinational Species 
Conservation Funds when they are renamed as the WWB Species Programs, 
and the erstwhile WWB Regional Programs lend their name to the new 
umbrella structure. We do not see renaming as an insurmountable 
problem, but are concerned that the MSCF might be compromised by 
shifting these well-established programs into a broader collective. 
This might be addressed by amending the bill language to clarify the 
relationship of these programs, and it certainly can be addressed 
through report language if the bill is approved by the Subcommittee and 
full Committee.
    More to the point, while we do not read the bill as subsuming or 
superseding the independent authorized levels of the existing MSCF 
laws, we do not want there to be any confusion on this point. We 
understand that the resources provided by this bill would be additional 
to the resources already authorized for the MSCF, and are intended to 
provide additional support for FWS international conservation efforts 
beyond what they get in MSCF line-item appropriations, and what they 
get in baseline funding. To this end, we recommend that the funding 
authority in this bill be increased to $15 million.
    We support the codification of the WWB Regional Program as a 
separate program outside the International Affairs administrative 
budget. A higher profile will inevitably draw more attention to the 
essential need for grants for local capacity building and emphasize the 
complementarities of these programs with the species programs. The 
Regional Programs provide greater flexibility to address a broader 
range of species and issues than are covered by the formal species 
programs. We recommend that the funding authorized in this bill be 
directed primarily to increasing the available resources for the 
Regional Program.
    The Global Program proposed in this bill would expand the current 
range of International Affairs activities beyond the support of 
international treaties and conventions, and would provide a vehicle for 
addressing cross-cutting issues as a complement to activities under the 
Species and Regional Programs. This would provide useful flexibility to 
FWS in implementing conservation programs that are not currently 
covered by the Species Program or located in regions covered by the 
Regional Programs. However it its current form, the language in Section 
4(b)(3) of the bill could benefit by greater elaboration on scope, 
description of activities, and priority-setting for potential funding. 
Education efforts and the use of tool-kits, and enforcement training 
efforts certainly have a global significance and might be improved and 
made more efficient if they were coordinated through a global program. 
A sense of other activities that might fall under the Global Program 
would be valuable. In addition, the language establishing the Global 
Program would need to address the global crises affecting species. 
There is none more profound than climate change, and we recommend that 
the Global Program specifically include activities addressing the 
impacts of climate change.
    We consider this Global Program to be a useful addition to the 
current FWS suite of programs, but not an adequate response to the need 
for a new paradigm for international conservation. This Program can 
only be considered a placeholder for further Congressional direction 
and funding on addressing the current extinction crisis that is taking 
place across the planet.

Recommendations for a New Paradigm in International Species 
        Conservation
    H.R. 4455 takes the status quo and improves it in terms of the FWS 
programs currently in existence. However, a new paradigm for species 
conservation is needed, one that evolves from the current single-
species programs and a focus on implementing terms for individual 
grants programs, towards one that embraces a strategic vision towards 
species conservation worldwide, with adequate resources to accomplish 
that vision.
    Several efforts have been made to craft a bill that would take an 
omnibus approach to species conservation, including the Keystone 
Species Conservation Act of 1999 and the Flagship Species Conservation 
Act of 2004. While to be praised for taking the initiative towards a 
broader approach, these initiatives did not offer adequate funding to 
address the need that they recognized, nor did they offer sufficient 
Congressional direction or oversight to effectively address that 
overwhelming need.
    Scientists estimate that approximately 1/10 of the world's known 
biological diversity is currently in danger of extinction, including at 
least 1/4 of all mammals, 
1/3 of all primates, 1/3 of all amphibians, and 1/8 of all birds. The 
initial stages of a major worldwide extinction event are occurring now 
and it is estimated that by the end of the 21st century as much as 2/3 
of the world's plant and animal species could be in danger of 
extinction. It is also estimated that approximately 3/4 of the world's 
terrestrial plant and animal species reside in whole or in part in 
developing nations where in many cases poor management of natural 
resources has exacerbated the threat of extinction to many species and 
directly harmed local communities. Yet the conservation of species and 
habitats are vital to alleviating poverty for many communities in 
developing countries that depend on these resources for their 
livelihoods, food, medicinal compounds, housing material, and other 
necessities. In addition, there are significant risks to the global and 
U.S. economies from the loss of species and their habitats around the 
world and the valuable services they provide. Opportunities for 
conserving viable populations of species and their habitats rapidly 
diminish with each passing year. The U.S. has maintained the tradition 
of serving as a leader in international conservation efforts for over 
100 years, and it has an opportunity to lead the world in confronting 
this challenge yet again.
    WWF has long seen the need for a global conservation initiative 
that would encompass future species needing protection, and recently 
has worked with conservation partners and the FWS to identify a new 
paradigm for conservation funding. We recognize that such an approach 
would be in addition to, and have no bearing on, the current MSCF, 
which would be considered grandfathered into the law.
    In brief, we recommend that this new paradigm should:
    <bullet>  Be broad-based and flexible, but subject to 
scientifically based criteria for eligibility (e.g. IUCN Red List)
    <bullet>  Focus primarily on international programs in developing 
countries.
    <bullet>  Include a clearly defined system for establishing 
priorities among species, while retaining administrative flexibility.
    <bullet>  Provide adequate funding commensurate with conservation 
objectives, including sufficient fees to enable USFWS to meet 
administrative costs.
    <bullet>  Encourage but not require grant recipients to obtain 
matching funds from public and private partners.
    <bullet>  Require host country approval and encourage local support 
for programs and projects.
    <bullet>  Provide for coordination among Federal agencies with 
overlapping jurisdictions.
    <bullet>  Allow for outside oversight and review of program 
implementation.
    The attached White Paper and Statement of Principles elaborate 
these principles and may be considered a ``work in progress''. Many 
questions remain to be addressed in both documents, and we look forward 
to further productive dialogue with your staff and with our partners in 
conservation organizations.
    We believe that a broader approach is necessary and are prepared to 
work with Subcommittee and Committee staff on the best way to address 
this need in legislation. We would support a separate hearing on a 
global approach, with the goal of developing legislation consistent 
with the principles outlined above and in the attachments to this 
testimony.<bullet>  Conclusion
    I thank you again for the opportunity to testify before you today. 
WWF would like to endorse H.R. 4455 with the suggested changes 
mentioned earlier in my testimony. There is much to be gained in 
authorizing the international conservation programs of FWS, and 
creating one umbrella to promote synergies, efficiencies and 
coordination. We think it is an important step toward redefining the 
approach to international conservation programs. Because of the 
continued demand on these programs, the continual strained resources 
available to these programs, and their proven track record of success, 
we recommend an authorized annual appropriations level of $15 million.
    At the same time, we urge the Subcommittee to begin consideration 
of new legislation to address the overarching need of species 
conservation globally, and to craft legislation in which Congress 
provides direction, parameters and priorities for FWS efforts in this 
regard, balanced with flexibility for FWS to use its discretion and 
expertise when fulfilling the need.
    Madame Chair, I cannot emphasize how important your work has been 
in protecting some of the world's most endangered and iconic species, 
which find themselves on the brink of extinction. We look forward to 
working with you, other members of the Subcommittee, and your 
respective staff, on these most important efforts.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Mr. Dillon. 
And my colleague from Virginia has to leave to go down on the 
Floor to vote but we will continue on with the testimonies.
    I would like now to recognize Mr. Burchfield. And, Mr. 
Burchfield, you are representing the Gladys Porter Zoo. And I 
would like to say that I had the honor of visiting the zoo when 
I was in Brownsville, Texas. And I think what impressed me the 
most was that you are taking care of many sea turtles with 
disabilities. And I visited and I was very impressed with the 
zoo. So I am very pleased that you are here to testify today.

   STATEMENT OF PATRICK M. BURCHFIELD, ED.D., MSC, DIRECTOR, 
                       GLADYS PORTER ZOO

    Mr. Burchfield. Thank you, Madam Chair, for the opportunity 
to testify today on H.R. 4455, the Wildlife Without Borders 
Authorization Act. My name is Pat Burchfield. I am Executive 
Director of the Gladys Porter Zoo in Brownsville, Texas.
    I have had the pleasure of working with the Fish and 
Wildlife Service, National Marine Fisheries Service, Texas 
Parks and Wildlife Service, and 26 other NGO's and industry in 
both Mexico and the United States in the conservation effort 
for the Kemp's ridley sea turtle.
    Today I am testifying on behalf of the 218 accredited 
institutions of the Association of Zoos and Aquariums, AZA. Our 
zoo is an accredited member of AZA. In general, AZA supports 
the conservation tenets of H.R. 4455, but we would strongly 
encourage the Subcommittee to consider raising the 
authorization limits placed on the bill to capitalize on the 
successes, cost effectiveness, and future opportunities 
associated with the Wildlife Without Borders programs. AZA and 
its member institutions are proud to work with Congress, the 
Federal agencies, conservation organizations, the private 
sector, and the general public to conserve our wildlife 
heritage. With 116 million visitors to 218 accredited zoos and 
aquariums, AZA's focus on connecting people and animals 
provides a critical link to helping animals in their native 
habitats.
    Far-reaching conservation programs at AZA institutions have 
provided support for over 3,700 field conservation and research 
projects in more than 100 countries. AZA accredited zoos and 
aquariums are among the leaders in the protection of endangered 
species. Today I will highlight one of these many programs.
    In reviewing the language of H.R. 4455 I took particular 
note to section 4[a] which states that the purpose of the bill 
is ``to provide international wildlife conservation assistance 
through the initiation, facilitation, and promotion of locally 
adapted wildlife management and conservation programs in 
coordination with non-governmental organizations, governments, 
private businesses, and community leaders.'' In a microcosm 
that is exactly the philosophy of the Gladys Porter Zoo and our 
field work, and probably the same for other AZA accredited zoos 
and aquariums.
    Because of our close proximity to Mexico and our interest 
in its diverse fauna, for the past 35 years we have been 
engaged in the conservation of the world's most critically 
endangered sea turtle. On one day in June in 1947, Andres 
Herrera of Tampico filmed what is now a classic documentary or 
tens of thousands of Kemp's ridley sea turtles crawling up onto 
shore to and from in their effort to lay their eggs and 
perpetuate their species.
    By 1961 when science became aware of this massive nesting 
aggregation which is termed ``arrivada'' in Spanish, the 
numbers had dwindled to 5,000, to 2,000, and by 1978 when the 
Mexico-U.S. effort to save what was left of this critically 
endangered sea turtle began, the entire nesting production for 
the year 1978 was 902 nests. Despite our efforts, the 
population continued to decline and in 1985 we saw a total of 
702 nests for the entire nesting season. That represents 
approximately 280 nesting females. When we think of the tens of 
thousands that came ashore in a single day in June of 1947, 
that is the most precipitous decline in any species since the 
extinction of the passenger pigeon.
    Well, 30 years later, thanks to support from the U.S. Fish 
and Wildlife Service, its International Program, SEMARNAT and 
CONANP of Mexico, the National Marine Fisheries Service, the 
Texas Parks and Wildlife Department, and the fishing industries 
of both countries, last year we protected 15,000 nests and 
released over a million hatchlings into the Gulf of Mexico.
    Madam Chair, according to recent estimates, 20 percent or 
more of the world's biodiversity could disappear over the next 
two decades due primarily to habitat fragmentation and 
alteration, climate change, and over-exploitation of threatened 
and endangered species. It is therefore vital and more 
citizens, governments, institutions and organizations become 
involved in efforts to conserve our imperiled environment. H.R. 
4455 provides this framework for building that capacity. What 
makes these programs effective is that the U.S. Fish and 
Wildlife Service distributes these funds in a timely and 
efficient manner and with very few bureaucratic entanglements. 
The funds are targeted to high priority field conservation 
efforts that most directly benefit the species or region of 
most concern.
    Madam Chair, while we strongly support the intent and 
passage of H.R. 4455, we applaud Congressman Young and you for 
this effort. We are also concerned about the size of the 
Wildlife Without Borders budget. While we have seen some 
incremental growth in dollars appropriated by Congress for 
these critical conservation programs, thanks in large to the 
support of this Committee and Subcommittee and the actions of 
the Interior Appropriations Subcommittee, the overall 
international conservation account is not growing fast enough 
to meet the significant wildlife and habitat needs.
    I thank you for the opportunity to be here today, applaud 
your efforts, and hope that you will continue with your 
enhancement of funding for these vital programs. Thank you so 
much.
    [The prepared statement of Mr. Burchfield follows:]

            Statement of Dr. Patrick Burchfield, Director, 
                 Gladys Porter Zoo, Brownsville, Texas

    Thank you Madame Chair for the opportunity to testify today on H.R. 
4455--the Wildlife without Borders Authorization Act.
    My name is Dr. Patrick Burchfield and I am the director of the 
Gladys Porter Zoo in Brownsville, Texas. Today, I am testifying on 
behalf of the 218 accredited institutions of the Association of Zoos 
and Aquariums (AZA). The Zoo is an accredited member of the AZA.
    In general, AZA supports the conservation tenets of H.R. 4455 but 
we would strongly encourage the Subcommittee to consider raising the 
authorization limits placed on the bill to capitalize on the success, 
cost-effectiveness and the future opportunities associated with the 
Wildlife without Borders programs.
    AZA and its member institutions are proud to work with Congress, 
the Federal agencies, conservation organizations, the private sector 
and the general public to conserve our wildlife heritage. With 160 
million visitors to 218 accredited zoos and aquariums, AZA's focus on 
connecting people and animals provides a critical link to helping 
animals in their native habitats. Far-reaching conservation programs at 
AZA institutions have provided support over 3,700 field conservation 
and research projects in more than 100 countries. AZA-accredited zoos 
and aquariums are among the leaders in the protection of endangered 
species. Twenty years ago, AZA established the Species Survival Plan 
(SSP) program--a long-term plan involving genetically diverse breeding, 
habitat preservation, public education, field conservation and 
supportive research to ensure survival for many threatened and 
endangered species. Currently, AZA members are involved in 110 SSP 
programs that include more than 160 species.
    As centers for conservation volunteerism, AZA-accredited zoos and 
aquariums offer the public a great way to discover connections to their 
environment and to learn how they can make a difference in 
conservation. Annually, more than 58,000 volunteers invest over 
3,000,000 hours of their time supporting virtually every aspect of zoo 
and aquarium operations. AZA-accredited institutions also teach more 
than 12 million people each year in living classrooms, and have 
provided training to more than 400,000 teachers.
    Opened in 1971, the Gladys Porter Zoo was built directly out of 
concern for endangered wildlife and to educate the community of South 
Texas about the importance of preserving the planet's resources. We 
strive to maintain a world-class zoological and botanical park, and to 
provide a positive recreational experience to an increasingly large 
group of visitors, both national and international. Through our daily 
routines, we aspire to making significant contributions to the 
cooperative captive management of threatened and endangered species. 
Our education programs are geared to establish a conservation ethic in 
the beneficiaries of our presentations. We present them with 
enthusiasm, in hopes that our efforts will ultimately help preserve the 
diversity of remaining wild creatures and their habitats. Like all AZA 
institutions, we also make contributions to scientific studies that 
will aid in the conservation of wildlife.
    In reviewing the language of H.R. 4455, I took particular note of 
Section 4 (a) which states that the purpose of the bill is to ``provide 
international wildlife conservation assistance through initiation, 
facilitation and promotion of locally adapted wildlife management and 
conservation programs in coordination with non-governmental 
organizations, government, private businesses and community leaders.'' 
In microcosm, that is exactly the philosophy of the Gladys Porter Zoo 
and our field work--and probably the same for other AZA accredited zoos 
and aquariums.
    We are in a unique position at the Gladys Porter Zoo. Located at 
the southernmost tip of Texas, Brownsville sits right on the border 
between the United States and Mexico. It is one of the few federally 
authorized wildlife ports of entry. We have historically worked closely 
with state and federal wildlife agents in our area. We are the logical 
candidate to provide veterinary and rehabilitation services for sick 
and injured local wildlife, as well as housing and placement of animals 
confiscated at U.S./Mexico border crossings.
    Because of our close proximity to Mexico and our interest in its 
diverse fauna, for the past 35 years we have also been engaged in the 
conservation of the world's most critically endangered sea turtle, the 
Kemp's ridley. On one day of June 1947, Sr. Andres Herrera, from 
Tampico, Tamaulipas, made an historic film of tens of thousands of 
nesting sea turtles coming ashore and returning to the Gulf of Mexico 
after depositing their clutches of eggs. The film lay unknown to 
science until screened by Dr, Henry Hildebrand at an annual convention 
of Ichthyologists and Herpetologists in 1961. This massive nesting 
phenomenon, termed ``arribada'' in Spanish, along with the location of 
these turtles then came to light. In the ensuing years--between 1947 
and the early 1960s--this population endured unrelenting exploitation 
for eggs, meat and leather; and when Mexican biologists began efforts 
to save what remained of the population, the arribadas of up to an 
estimated forty-thousand individuals had plummeted from five-thousand 
to two-thousand, and were dropping rapidly. In the late 1970s, the 
governments of Mexico and the United States joined together in a 
desperate attempt to salvage what was left of the Kemp's ridley. In 
1978, 902 nests for the entire season were all that remained of the 
reproductive effort. Despite strict protection of the nesting females 
and their eggs, the total take of the reproductive effort resulted in 
the most rapid decline of any species since the extinction of the 
passenger pigeon. The population reached its all-time low in 1985 with 
a total of 702 nests representing approximately 280 nesting females for 
that year. Mexican and U.S. federal, state, and local government 
agencies, NGOs and individuals stayed the course, despite discouraging 
results and harsh conditions.
    Thirty years later there is good news. Thanks to support from the 
U.S. Fish and Wildlife Service and its international program, SEMARNAT 
/ CONANP of Mexico, the National Marine Fisheries Service, the Texas 
Parks and Wildlife Department, the fishing industries of Mexico and the 
United States, and countless other businesses and individuals--more 
than 28 cooperating entities--the Kemp's ridley sea turtle is crawling 
and swimming its way back from the brink of extinction. We are well on 
our way toward the downlisting of this species. In 2007, 15,000 nests 
were protected and more than one million hatchlings were released into 
the Gulf of Mexico.
    Were it not for the long term support by the governments of both 
countries, this species would surely already have become extinct. Many 
individuals may have difficulty understanding the impact that one 
species can have on entire ecosystems. To put it in a different 
context, liken the loss of a species to the loss of a cog in the gears 
of your automobile. Clearly it is the forerunner of more serious 
problems to come.
    Like other AZA-accredited zoos, the Gladys Porter Zoo is involved 
with other conservation programs around the world. This includes 
programs for endangered crocodilians, iguanas, margay cats, ocelots and 
tree kangaroos, to mention a few. The rapid loss and degradation of 
wild places around the world necessitates that all countries work 
together to try and maintain what is left of our global marine and 
terrestrial ecosystems for our very own survival and for that of future 
generations.
    Madame Chair, according to recent estimates, 20 percent or more of 
the world's biodiversity could disappear over the next two decades, 
primarily due to habitat fragmentation and alteration, climate change 
and the over-exploitation of threatened and endangered species. It is 
therefore vital that more citizens, governments, institutions and 
organizations become involved in efforts to conserve our imperiled 
environment. HR4455 provides the framework for building that capacity.
    For example, over the duration of the African elephant, Asian 
elephant, great ape, marine turtle and rhino/tiger conservation funds, 
the U.S. Congress has appropriated tens of millions of dollars that 
have been leveraged more than three-fold from host countries and local/
international non-governmental organizations (NGOs). This is a 
significant partnership--especially in terms of government programs. 
The funds provided by Congress have served as the catalyst for the 
implementation of hundreds of projects worldwide ranging from highly 
sophisticated and innovative data collection, tracking, research and 
monitoring programs to simply providing essential on-the-ground 
resources--weapons, ammunition, vehicles and communication systems--to 
game wardens and law enforcement officials who have been entrusted to 
protect these magnificent animals from the ravages of civil unrest, 
poaching and habitat exploitation.
    What makes these programs effective is that the U.S. Fish and 
Wildlife Service distributes the funds in a timely and efficient manner 
with very few bureaucratic entanglements. The funds are targeted to 
high-priority field conservation efforts that most directly benefit the 
species or region of most concern. More importantly, these programs 
have long-recognized the value of promoting cooperative projects among 
government entities, NGOs and the affected local communities in the 
range states. This is essential because it is only through local 
action, local education, and local support that realistic solutions for 
saving these species and critical habitats can be effectively devised 
and implemented.
    Madame Chair, while we strongly support the intent and passage of 
H.R. 4455 and applaud Congressman Young and you for this effort, we are 
also concerned about the size of the Wildlife without Borders budget. 
While we have seen some incremental growth in the dollars appropriated 
by Congress for these critical international conservation programs--
thanks in large part to the support of this Committee and Subcommittee 
and the actions of the Interior Appropriations Subcommittee--the 
overall international conservation account is not growing fast enough 
to meet the significant wildlife and habitat needs.
    Therefore, AZA respectfully requests that the Subcommittee amend 
H.R. 4455 to significantly increase the authorization levels for Fiscal 
Years 2009 through 2013. The demands are too numerous, the 
opportunities too boundless and the stakes are too high not to reward a 
small, efficient program that has made tremendous contributions to 
wildlife conservation--especially in these times of global economic, 
social and environmental uncertainty.
    Again Madame Chair, AZA wholeheartedly supports this effort and we 
look forward to working with you and the Subcommittee to secure swift 
passage of this bill. In addition, AZA member institutions will 
continue to raise the awareness of our 160 million visitors each year 
to bring focus on threatened species and habitats worldwide for it is 
public awareness and public appreciation of their plight that has 
helped engage the U.S. as a major catalyst for world concern.
    Thank you again for this opportunity to comment on this important 
wildlife conservation measure. I would be happy to answer any questions 
that you may have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Burchfield.
    And, finally, I would like to recognize the last gentleman 
on our panel, our third panel, Mr. Arce.

            STATEMENT OF JUAN PABLO ARCE, DIRECTOR, 
          LATIN AMERICA AND THE CARIBBEAN, NATURESERVE

    Mr. Arce. Good morning. My name is Juan Pablo Arce, and I 
am the Director of the Latin American and Caribbean program for 
NatureServe. Thank you very much for the opportunity to appear 
before the committee to speak about our experience with the 
Wildlife Without Borders program.
    NatureServe is a non-profit conservation organization. Our 
mission is to provide the scientific basis for effective 
conservation action. We represent an international network of 
conservation programs operating across the U.S., Canada, Latin 
America and the Caribbean.
    Since 2001, NatureServe has been helping to build 
conservation capacity in Latin America and the Caribbean by 
developing a series of training activities for biodiversity 
conservation, conservation planning, species distribution 
modeling, and environmental policy.
    For the last two years we have worked with the U.S. Fish 
and Wildlife Service's Wildlife Without Borders program to 
carry out training programs in Latin America. I would like to 
share with you the results from a two-week course on effective 
implementation of environmental policy that we held at the 
National University of Costa Rica just one month ago, in late 
May. The training was for graduate-level wildlife management 
students and protected areas decision-makers.
    Thanks to support from the Wildlife Without Borders program 
the students received this training at no cost. It was attended 
by 10 graduate students from Costa Rica, Mexico and Chile, five 
professors from Costa Rica and Mexico, and five middle-level 
decision makers from Guatemala. Also attending were six current 
decision makers and protected areas managers from Costa Rica, 
Nicaragua, and El Salvador.
    Using a practical case study from Guatemala, we 
demonstrated ways to integrate biodiversity data with social 
and economic information, using methods from the social 
sciences as well as the natural sciences.
    I was the principal organizer and instructor of this 
integrated training activity, joined by several expert 
colleagues. I can tell you from this personal experience that 
the enthusiasm and commitment to conservation shown by the 
students we reached was remarkable. These are the future 
leaders, policy makers, and protected areas managers of their 
countries. It was clear that the personal connections across 
borders that grew among the participants were as important as 
the subject matter itself.
    In delivering these training sessions over the past two 
years, we have learned some important lessons which I would 
like to share today.
    First, focus on people. No conservation effort in Latin 
America will be successful in the long run unless it builds the 
capacity of the people who live and work there. External advice 
and assistance can help, but ultimately people in each country 
must have the tools, expertise, and resources to conserve their 
own lands and waters.
    Second, work across borders. It is clear that biodiversity 
threats cross borders: habitat fragmentation, deforestation, 
invasive species, and climate change are just a few examples. 
Our responses have to cross borders too. As Conrad 
Lautenbacher, head of the National Oceanic and Atmospheric 
Administration, recently stated: ``Everything is connected in 
our Earth system. It is science without borders.''
    Third, embrace innovation. The students and policy makers 
we are working with in Latin America are just as sophisticated 
as those here in the United States. They are tackling complex 
questions using the latest innovations and scientific methods, 
information technology tools, and social sciences 
methodologies. In fact, in the true spirit of ``training the 
trainers,'' perhaps someday soon the Wildlife Without Borders 
program can bring these Latin American graduate students here 
to share their knowledge and train us in the United States.
    In conclusion, we at NatureServe strongly endorse the 
Wildlife Without Borders Act and encourage Congress to 
authorize this program and strengthen it in the years to come. 
On behalf of NatureServe, I want to once again thank the 
committee for this opportunity and also to salute the staff of 
the U.S. Fish and Wildlife Service for their excellence and 
professionalism. Thank you.
    [The prepared statement of Mr. Arce follows:]

    Statement of Juan Pablo Arce, Director of Latin America and the 
              Caribbean, NatureServe, Arlington, Virginia

Introduction
    Good morning. My name is Juan Pablo Arce, and I am the Director of 
the Latin America and Caribbean program for NatureServe. Thank you very 
much for the opportunity to appear before the committee to speak about 
our experience with the Wildlife Without Borders program.
    NatureServe is a non-profit conservation organization. Our mission 
is to provide the scientific basis for effective conservation action. 
We represent an international network of conservation programs--nown as 
natural heritage programs or conservation data centers--operating 
across the U.S., Canada, Latin America and the Caribbean. We have three 
major objectives: First, to inform natural resource decision-making; 
second, to advance scientific understanding about our environment; and 
third, to work with partners to build conservation capacity.

Training Program
    Since 2001, NatureServe has been helping to build conservation 
capacity in Latin America and the Caribbean by developing a series of 
training activities for biodiversity conservation, conservation 
planning, species distribution modeling, and environmental policy.
    For the last two years we have worked with the U.S. Fish and 
Wildlife Service's Wildlife Without Borders program to carry out 
training programs in Latin America. I'd like to share with you the 
results from a two-week course on effective implementation of 
environmental policy that we held at the National University of Costa 
Rica just one month ago, in late May. The training was for graduate-
level wildlife management students and protected areas decision-makers.
    The primary goal of the training was to share innovative procedures 
for analyzing and evaluating the implementation of environmental policy 
within the existing social, economic and biodiversity conservation 
context. The course was held at the International Institute of 
Conservation and Wildlife Management and was part of the masters degree 
program in conservation at the National University of Costa Rica. 
Thanks to support from the Wildlife Without Borders program, the 
students received this training at no cost to themselves. It was 
attended by 10 graduate students (from Costa Rica, Mexico, and Chile), 
five graduate program professors (from Costa Rica and Mexico), and five 
middle-level decision makers (from Guatemala). Also attending were six 
current decision-makers and protected areas managers from Costa Rica, 
Nicaragua, and El Salvador, representing government and non-profit 
organizations.
    Using a practical case study from Guatemala, we demonstrated ways 
to integrate biodiversity data with social and economic information, 
using methods from the social sciences as well as the natural sciences. 
The course was divided into two sessions: First, a four-day Species 
Distribution Modeling course, towards completion of a short modeling 
project using the student's own data for a species of interest. Second, 
a five-day Analysis of the Implementation of Environmental Policy 
course, integrating selected biodiversity data from the first session 
into the social and economic framework of analysis.
    I was the principal organizer and instructor of this integrated 
training activity, joined by several expert colleagues. I can tell you 
from this personal experience that the enthusiasm and commitment to 
conservation shown by the students we reached was remarkable. These are 
the future leaders, policy-makers, and protected areas managers of 
their countries. It was clear that the personal connections across 
borders that grew among the participants were as important as the 
subject matter itself.
    It was fascinating to see how the students and the professionals 
interacted and what they learned from each other. Particularly since 
it's clear that these graduate students, once they enter the 
professional world, will be the ones making the decisions for those 
organizations in just a few years.
    An important part of the training was the fact that we were looking 
not just at environmental factors alone, but at how environmental 
policy is affected by the social and economic situation in each 
country, and must take them into account. Policies and recommendations 
that may make sense here in Washington, D.C. often look very different 
to a policy-maker working in a relatively poor area in Central America. 
Here, for example, we may think of the value of forests principally for 
the wildlife that they protect. To people living there, however, an 
even more important value of forests may be providing clean drinking 
water, wood for fuel, and preventing the hillside from eroding during 
the next tropical storm.

Lessons Learned
    In delivering these training sessions over the past two years, we 
have learned some important lessons which I would like to share today.
    First, focus on people. No conservation effort in Latin America 
will be successful in the long run unless it builds the capacity of the 
people who live and work there. External advice and assistance help, 
but ultimately people in each country must have the tools, expertise, 
and resources to conserve their own lands and waters.
    Second, work across borders. It's clear that biodiversity threats 
cross borders: habitat fragmentation, deforestation, invasive species, 
and climate change are just a few examples. Our responses have to cross 
borders too. The training we presented crossed borders, both in terms 
of the case studies used, the students who have attended, and the 
subject matter. As Conrad Lautenbacher, head of the National Oceanic 
and Atmospheric Administration, recently stated: ``Everything is 
connected in our Earth system. It's science without borders.''
    Third, embrace innovation. The students and policy-makers we are 
working with in Latin America are just as sophisticated as those here 
in the United States. They are tackling complex questions using the 
latest innovations in scientific methods, such as predictive modeling 
of species ranges), information technology tools, (such as advanced GIS 
software), and social sciences methodologies (statistical analysis 
tools). In fact, in the true spirit of ``training the trainers'', 
perhaps someday soon the Wildlife Without Borders program can bring 
these Latin American graduate students here to share their knowledge 
and train us in the United States!
    In conclusion, we at NatureServe strongly endorse the Wildlife 
Without Borders Act and encourage Congress to authorize this program 
and strengthen it in the years to come. On behalf of NatureServe, I 
want to once again thank the committee for this opportunity and also to 
salute the staff of the U.S. Fish and Wildlife Service for their 
excellence and professionalism. Thank you.

Project Background
    As the world community seeks to replace unsustainable development 
patterns with environmentally sound management, a key challenge is the 
need to create a sense of common purpose, especially among the academic 
and government sectors. Our project was based on the premise that sound 
methods for analyzing the distribution of endangered species and the 
implementation of environmental policy are a fundamental prerequisite, 
as well as a catalyst for collaboration between the scientific 
community and concerned decision-makers. Even though the distribution 
of biodiversity is a key factor in establishing effective environmental 
policy, making a meaningful connection between the two remains a major 
challenge in Latin America.
    This graduate-level training provided practical tools for assessing 
species distributions, social and economic conditions, and legislative 
policy information that can be used to monitor the status and 
effectiveness of protected areas. The case study for this training was 
developed based on an existing NatureServe project, funded by the 
Tinker Foundation, about the conservation of Dry Forests in Guatemala. 
The social, economic, and environmental data generated by the Guatemala 
project was the basis for the examples used during the training. Thus, 
we were able to leverage the results of current work funded through 
private sources to improve the quality of the training funded via the 
Fish and Wildlife Service.

Goal and Objectives
    The goal of this initiative is to train students, faculty and 
decision makers to analyze the distribution of high priority species 
within and near Latin American protected areas, and apply the results 
from a Central American case study in development of sound 
environmental policies for biodiversity conservation in a sustainable 
development framework.

Project Outcomes, 2008
    <bullet>  Trained 20 participants (graduate level students and 
decision makers) in the use of methods, mathematical models and 
statistical tools for environmental policy analysis and species 
distribution modeling.
    <bullet>  Informed participants about the importance of evaluating 
policy and conservation as key factors for sustainable development and 
opportunities to declare and/or evaluate protected areas status.
    <bullet>  Provided participants the ability to apply this knowledge 
to protected areas work in their own countries in the future.
    <bullet>  Created personal and professional connections among 
future protected areas decision-makers from four countries.

Description

Species Distribution Modeling course (May 19-23, 2008):
    <bullet>  Lectures providing background on the development of 
distribution modeling techniques, their application in conservation 
biology and resource management, modeling environments to choose from, 
statistical considerations, use and availability of environmental data 
layers, and interpretation of results
    <bullet>  Hands-on practice using distribution models such as 

BIOCLIM, MAXENT, and Random Forests
    <bullet>  Completion of a short modeling project using the 
student's own data for a species of interest
    <bullet>  Class presentations and discussion of independent 
projects
Analysis of Implementation of Environmental Policy course (May 26-30, 
        2008):
    <bullet>  Presentations on basic concepts, methodology, and 
statistical tools for policy analysis
    <bullet>  Interactive GIS training within a group-study framework
    <bullet>  Analysis of a Central American case study in 
implementation on Environmental Policy using
    <bullet>  Integration of Species Distribution Modeling results into 
the statistical and spatial analysis of environmental policy
    <bullet>  Spatial representation of products using Geographic 
Information Systems (GIS)

Coordination and Instructors
    Juan Pablo Arce, Director, LAC Section Support. Juan Pablo has 
extensive experience in policy, and conservation, which was gained 
through previous employment as the Bolivia Country Director for 
Conservation International, former Vice Minister of Natural Resources 
and Environment in Bolivia, and former project manager for the Paraguay 
Environmental Policy project. In June 2007, Juan Pablo was the 
instructor of an Environmental Policy training activity at UNA. 
Sponsored by the FWS, the course trained 16 graduate students 
representing four Latin America countries. He has a Master of Science 
in Rural and Land Ecology Survey from ITC, The Netherlands.
    Bruce E. Young serves as NatureServe's Director for Species Science 
and will oversee the Species Distribution Modeling course. Young has 20 
years of experience collaborating with Latin American scientists on 
conservation-related projects. Based in Costa Rica (and thereby 
facilitating coordination with UNA colleagues), Young has previously 
coordinated a species distribution modeling course in Lima, Peru, for 
30 participants representing five countries. In addition, he 
coordinated the Moore Foundation project that used distribution 
modeling techniques to predict the distributions of 782 species of 
plants, birds, mammals, and amphibians endemic to the Andes in Peru and 
Bolivia. He has a Ph.D. in Zoology from the University of Washington, 
USA.
    Santiago F. Burneo is biologist at the Pontifical Catholic 
University of Ecuador (PUC) whose research has focused on Mastozoology. 
He has Masters in Conservation Biology of the International University 
of Andalusia, Spain and currently serves as curator of the Mastozoology 
Section of the Museum of Zoology and professor at the College of 
Biological Sciences and Biogeography in areas such as geographic 
information systems. He has worked in geographical distribution model 
since 2002 in collaborative projects and workshops with Dr. Robert 
Anderson and Dr. Catherine Graham.
    Kazuya Naoki is responsible for the Centre for Spatial Analysis 
(Laboratory GIS) Institute of Ecology at the Universidad Mayor de San 
Andres, La Paz, Bolivia. He has taught various subjects: Ecology of 
populations and communities, Conservation Biology, Biostatistics, 
Wildlife Management, among others, for both undergraduate and graduate 
from four universities. His main research interest is the spatial 
pattern and the determinants of distribution and abundance of different 
agencies at the micro and macro in the Andes. He has a BA in Biology at 
the University of Costa Rica and Ph.D. in Biological Sciences from 
Louisiana State University, USA.

Participant Comments
    Participant comment, 2007 training:
    ``I think that the training sessions in legislation, analysis of 
information and interpretation of the results were of major benefit for 
our individual capacity building. Since in many cases we are more 
familiar with the biological aspects, learning about these other 
aspects helped us see the problem in a much more global way.''--Carol 
Sanchez, International Institute for Wildlife Management and 
Conservation. Graduate student, Universidad Nacional de Costa Rica 
(UNA), Costa Rica
    Participant comment, 2008 training:
    ``This training really expanded my knowledge. I appreciate the 
opportunity to participate. This course has awakened my expectations in 
terms of how to seek information needed to implement the theme of 
environmental policies with data from my own country.''--Mildred 
Rivera, National Environmental Information System (SINIA), Ministry of 
Environment and Natural Resources (MARENA), Nicaragua
                                 ______
                                 
    Ms. Bordallo. Muchas gracias, senor.
    Mr. Arce. De nada.
    Ms. Bordallo. For keeping it within the time limit. Thank 
you very much, Mr. Arce, for your testimony.
    I have a few questions to ask the panelists. And Mr. 
Wittman had to leave for voting and he asked me to also ask 
this particular question; it has to do with funding.
    So during the testimony this afternoon we have heard that 
the Wildlife Without Borders program should be authorized to 
receive anywhere between $5 million and $50 million in 
appropriations. Now that is quite a wide disparity. Is there 
any number within this range that is reasonable compromise? 
Could any of you answer that, possibly you, Mr. Arha?
    Mr. Arha. Thank you, Madam Chair. I would answer it by 
saying every dollar that this program spends it is able to 
match more than three to go forward on it. So as a legislative 
body in which there are competing demands on scarce funds in 
your committee and this hallowed body, one has to look at where 
we can use them efficiently. I would just submit to you that 
this program uses it as efficiently if not more than many other 
conservation programs.
    We certainly have tremendous need, as my colleagues have 
said, on the ground, and that need speaks for itself. And I 
will let my colleagues do that. At this juncture I would leave 
it in your best judgment as to with all the information that 
you have how best to go forth on this. It certainly presents a 
rather odd situation when the limit may be lower than what we 
are already spending. But if you look at it as an additional 
money and what we may possibly do in the future I will leave it 
in your good judgment and my colleagues after.
    Ms. Bordallo. Thank you. Thank you, sir.
    Perhaps somebody here could answer, what is currently being 
spent? This was part of Mr. Wittman's question. Does somebody 
have that amount?
    Mr. Arha. The amount that we have laid out we do get under 
the multinational species conservation for 2007 we are looking 
at almost $6 million. And the total appropriated fundings, the 
numbers that I have in front of me it is in addition to $10 
million right now.
    I can get your more specific numbers.
    Ms. Bordallo. What is the number, Mr. Arha, is it $10 
million or?
    Mr. Arha. Ten million for multinational species 
conservation and 5.4 for the additional programs related with 
Wildlife Without Borders.
    Ms. Bordallo. So 15.
    Mr. Arha. So it is 15 millions and more, ma'am.
    Ms. Bordallo. All right. That is the number we wanted to 
hear.
    Does anybody else have a compromise amount that they would 
like to? Yes, Dr. Robinson.
    Mr. Robinson. Just that our understanding is that the 
discussion here is not specifically at the multinational 
species conservation funds, that we are really talking about a 
program which is the global program and the regional program. 
And in a very general way WCS works with a number of Federal 
agencies. I would say that the cost effectiveness of the U.S. 
Fish and Wildlife Service international program probably 
surpasses all. And the impact of these programs is recognized 
within the conservation community in a very, very significant 
way. And so if we are talking about a budget of $4.5 million 
for all the impact, that is where the $30 million figure came 
from. We looked at it in comparison to some of the other 
programs that we are involved in and we really felt that each 
of the regional programs themselves could probably spend 
effectively on their regional and global efforts at least that 
amount.
    So I think there is a real opportunity to have a 
significant impact here.
    Ms. Bordallo. Let me ask the panel members, could a sharp 
increase in Federal funding create a disincentive for non-
Federal matching contributions?
    Mr. Dillon. Let me try to answer that. We are quite 
involved with leveraged funding for these projects. And I do 
not think there could be a disincentive at all. I think 
actually it would provide an incentive for more matching funds.
    Right now if we are considering just these multinational 
species funds which we had thought were not--the funding for 
that was not in this bill, but if it were to become so that $8 
million, you know, leverages many times more than that. And the 
limitation is that $8 million really is not very much money for 
the number of species that are benefiting from it, particularly 
given that many of them are wide-ranging species that are in 
multiple countries and there are many sites that need 
attention. So I mean I think you could ramp up the funding 
significantly both on the species funding and on the regional 
and still obtain multiples of leverage.
    Ms. Bordallo. Thank you. Thank you very much.
    I also have a question here I guess I would like to hear 
from all of the panelists either a yes or a no. It is my 
understanding from reading your statements that you all agree 
that the bill would be clarified to ensure that any funding for 
the Wildlife Without Borders Program is in addition to any 
funds authorized and appropriated for the funds administered 
under the multinational species conservation fund. Is that 
correct?
    Mr. Arha. A very strong, yes, ma'am.
    Ms. Bordallo. All right.
    Mr. Robinson. A very strong yes.
    Ms. Bordallo. Our next panelist?
    Mr. Dillon. Yes, that is what I would say.
    Mr. Burchfield. Madam Chair, as I stated in previous 
testimony, Association of Zoo and Aquarium Institutions 
provided support for over 3,700 field conservation programs in 
more than 100 countries. If we are going to have the knowledge 
we need to deal with issues like global warming, habitat 
degradation, these types of projects are critical to get 
baseline data and have good science on the species that we are 
talking about. In many cases we do not have the answers for how 
these animals will or will not adapt to changing climates, 
their ability to migrate, the requirements for corridors that 
have been discussed.
    I think that the figure that was put out by our colleagues 
is very, very minimal.
    Ms. Bordallo. So your answer to my question then would be 
yes?
    Mr. Burchfield. Yes.
    Ms. Bordallo. Senor?
    Mr. Arce. Yes. Something that was really important here is 
that capacity building in Latin America it is very complex. And 
obviously all the funding from this program helps a lot our 
existing training needs. And however the most important thing 
here is that we are just covering part of our geographic 
region. We're just focusing in Central America right now. And 
we would like really to expand our training activities in, for 
instance, Mexico and for Caribbean, South America. Those are 
still the gaps of these training activities, especially where 
we would like to enhance some other audience.
    These particular training activities, and thank you so much 
to this, to the remarkable Federal agency, was developed based 
on an existing NatureServe project funded by the Tinker 
Foundation. And that means that all of these data generated to 
set up a training activity was funded by another donor. And at 
the end if we are just considering the training activity itself 
that the cost was almost $30,000 in total. The training 
activity probably was more than 100K. And I think that is 
important.
    Ms. Bordallo. Thank you very much. And I, after hearing 
from all of you the answer is in the affirmative; is that 
correct?
    Mr. Dillon. Yes.
    Ms. Bordallo. Very good.
    Now, you know our committee is always looking at all 
aspects of any bill or resolution that Congress introduces. And 
so some of these questions have to do with their concerns. So 
when we are preparing the final bill with amendments that we 
want to be sure that everything is included. And so this is to 
Mr. Tom Dillon.
    There seems to be agreement on the scope of the species 
grant programs and to an extent with the regional program. 
There is far less consensus on the global program. Dr. Robinson 
suggested that such a program could be structure to promote 
coordinated Federal responses to address specific issues such 
as climate change, wildlife disease, and illegal trade. Would 
you say that this makes sense? Should the statute then include 
specific guidance regarding what issues should be the focus of 
the global program?
    Mr. Dillon. Thank you for the question, Chairwoman 
Bordallo. My reading and WWF's reading of the bill is that it 
is mostly to consolidate the three existing programs that Fish 
and Wildlife Service has internationally. And it is quite weak 
I would say in the global piece. If there is going to be, you 
know, funding of say $10 million I think it should focus on the 
regional area and there should be different legislation for the 
global program that would have very specific language about the 
global threats to species such as climate change, invasives, 
disease, habitat destruction, particularly from industrial 
agriculture, and we are seeing a spike in that right now with 
fuel prices, fuel and food prices rising so quickly.
    These are big issues and they take substantial amounts of 
money to deal with that I think the current bill as envisioned 
could not really handle. And so it depends on what the ambition 
really is of this bill. It could enhance the regional program 
that exists significantly and then you could consider the 
global program later. Or you could open this up and try and 
have a real global program in here. It seems to me that is a 
decision that the Subcommittee could make.
    Ms. Bordallo. Thank you. Thank you very much.
    And, Dr. Robinson, so you have any thoughts on the same 
question? We want to be sure that we get everybody's input 
here.
    Mr. Robinson. I mean I think with these large global 
threats it has an impact on a number of different areas. But 
what we are considering here in this bill is the impact on 
wildlife species. So when we begin thinking about something 
like wildlife disease, obviously wildlife disease is of concern 
to a number of Federal agencies. CDC is very involved in it, 
for instance. And yet there needs to be a focus on the impact 
of wildlife diseases on wildlife species.
    Equally, the emphasis on climate change. We need to think 
about what is the impact on wildlife species and how to 
mitigate climate change on those wildlife species, recognizing 
that climate change has other impacts that we need to be aware 
of and other agencies that have interest in these things. And 
so what we are I think looking at is trying to identify a set 
of commonalities that relate to wildlife that the U.S. Fish and 
Wildlife Service international program could directly address 
and coordinate.
    Ms. Bordallo. Thank you very much.
    My last question here to wrap up the discussion is to Mr. 
Arha. Some of you have argued that the scope of the bill should 
be much broader than the existing framework. In other context 
people have also argued that we need to look comprehensively at 
all the Federal programs that could be leveraged and applied to 
promote U.S. leadership in the global wildlife conservation. 
Would you then support amending the bill to direct the 
Secretary of Interior to appoint a Blue Ribbon Panel to conduct 
analysis of all the Federal programs that benefit global 
wildlife conservation and to offer any other recommendations? 

Would you go along with such an idea?
    Mr. Arce. With the sage advice and suggestion, Madam Chair, 
I would strongly follow, yes, that I would go along with that 
particular provision. I follow up with two thoughts. I agree 
with my colleagues on the scope of the global program. I do not 
see at the moment as the bill is written, and if you look at 
section 4[3][B] it says ``address the international aspects of 
global conservation threats, such as invasive species and 
wildlife disease.'' Those two are mentioned. It can stand more 
specificity. It does not by any means exclude any of the 
ambitions that have been laid out here. But having a panel 
would certainly be a very worthy course of action and would 
lead us in the right direction.
    One other thought I would share with you, Madam Chair, you 
raised a question early on about spending more money, would 
that be a disincentive? And I just want to give you some 
figures. We at the moment are funding about half of the 
proposals for the grants that we have. So we have a lot of room 
there and I think we could rest aside and for good any concern 
that by raising more funds there would be any disincentive for 
funding as we go forward.
    Thank you, Madam Chair.
    Ms. Bordallo. Thank you very much, Mr. Arha, for that 
statement. And all of this will be placed in the record.
    Is anyone who would like to make any kind of a closing 
remark before we adjourned? Do you all support the blue ribbon 
concept? Yes, I see.
    Mr. Arce. Yes.
    Ms. Bordallo. Very good. All right.
    Well, I want to thank all of you very much for being with 
us. I know this has been a long hearing but very worthwhile. 
And there being no further business before the Subcommittee, as 
Chair I would like to thank the members of the Subcommittee and 
our witnesses. And if there is no further business, the 
Subcommittee meeting is adjourned.
    [Whereupon, at 12:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
